No. ______

In the
Supreme Court of the United States
______________________________________

EX PARTE STEPHEN DALE BARBEE,
Petitioner
______________________________________
On Petition for Writ of Certiorari to the
Texas Court of Criminal Appeals
______________________________________
APPENDICES
_______________________________________

CAPITAL CASE

A. Richard Ellis
75 Magee Avenue
Mill Valley, CA 94941
TEL: (415) 389-6771
FAX: (415) 389-0251
a.r.ellis@att.net
Member, Supreme Court Bar
Counsel of Record for Petitioner

Index of Appendices
Appendix A: Opinion of the Texas Court of Criminal Appeals (“CCA”) of February 10, 2021
denying relief on Mr. Barbee’s issue under McCoy v. Louisiana, 138 S. Ct. 1500 (2018). Ex
Parte Barbee, 616 S.W.3d 836 (Tex. Crim. App. 2021)...................................App.001-016
Appendix B: The unpublished opinion of the CCA staying Mr. Barbee’s execution, ordering
his case filed and set for an opinion, and ordering further briefing on certain questions related
to this issue. Ex Parte Barbee, 2019 WL 4621237 (Tex. Crim. App. Sept. 23, 2019) (per
curiam)................................................................................................................App.017-019
Appendix C: Fifth Circuit Court of Appeals opinion of March 21, 2018 denying relief on a
pre-McCoy claim that trial counsel were ineffective in conceding Barbee’s guilt to the jury
without his permission. Barbee v. Davis, 728 F. App’x 259 (5th Cir. 2018)....App.020-029
Appendix D: Fifth Circuit opinion granting a certificate of appealability (“COA”) on that
claim. Barbee v. Davis, 660 F. App’x 293 (5th Cir. 2016)....................................App.030-056
Appendix E: CCA opinion denying that claim. Ex parte Barbee, No. WR-71070-01, 2009
WL 82360 (Tex. Crim. App. Jan. 14, 2009).......................................................App.057-058
Appendix F: The trial court order of July 6, 2021 setting an execution date of October 12,
2021 for Mr. Barbee, and the death warrant..........................................................App.059-067

APPENDIX A

App. 001

Ex parte Barbee, 616 S.W.3d 836 (2021)

616 S.W.3d 836
Court of Criminal Appeals of Texas.

EX PARTE Stephen Dale
BARBEE, Applicant
NO. WR-71,070-03
|
Delivered: February 10, 2021
Synopsis
Background: After conviction for capital murder and
sentence to death was affirmed, 2008 WL 5160202, and
following denial of prior applications for writ of habeas
corpus, applicant filed second subsequent application for writ
of habeas corpus.

Holdings: The Court of Criminal Appeals, Keel, J., held that:
legal basis for claim was previously available, precluding
relief on subsequent application, and
applicant failed to allege sufficient facts supporting claim,
precluding relief on subsequent application.
Application dismissed.
Yeary and Newell, JJ., joined in part and concurred in part.
Walker, J., filed concurring opinion.
*838 ON APPLICATION FOR A WRIT OF HABEAS
CORPUS FROM TARRANT COUNTY
Attorneys and Law Firms
Allen Richard Ellis, for Applicant.

OPINION
Keel, J., delivered the opinion of the Court in which Keller,
P.J., and Hervey, Richardson, Slaughter, and McClure, JJ.,
joined.

This is a subsequent application for writ of habeas corpus filed
pursuant to Texas Code of Criminal Procedure Article 11.071,
Section 5. Applicant seeks relief under McCoy v. Louisiana,
––– U.S. ––––, 138 S. Ct. 1500, 200 L.Ed.2d 821 (2018),
which he claims was a previously unavailable legal basis for
his claim. We filed and set his application to address whether
he is entitled to relief under McCoy. We conclude that the
legal basis for the current claim was previously available, and
even if it were not, Applicant fails to allege facts that would
entitle him to relief under McCoy. Consequently, we dismiss
this subsequent application as an abuse of the writ. Tex. Code
Crim. Proc. art. 11.071 § 5(c).
I. Article 11.071, Section 5
Unless an applicant for a writ of habeas corpus meets a
very fine-tuned exception, he is limited to one full and fair
opportunity to present any claims that may entitle him to
relief from his judgment or sentence. Ex parte Kerr, 64
S.W.3d 414, 418-19 (Tex. Crim. App. 2002). “[E]verything
you can possibly raise the first time, we expect you to raise
it initially, one bite of the apple, one shot.” Id. (quoting S.B.
440, Acts 1005, 74th Leg., codified at Tex. Code Crim. Proc.
art. 11.071 (Presentation by Representative Pete Gallego at
second reading of S.B. 440 on the floor of the House of
Representatives, May 18, 1995)).
Applicant relies on the “previously unavailable legal basis”
exception to the bar against subsequent applications. Under
that exception, we may consider the merits of a subsequent
application if it contains sufficient specific facts establishing
that the claim has not been and could not have been
previously presented because the legal basis for the claim
was unavailable when the previous application was filed. The
exception says:
*839 (a) If a subsequent application for a writ of habeas
corpus is filed after filing an initial application, a court
may not consider the merits of or grant relief based on
the subsequent application unless the application contains
sufficient specific facts establishing that:
(1) the current claims and issues have not been and could
not have been presented previously in a timely initial
application or in a previously considered application filed
under this article or Article 11.07 because the factual or
legal basis for the claim was unavailable on the date the
applicant filed the previous application[.]
Tex. Code Crim. Proc. art. 11.071 § 5(a)(1).

002
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

1

Ex parte Barbee, 616 S.W.3d 836 (2021)

A legal basis was previously unavailable if it “was not
recognized by or could not have been reasonably formulated
from a final decision of” a relevant court “on or before” the
date the previous application was filed. Tex. Code Crim. Proc.
art. 11.071 § 5(d). A legal basis was previously available
if it “could have been rationally fashioned” from relevant
precedent, Ex parte Navarro, 538 S.W.3d 608, 615 (Tex.
Crim. App. 2018) (construing same language as found in
Texas Code of Criminal Procedure Article 11.07, Section 4(a)
(1) and rejecting challenge to adequacy of juvenile transfer
order), or if it is founded on “familiar principles articulated
in earlier cases” from relevant courts. See Ex parte St.
Aubin, 537 S.W.3d 39, 45 (Tex. Crim. App. 2017) (rejecting
multiple-punishments, double-jeopardy claim in subsequent
writ because legal basis was previously available). The
likelihood of a claim's success is irrelevant to determining
whether its legal basis was previously unavailable. Navarro,
538 S.W.3d at 615. But a legal basis was previously
unavailable if subsequent case law makes it easier to establish
the claim and renders inapplicable factors that had previously
been weighed in evaluating its merits. See Ex parte Chavez,
371 S.W.3d 200, 207 (Tex. Crim. App. 2012) (holding that
the legal basis for a due process violation based on the
State's unknowing use of false testimony was previously
unavailable).
In addition to establishing the previous unavailability of the
legal basis for his claim, the applicant must allege facts that,
if true, would entitle him to relief on that basis. See Ex
parte Staley, 160 S.W.3d 56, 63 (Tex. Crim. App. 2005) (per
curiam).
Applicant claims that his attorney violated his Sixth
Amendment right to assistance of counsel by making a
strategic concession of his guilt over his express objection. He
argues that the legal basis for his claim was unavailable until
2018 when the Supreme Court issued its opinion in McCoy,
138 S. Ct. 1500. But the legal basis for Applicant's claim could
have been reasonably formulated from existing precedent
because McCoy was the logical extension of Florida v. Nixon,
543 U.S. 175, 125 S.Ct. 551, 160 L.Ed.2d 565 (2004), based
on the factual distinctions—not legal ones—between the
two cases. Furthermore, Applicant does not allege facts that
would entitle him to relief under McCoy’s terms even if
it were a previously unavailable legal basis for his claim.
Consequently, we must dismiss his application. Tex. Code
Crim. Proc. art. 11.071 § 5(c).
II. Applicant's Confessions and Trial

Applicant was charged with capital murder for killing his
pregnant ex-girlfriend, Lisa Underwood, and her seven-yearold son, Jayden, in the same criminal transaction.
Lisa was reported missing when she failed to show up for her
baby shower. At her home, police found no signs of forced
entry, but blood—later identified as hers—was on the walls,
the furniture, and the *840 floor in the living room. More
blood was on the floor of the garage, and her car was gone.
Early that same morning, a deputy saw Applicant on foot,
wet and covered in mud, near a creek. Applicant gave him a
false name and fled into the nearby woods. Two days later,
Lisa's car was found in the creek near which the deputy had
encountered Applicant.
Applicant became a suspect in Lisa and Jayden's
disappearance when police learned that Applicant could be
the father of Lisa's unborn child. Lisa had been asking
Applicant to tell his wife about the pregnancy and to provide
insurance for the child, but Applicant refused to do so without
a DNA test confirming that he was the father.
Applicant confessed to the police that he had killed Lisa and
Jayden and showed them where he had buried the bodies.
He also met with his wife, Trish Barbee, in the interrogation
room, and that meeting was recorded. Trish asked Applicant
how he killed Lisa, and he tearfully explained that he “held
her down too long” and “it was an accident.” He also admitted
to his ex-wife that he had killed Lisa and Jayden but that he
had not meant to do so.
Before trial, Applicant wrote a letter to his appointed
attorneys recanting his confessions. He stated that he initially
told the police that he did not know what happened to Lisa
and Jayden, he was not there, and he did not do it. He told
defense counsel that the detective threatened him with the
death penalty if he did not talk, so he said the killings were an
accident: he and Lisa got into an argument, she kicked him, he
hit her in the nose, he held her down too long, and he put his
hand over Jayden's face until he stopped screaming. Applicant
recanted his confessions and changed his story, ultimately
claiming that he was innocent of the murders. Applicant said
he helped bury the bodies after his ex-wife's boyfriend and
Applicant's employee, Ron Dodd, killed Lisa and Jayden.
Faced with Applicant's confessions, defense counsel
concluded that the “Dodd did it” theory would not work at
trial, and they instead pursued the theory that Lisa's death

003
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

2

Ex parte Barbee, 616 S.W.3d 836 (2021)

was accidental. This theory was supported by Applicant's
confessions and by the medical examiner's testimony.
Dr. Marc Krouse, the medical examiner who performed the
autopsy on Lisa, testified that Lisa's death resulted from
traumatic asphyxiation, possibly caused by smothering. He
testified on cross-examination that, because Lisa was in a late
stage of pregnancy, she was susceptible to smothering and
might have stopped breathing after as little as thirty seconds
of being held down.
The defense attorney summarized the theory in closing
argument:
As hard as it is to say, the evidence from the courtroom
shows that Stephen Barbee killed Jayden Underwood.
There is no evidence to the contrary. The problem in
the capital murder case is the evidence in this courtroom
that you heard doesn't show that Stephen Barbee had the
conscious objective or desire or that he knew his conduct
was reasonably certain to cause the result, those two
definitions there. And it is supported by the testimony of
the 25-year veteran of the medical examiner's office, Dr.
Marc Krouse. Dr. Krouse told you that he could not be sure
when Lisa Underwood lost consciousness ... And Stephen
Barbee's own words to his wife, it matches. That's the
problem from their standpoint. What he told Trish Barbee
is I held her down too long. That's exactly what matches
the testimony of Dr. Marc Krouse. And as hard as it is
to do, I submit to you that the evidence in this *841
case, the conclusive beyond a reasonable doubt evidence,
does not support an intentional or knowing murder for Lisa
Underwood. Was he there? Yes. Did he hold her down? Yes.
Did he know or intend that she was going to die or was that
his conscious objective? The answer is no.
The trial court charged the jury on the lesser-included offenses
of murder and manslaughter, but the jury found Applicant
guilty of capital murder. Pursuant to the jury's answers to the
special issues, the trial court sentenced Applicant to death.
Applicant did not testify at trial or object to the defense
strategy.
III. Relevant Procedural History
We affirmed Applicant's conviction and sentence on direct
appeal. Barbee v. State, No. AP–75,359, 2008 Tex. Crim.
App. Unpub. LEXIS 900 (Tex. Crim. App., Dec. 10, 2008).

In his 2008 initial writ application, Applicant claimed that
his Sixth Amendment right to the assistance of counsel was
violated by trial counsel confessing his guilt to the jury
during closing argument without his knowledge or consent.
Applicant alleged that he was abandoned by counsel at the
trial stage and that it was structural error, meaning that
prejudice should be presumed, citing United States v. Cronic,
466 U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d 657 (1984).
The trial court recommended that relief be denied and entered
findings of fact and conclusions of law, including that the
right to effective assistance of counsel extends to closing
arguments, counsel's decision to focus closing argument on
the defensive theory of accident was reasonable in light of
the evidence admitted at trial, and Applicant was provided
adequate counsel in closing arguments. We agreed with the
trial court's recommendation and denied relief with written
order. Ex parte Barbee, No. WR-71,070-01, 2009 Tex. Crim.
App. Unpub. LEXIS 5 (Tex. Crim. App., Jan. 14, 2009). The
Supreme Court denied certiorari. Barbee v. Texas, 2009 U.S.
LEXIS 5631 (Oct. 5, 2009).
Applicant filed a subsequent writ in 2011, complaining that
his ineffective assistance claim was analyzed under Strickland
v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984), rather than the Cronic standard under which the claim
was brought. We dismissed the 2011 subsequent application
as an abuse of the writ. Ex parte Barbee, No. WR-71,070-02,
2013 Tex. Crim. App. Unpub. LEXIS 526 at *2 (Tex. Crim.
App., May 8, 2013).
Applicant also raised this issue in his 2015 federal habeas
petition. He claimed that counsel provided ineffective
assistance by conceding his guilt to the jury without his
permission, and he characterized it as abandonment by
counsel subject to the Sixth Amendment standard in Cronic.
Barbee v. Stephens, No. 4:09-CV-074-Y, 2015 U.S. Dist.
LEXIS 88060 at *86 (N.D. Tex., July 7, 2015). The District
Court determined that the claim was properly analyzed under
Strickland rather than Cronic and denied the claim. Barbee v.
Stephens, 2015 U.S. Dist. LEXIS 88060 at *87 (“For Cronic
to apply, the attorney's failure to subject the state's case to
meaningful adversarial testing must be complete.”) (citing
Wright v. Van Patten, 552 U.S. 120, 124 n.1, 128 S.Ct. 743,
169 L.Ed.2d 583 (2008)).
After the Supreme Court issued its 2018 McCoy opinion,
Applicant filed this second subsequent application for writ of
habeas corpus, claiming that his trial attorney overrode his

004
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

3

Ex parte Barbee, 616 S.W.3d 836 (2021)

Sixth Amendment autonomy right to insist on his innocence.
Because this is a subsequent writ, the merits of *842
Applicant's claim cannot be considered unless it meets the
requirements of Article 11.071, Section 5.

belong to the defendant, for example: “whether to plead
guilty, waive the right to jury trial, testify in one's behalf, and
forgo an appeal.” McCoy, 138 S. Ct. at 1508 (citing Jones v.
Barnes, 463 U.S. 745, 751, 103 S.Ct. 3308, 77 L.Ed.2d 987
(1983)).

IV. McCoy v. Louisiana
McCoy applied longstanding jurisprudence related to
defendant autonomy and structural error to a “stark scenario,”
holding that a capital murder defendant has the right to insist
that his counsel refrain from admitting guilt of the charged
offense. McCoy, 138 S. Ct. at 1510-11. The violation of that
right “was complete when the [trial] court allowed counsel to
usurp control of an issue within McCoy's sole prerogative[,]”
thus foreclosing any need to demonstrate prejudice. Id.

The Court concluded, “Autonomy to decide that the objective
of the defense is to assert innocence” is reserved for
the defendant. McCoy, 138 S. Ct. at 1508. “Just as a
defendant may steadfastly refuse to plead guilty in the face
of overwhelming evidence against her, or reject the assistance
of legal counsel despite the defendant's own inexperience
and lack of professional qualifications, so may she insist
on maintaining her innocence at the guilt phase of a capital
trial.” Id. McCoy derived the defendant's right to assert
innocence against counsel's advice from the defendant's right
to decide whether to plead guilty and from his right to reject
the assistance of counsel. Id. (quoting Faretta, 422 U.S. at
819, 95 S.Ct. 2525 and citing Barnes, 463 U.S. at 751, 103
S.Ct. 3308).

McCoy was accused of having killed his estranged wife's
son, mother, and stepfather, and the evidence against him was
strong. Id. at 1505-06. But he maintained that he was innocent
and that the victims had been killed by police in a drug deal
gone bad. Id. at 1506. McCoy instructed his attorney to pursue
an outright acquittal and not to concede guilt, but the attorney
saw that as a futile effort that would make the death penalty
inevitable. Id. McCoy protested to the trial court before and
during trial that he was innocent and that his attorney was
“selling him out” by making the concession. Id. McCoy's
protestations were futile. The trial court instructed the defense
attorney to try the case as he had planned, refused McCoy's
request for time to hire a new lawyer, and cautioned McCoy
against making outbursts in front of the jury. Id. at 1506-07.
In opening statement the attorney told the jury, “my client
committed three murders.” Id. at 1507. In closing argument
he said that McCoy was the killer and that he took the burden
off the prosecutor on that issue. Id. Defense counsel conceded
at punishment that McCoy committed the crimes but urged
the jury to consider McCoy's mental and emotional issues. Id.
On appeal McCoy argued that his constitutional rights were
violated by his attorney conceding guilt over his objections.
Id. The Supreme Court agreed.
IV.A. Sixth Amendment Assistance of Counsel
The Supreme Court noted that to gain the assistance of
counsel, “a defendant need not surrender control entirely to
counsel.” Id. at 1508. The Sixth Amendment “speaks of the
‘assistance’ of counsel, and an assistant, however expert, is
still an assistant.” Id. (quoting Faretta v. California, 422 U.S.
806, 819-20, 95 S.Ct. 2525, 45 L.Ed.2d 562 (1975)). Trial
management is the attorney's province, but some decisions

*843 Such decisions are not “about how best to achieve a
client's objectives; they are choices about what the client's
objectives in fact are.” McCoy, 138 S. Ct. at 1508 (citing
Weaver v. Massachusetts, ––– U.S. ––––, 137 S. Ct. 1899,
1908, 198 L.Ed.2d 420 (2017), and Martinez v. Court of
Appeal of Cal., Fourth Appellate Dist., 528 U.S. 152, 165,
120 S.Ct. 684, 145 L.Ed.2d 597 (2000) (Scalia, J., concurring
in judgment)). When a defendant “expressly asserts that the
goal of ‘his defense’ is to maintain innocence of the charged
criminal acts, his lawyer must abide by that objective and
may not override it by conceding guilt.” McCoy, 138 S.
Ct. at 1509 (quoting and emphasizing U.S. Const. Amend
VI). Once McCoy communicated “to court and counsel” that
he “strenuously” objected to counsel's proposed strategy, “a
concession of guilt should have been off the table.” McCoy,
138 S. Ct. at 1512.
The McCoy majority dismissed the dissenting opinion's
claim about the rarity of attorney-client disagreements over
conceding guilt and noted that three state supreme courts
other than Louisiana's had addressed the issue. Id. at 1510. It
pointed out the similarities of those cases to McCoy's case,
namely, “the defendant repeatedly and adamantly insisted on
maintaining his factual innocence despite counsel's preferred
course: concession of the defendant's commission of criminal
acts and pursuit of diminished capacity, mental illness, or lack
of premeditation defenses.” Id. (citing People v. Bergerud,
223 P.3d 686, 690-91 (Colo. 2010); Cooke v. State, 977 A.2d

005
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

4

Ex parte Barbee, 616 S.W.3d 836 (2021)

803, 814 (Del. 2009); and State v. Carter, 270 Kan. 426,
14 P.3d 1138, 1141 (2000)). McCoy said that “these were
not strategic disputes” but “intractable disagreements about
the fundamental objective of the defendant's representation.”
McCoy, 138 S. Ct. at 1510. “In this stark scenario, we agree
with the majority of state courts of last resort that counsel
may not admit her client's guilt of a charged crime over the
client's intransigent objection to that admission.” Id. McCoy
then turned its attention to prejudice.
IV.B. Structural Error/Presumed Prejudice
McCoy said counsel's admission of a defendant's guilt over his
express objection was structural error meriting a presumption
of prejudice for “at least” two reasons: the effects of the error
are too hard to measure, and the right at issue is designed to
protect “the fundamental legal principle that a defendant must
be allowed to make his own choices about the proper way to
protect his own liberty.” Id. at 1511 (quoting Weaver, 137 S.
Ct. at 1908).
McCoy opposed his counsel's assertion of his guilt “at every
opportunity, before and during trial, both in conference
with his lawyer and in open court.” McCoy, 138 S. Ct.
at 1509. McCoy had an outburst in court, objecting to his
own counsel's opening statement. Id. at 1506-07. McCoy
testified to facts in complete opposition to those raised by his
counsel. Id. at 1507. Defense counsel relieved the State of
its burden to prove guilt beyond a reasonable doubt. Id. And
the trial court erred in knowingly allowing defense counsel
to violate McCoy's Sixth Amendment rights. Id. at 1506.
The error was structural because it impacted the framework
within which McCoy's trial proceeded. See United States v.
Gonzalez-Lopez, 548 U.S. 140, 150, 126 S.Ct. 2557, 165
L.Ed.2d 409 (2006) (violation of certain rights is structural
error when it impacts the framework within which the trial
proceeds). McCoy's trial contrasted with Nixon's, and that
contrast justified the different approaches to their cases.
IV.C. Nixon vs. McCoy
Like McCoy, Nixon claimed that his attorney violated his
Sixth Amendment right *844 to counsel by conceding his
guilt without his consent. Nixon, 543 U.S. at 185, 125 S.Ct.
551. But Nixon did not expressly object to the strategy;
when it was explained to him, he was unresponsive. Id. at
181, 125 S.Ct. 551. This unresponsiveness was the key to
the Supreme Court's rejection of the Florida court's opinion
that the attorney's concession was presumptively deficient
performance and prejudicial.

Nixon held that the concession was not unreasonable given
Nixon's unresponsiveness. Id. at 189, 125 S.Ct. 551. “Nixon's
characteristic silence each time information was conveyed
to him, in sum, did not suffice to render unreasonable [his
attorney's] decision to concede guilt and to home in, instead,
on the life or death penalty issue.” Id. And Nixon held that
a presumption of prejudice would not be “in order based
solely on a defendant's failure to provide express consent to
a tenable strategy counsel has adequately disclosed to and
discussed with” him. Id. at 181, 125 S.Ct. 551. If Nixon had
objected, then, the concession might have been unreasonable
and a presumption of prejudice might have been warranted.
Presented with such facts, McCoy took Nixon to its next
logical step.
McCoy noted that Nixon was not contrary to its holding
but was distinguishable because McCoy, unlike Nixon,
adamantly objected to the admission of guilt at every
opportunity, before and during trial and in and out of court.
McCoy, 138 S. Ct. at 1509. If a defendant “declines to
participate in his defense, then an attorney may permissibly
guide the defense pursuant to the strategy she believes to
be in the defendant's best interest. Presented with express
statements of the client's will to maintain innocence, however,
counsel may not steer the ship the other way.” Id. (citing
Gonzalez v. United States, 553 U.S. 242, 254, 128 S.Ct. 1765,
170 L.Ed.2d 616 (2008) (Scalia, J., concurring in judgment)
(distinguishing “action taken by counsel over his client's
objection” from defendant's failure to personally express to
the court his consent to waive certain rights)). Counsel “must
still develop a trial strategy and discuss it with her client,
explaining why, in her view, conceding guilt would be the best
option.” McCoy, 138 S. Ct. at 1509 (citing Nixon, 543 U.S. at
178, 125 S.Ct. 551).
Although both Nixon and McCoy claimed that their Sixth
Amendment rights were violated by counsel conceding guilt
without their permission, the differences between their trials
yielded different analyses. McCoy did not have to show
prejudice because, unlike Nixon, (1) McCoy told his attorney
that his defensive objective was to assert innocence at trial,
(2) he told the trial court before and during trial that his
attorney was conceding his guilt against his wishes, and (3)
the trial court nevertheless allowed defense counsel to make
the concession, causing structural error.
V. The Legal Basis for Applicant's McCoy Claim Was
Previously Available

006
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

5

Ex parte Barbee, 616 S.W.3d 836 (2021)

McCoy was founded on “familiar legal principles” that dealt
with the division of labor between attorney and client, Barnes,
463 U.S. at 751, 103 S.Ct. 3308, the duty of the attorney to
consult with his client about important matters, Nixon, 543
U.S. at 189, 125 S.Ct. 551, the client's exclusive right to
make fundamental decisions about his own defense with the
assistance of counsel, Faretta, 422 U.S. at 819, 95 S.Ct. 2525,
and structural error, Gonzalez-Lopez, 548 U.S. at 150, 126
S.Ct. 2557. See St. Aubin, 537 S.W.3d at 34.

its disclaimer and instead contrasted it based on the factual
differences between the two cases. McCoy, 138 S. Ct. at 1509.

McCoy was a logical extension of Nixon and “could have
been rationally fashioned” from it. See Navarro, 538 S.W.3d
at 615. Carter and Cooke demonstrated as much. *845
See Carter, 270 Kan. 426, 14 P.3d 1138 (relying on, e.g.,
Faretta and Cronic to hold that guilt-based defense imposed
against defendant's wishes violated Sixth Amendment right
to counsel); Cooke, 977 A.2d 803 (relying on, e.g., Faretta,
Nixon, and Cronic to hold that the defendant was denied
counsel and presumptively prejudiced when his attorney
pursued a guilty-but-mentally-ill strategy over his objection).

VI. Failure to Allege Sufficient Facts
Applicant seeks to distinguish his McCoy claim from other
such claims that have been dismissed by this Court under
Article 11.071, Section 5. Unlike those cases, he argues,
his application “contains extensive evidence demonstrating
that he informed his lawyers that he wished to maintain his
innocence.” But it does not. His exhibits include evidence
that he told various people, including his attorneys, that he
was innocent, he would not plead guilty, and Dodd killed
Lisa and Jayden; he told the forensic psychiatrist that he
would rather be executed than have his mother see him “plead
guilty”; he complained to the trial court about a “breakdown
in communication” with his attorneys; his attorney did not
“explicitly” tell him that his closing argument would concede
Applicant's identity as Lisa and Jayden's killer; and Applicant
was “shocked” when he heard the argument. These facts
demonstrate that Applicant told his attorneys that he was
innocent; they do not demonstrate that he told them that his
defensive objective was to maintain his innocence at trial.
Thus, the application fails to allege facts that, if true, would
entitle him to relief under McCoy.

McCoy did not make it easier to establish a claim. See Chavez,
371 S.W.3d at 207. McCoy merely required factually what
Nixon explicitly lacked: a defendant's express objections to a
concession of guilt disregarded by counsel and court and aired
before a jury during trial. Since the structural error analysis
flowed from those requirements, McCoy’s presumption of
prejudice was not an abandonment of factors previously
weighed, either; it was an addition of factors.
Applicant argues that the legal basis for his claim was
previously unavailable because McCoy was the first case to
uphold a defendant's Sixth Amendment right to decide the
objective of his defense, and its focus on the defendant's
wishes represented a departure from Strickland. Even so,
that is not the test for a previously unavailable legal
basis. Applicant points to McCoy’s purported disclaimer
of Supreme Court ineffective-assistance-of-counsel (IAC)
jurisprudence where it said, “Because a client's autonomy, not
counsel's competence, is in issue, we do not apply our [IAC]
jurisprudence, [Strickland, 466 U.S. 668, 104 S.Ct. 2052,
80 L.Ed.2d 674] or [Cronic, 466 U.S. 648, 104 S.Ct. 2039,
80 L.Ed.2d 657].” McCoy, 138 S. Ct. at 1510-11. But that
disclaimer related to the showing of prejudice “ordinarily”
required for IAC claims. Id. at 1511. The violation of McCoy's
right was “complete” when the trial court allowed it to
occur, and a showing of prejudice was thus unnecessary. Id.
Significantly, McCoy did not cite Nixon in connection with

The legal basis for Applicant's current claim was previously
available under the terms of Article 11.071, Section 5. Even
if it were not previously available, Applicant does not allege
sufficient facts to show that his claim meets the requirements
of McCoy.

*846 VII. Conclusion
The legal basis for Applicant's claim was available when
his previous applications were filed, and Applicant has
not alleged facts that, if true, would entitle him to relief
under McCoy. This subsequent application does not meet the
requirements of Article 11.071, Section 5, and we dismiss it
as an abuse of the writ under Section 5(c).

Yeary and Newell, JJ., joined Part VI of the Court's opinion
and otherwise concurred.
Walker, J., filed a concurring opinion.

CONCURRING OPINION

007
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

6

Ex parte Barbee, 616 S.W.3d 836 (2021)

Walker, J., filed a concurring opinion.
Today, the Court rejects Stephen Dale Barbee, Applicant's,
third application for habeas corpus relief on the basis that
it is procedurally barred. The Court decides that McCoy v.
Louisiana, ––– U.S. ––––, 138 S.Ct. 1500, 200 L.Ed.2d 821
(2018), does not constitute a new legal basis for relief because
it was a logical extension of Florida v. Nixon, 543 U.S. 175,
125 S.Ct. 551, 160 L.Ed.2d 565 (2004), based on the factual
distinctions—not legal ones—between the two cases.
I disagree. McCoy could not have been reasonably
formulated by factually distinguishing Nixon. An argument
factually distinguishing Nixon is an argument that counsel's
performance was so deficient that prejudice, required by
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984), should be presumed under United
States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d
657 (1984). This was illustrated by Applicant's previous
applications in which he challenged the effectiveness of
counsel's representation and tried to distinguish Nixon
such that counsel's performance would be presumptively
prejudicial under Cronic.
McCoy was not a logical extension of Nixon, an ineffective
assistance of counsel case. McCoy expressly disclaimed
reliance on ineffective assistance of counsel case law under
Strickland and Cronic, and Nixon is part of that case
law. Instead, McCoy was concerned with the defendant's
autonomy under the principles of Faretta v. California, 422
U.S. 806, 95 S.Ct. 2525, 45 L.Ed.2d 562 (1975). Yet McCoy
could not have been reasonably formulated from relevant case
law such as Faretta or its progeny. McCoy constitutes a new
legal basis.
However, I agree with the majority that Applicant's latest
claim does not overcome the statutory procedural bar for
subsequent writs because Applicant fails to set out a prima
facie case that trial counsel usurped his authority to set the
goals of his defense. Applicant's evidence in the habeas record
shows that he told counsel repeatedly that he was innocent;
it does not show that he told counsel to pursue a defense of
asserting innocence that counsel then overrode. Accordingly,
I concur with the Court's decision to dismiss the application.

I — The Procedural Bar to Subsequent Writ Applications

Because this is Applicant's third application for habeas
relief, under article 11.071, § 5, of the Code of Criminal
Procedure, the general rule would bar us from considering
this subsequent application. See Tex. Code Crim. Proc. Ann.
art. 11.071 § 5(a) (“If a subsequent application for a writ of
habeas corpus is filed after filing an initial application, a court
may not consider the merits of or grant relief based on the
subsequent application....”). There are exceptions, however,
and Applicant claims that the new legal basis exception
applies to his case. That exception applies if:
the [subsequent] application contains sufficient specific
facts establishing that: *847 (1) the current claims and
issues have not been and could not have been presented
previously in a timely initial application or in a previously
considered application filed under this article or Article
11.07 because the factual or legal basis for the claim was
unavailable on the date the applicant filed the previous
application....
Id. § 5(a)(1). A legal basis is previously unavailable:
if the legal basis was not recognized by or could not have
been reasonably formulated from a final decision of the
United States Supreme Court, a court of appeals of the
United States, or a court of appellate jurisdiction of this
state on or before that date.
Id. § 5(d).

II — McCoy v. Louisiana
Applicant claims, as his new legal basis, the Supreme Court's
2018 decision in McCoy v. Louisiana, which was handed
down seven years after Applicant's previous application filed
in 2011. See Ex parte Barbee, No. WR-71,070-02, 2013 WL
1920606 (Tex. Crim. App. May 8, 2013). In McCoy, the
United States Supreme Court held “that a defendant has the
right to insist that counsel refrain from admitting guilt, even
when counsel's experienced-based view is that confessing
guilt offers the defendant the best chance to avoid the death
penalty.” McCoy, 138 S.Ct. at 1505.
In McCoy, the defendant was charged with three counts
of first-degree murder under Louisiana law for murdering
his estranged wife's mother, stepfather, and son, and the
prosecution gave notice that it would seek the death penalty.
Id. at 1505–06. McCoy pled not guilty, insisting that he was
out of the state at the time of the killings and that corrupt
police killed the victims when a drug deal went wrong.
Id. at 1506. Counsel concluded, however, that the evidence

008
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

7

Ex parte Barbee, 616 S.W.3d 836 (2021)

was so overwhelming that McCoy would be sentenced to
death unless he conceded that he was the killer. Id. McCoy
was furious when told of counsel's strategy. Id. McCoy was
completely opposed and instructed counsel to pursue an
acquittal instead of conceding guilt. Id.
At the beginning of counsel's opening statement in the guilt
phase of trial, counsel told the jury that McCoy committed
the three murders. Id. McCoy testified in his own defense,
maintaining his innocence and pressing his alibi. Id. at 1507.
In closing argument, counsel again told the jury that McCoy
was the killer, and on that issue counsel told the jury that the
burden was taken off of the prosecution. Id. The jury found
McCoy guilty of all three first-degree murder counts. Id. At
the penalty phase, counsel repeated that McCoy was guilty but
urged mercy in view of McCoy's mental and emotional issues.
Id. The jury returned three death verdicts. Id. On appeal,
McCoy argued that his constitutional rights were violated
when the trial court allowed counsel to concede that McCoy
committed the murders over his objection, but the Louisiana
Supreme Court held that counsel had the authority to concede
McCoy's guilt despite his opposition. Id.
The Supreme Court granted certiorari in view of the split
between Louisiana on the one side and decisions by the
Delaware and Kansas Supreme Courts on the other side
over “whether it is unconstitutional to allow defense counsel
to concede guilt over the defendant's intransigent and
unambiguous objection.” Id. (citing Cooke v. State, 977 A.2d
803, 842–46 (Del. 2009), and State v. Carter, 270 Kan. 426,
14 P.3d 1138, 1148 (2000)).
In deciding the issue, the Supreme Court began with the
right to self-representation under Faretta. Id. at 1507–
08 (discussing Faretta). Should a defendant choose to be
represented by counsel, certain *848 decisions, such as
“what arguments to pursue, what evidentiary objections
to raise, and what agreements to conclude regarding the
admission of evidence,” are made by counsel, while other
decisions, such as “whether to plead guilty, waive the right to
a jury trial, testify in one's own behalf, and forgo an appeal,”
belong to the defendant. Id. at 1508 (citing Gonzalez v. United
States, 553 U.S. 242, 128 S.Ct. 1765, 170 L.Ed.2d 616 (2008);
and Jones v. Barnes, 463 U.S. 745, 103 S.Ct. 3308, 77 L.Ed.2d
987 (1983)). The Supreme Court held, in McCoy, that the
decision to determine that the objective of the defense is to
assert innocence is one of the decisions that belong to the
defendant:

Autonomy to decide that the objective of the defense is
to assert innocence belongs in this latter category. Just as
a defendant may steadfastly refuse to plead guilty in the
face of overwhelming evidence against her, or reject the
assistance of legal counsel despite the defendant's own
inexperience and lack of professional qualifications, so
may she insist on maintaining her innocence at the guilt
phase of a capital trial. These are not strategic choices about
how best to achieve a client's objectives; they are choices
about what the client's objectives in fact are.
Id. at 1508 (emphasis in original).
The issues in McCoy and in Faretta, Gonzales, and Barnes
relate to which decisions belong to the defendant and
which decisions belong to counsel, not whether counsel was
effective in performing his duties. See Faretta, 422 U.S. at
807, 95 S.Ct. 2525 (self-representation); Gonzalez, 553 U.S.
at 253, 128 S.Ct. 1765 (decision of whether to waive Article
III judge at voir dire belongs to counsel); Barnes, 463 U.S. at
751, 103 S.Ct. 3308 (decision of which nonfrivolous claims
to assert on appeal belongs to counsel). Not surprisingly, then,
the Supreme Court declared in McCoy that:
Because a client's autonomy, not counsel's competence,
is in issue, we do not apply our ineffective-assistance-ofcounsel jurisprudence, Strickland v. Washington, 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), or United
States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d
657 (1984), to McCoy's claim.
McCoy, 138 S.Ct. at 1510-11.

III — Florida v. Nixon, Strickland, and Cronic
The legal theory behind McCoy—a defendant's autonomy
to decide that the objective of his defense is to assert
innocence—is completely different from the legal theory
behind Florida v. Nixon. The legal theory behind Nixon
is that of Strickland v. Washington and United States v.
Cronic, which were concerned with ineffective assistance
of counsel. Normally, a defendant alleging that he received
ineffective assistance of counsel must show (1) that counsel's
performance was deficient, and (2) that counsel's deficient
performance prejudiced the defense. Strickland, 466 U.S. at
687, 104 S.Ct. 2052.
Cronic, decided the same day as Strickland, provides an
exception to the Strickland ineffective assistance standard.
Strickland, 466 U.S. at 668, 104 S.Ct. 2052 (decided May 14,

009
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

8

Ex parte Barbee, 616 S.W.3d 836 (2021)

1984); Cronic, 466 U.S. at 648, 104 S.Ct. 2039 (decided May
14, 1984); Nixon, 543 U.S. at 190, 125 S.Ct. 551 (“Cronic
recognized a narrow exception to Strickland’s holding[.]”).
Whereas under Strickland a defendant claiming ineffective
assistance of counsel must make a two-prong showing of
deficient performance and prejudice, Cronic recognized that
there are circumstances in which prejudice is so likely that a
defendant need not prove it. Nixon, 543 U.S. at 190, 125 S.Ct.
551. *849 Stating the general rule that “because we presume
that the lawyer is competent to provide the guiding hand that
the defendant needs ... the burden rests on the accused to
demonstrate a constitutional violation,” the Supreme Court in
Cronic explained:

such that Cronic’s presumption of prejudice applied. Id. at
190, 125 S.Ct. 551. Unlike most cases:

There are, however, circumstances that are so likely to
prejudice the accused that the cost of litigating their effect
in a particular case is unjustified.

Counsel therefore may reasonably decide to focus on the
trial's penalty phase, at which time counsel's mission is to
persuade the trier that his client's life should be spared.
Unable to negotiate a guilty plea in exchange for a life
sentence, defense counsel must strive at the guilt phase
to avoid a counterproductive course. In this light, counsel
cannot be deemed ineffective for attempting to impress the
jury with his candor and his unwillingness to engage in
“a useless charade.” Renowned advocate Clarence Darrow,
we note, famously employed a similar strategy as counsel
for the youthful, cold-blooded killers Richard Loeb and
Nathan Leopold. Imploring the judge to spare the boys’
lives, Darrow declared: “I do not know how much salvage
there is in these two boys.... I will be honest with this court
as I have *850 tried to be from the beginning. I know that
these boys are not fit to be at large.”
Id. at 190–92 (citations omitted). Because conceding guilt in
a capital case could be a matter of trial strategy, the Supreme
Court held that counsel's performance should be evaluated
under the normal ineffective assistance of counsel standard of
Strickland. Id. at 192, 125 S.Ct. 551.

Most obvious, of course, is the complete denial of counsel.
The presumption that counsel's assistance is essential
requires us to conclude that a trial is unfair if the accused
is denied counsel at a critical stage of his trial. Similarly,
if counsel entirely fails to subject the prosecution's case
to meaningful adversarial testing, then there has been
a denial of Sixth Amendment rights that makes the
adversary process itself presumptively unreliable. No
specific showing of prejudice was required in Davis v.
Alaska ... because the petitioner had been “denied the
right of effective cross-examination” which “ ‘would be
constitutional error of the first magnitude and no amount
of showing of want of prejudice would cure it.’ ”
Circumstances of that magnitude may be present on some
occasions when although counsel is available to assist the
accused during trial, the likelihood that any lawyer, even
a fully competent one, could provide effective assistance
is so small that a presumption of prejudice is appropriate
without inquiry into the actual conduct of the trial.
Cronic, 466 U.S. at 658–60, 104 S.Ct. 2039 (citations
omitted).
In Nixon, the Supreme Court resolved the question of
“whether counsel's failure to obtain the defendant's express
consent to a strategy of conceding guilt in a capital trial
automatically render's counsel's performance deficient, and
whether counsel's effectiveness should be evaluated under
Cronic or Strickland.” Nixon, 543 U.S. at 186–87, 125
S.Ct. 551. Under the facts of the case, the Supreme Court
determined that counsel's concession of guilt did not reach the
level of a complete failure to function as the client's advocate,

the gravity of the potential sentence in a capital trial
and the proceeding's two-phase structure vitally affect
counsel's strategic calculus. Attorneys representing capital
defendants face daunting challenges in developing trial
strategies, not least because the defendant's guilt is often
clear. Prosecutors are more likely to seek the death penalty,
and to refuse to accept a plea to a life sentence, when
the evidence is overwhelming and the crime heinous. In
such cases, “avoiding execution [may be] the best and only
realistic result possible.”

IV — McCoy Could Not Have Been Formulated from
Nixon
This Court today determines that the legal basis of
Applicant's current McCoy-based claim was previously
available because McCoy could have been reasonably
formulated by distinguishing Nixon based on the factual
distinctions—not the legal ones. But therein lies the rub.
Distinguishing Nixon on the facts is an argument to apply
Cronic.
The fact is, Applicant previously formulated an argument
that tried to distinguish Nixon. In his first application,

010
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

9

Ex parte Barbee, 616 S.W.3d 836 (2021)

Applicant argued that he was effectively abandoned by trial
counsel when counsel “confessed” Applicant's guilt to the
jury during closing argument, resulting in a failure to subject
the prosecution's case to meaningful adversarial testing and
consequently a denial of counsel under Cronic.1 Applicant
pointed to United States v. Swanson, in which the Ninth
Circuit held that counsel provides presumptively ineffective
assistance, under Cronic, when he makes such a concession.
See United States v. Swanson, 943 F.2d 1070, 1074 (9th Cir.
1991). In Applicant's proposed conclusions of law, he further
argued that Nixon, in which the Supreme Court held that
counsel's failure to obtain express consent to such a strategy
was not presumptively ineffective under Cronic, should be
distinguished. See Nixon, 543 U.S. at 190–91, 125 S.Ct. 551.
Specifically, his proposed conclusions of law stated his case
differed from Nixon because:
11. First, when counsel in Nixon informed his client
of the proposed strategy of conceding guilt, counsel
“failed to elicit a definitive response,” from the client,
thus by implication consenting to the strategy proposed
by counsel. 543 U.S. at 186, 125 S.Ct. 551. In
contrast to Nixon, after his recantation of his allegedly
coerced confession, Mr. Barbee consistently maintained
his innocence, notwithstanding his counsel's disbelief in
Mr. Barbee's claim. See State's Answer at 39, Affidavit of
William Ray and Tim Moore at 6, Affidavit of Amanda
Maxwell at 4.2
1

2

The first application also made two Strickland
ineffectiveness of counsel claims centered around the
supposed failure of counsel to properly challenge
Applicant's video recorded confession and in counsel's
supposed failure to call certain witnesses in mitigation.
Finally, Applicant claimed a Brady violation from the
State's supposed failure to provide a full, unaltered copy
of Applicant's video recorded confession.
Applicant's Proposed Findings of Fact, Conclusions
of Law and Order, Clerk's R. 243, Ex parte Barbee,
WR-71,070-01. Applicant also pointed to differences
during the punishment phase of trial:
13. Second, unlike counsel in Nixon who admitted his
client's guilt in order to pursue a vigorous mitigation
case, Mr. Barbee's counsel totally abdicated their duty
to present any meaningful mitigation, based upon
the questionable premise that because he refused to
“accept responsibility,” they were somehow relieved
of their legal duty to try and keep their client alive,
despite the fact that they were the ones who admitted
his responsibility for the murders in the first place.

Id. at 244.

In his second application (his first subsequent application),
Applicant asserted, as his fourth claim, that trial counsel
provided *851 ineffective assistance during trial. His
fourth claim was itself subdivided into four separate subclaims. The first sub-claim alleged that he was effectively
abandoned by counsel, under Cronic, because counsel failed
to present medical and neuropsychological evidence that
would have supported his innocence. The second sub-claim
alleged ineffective assistance under Cronic for the same
reason stated in the first application: trial counsel effectively
abandoned him and failed to subject the prosecution's case
to meaningful adversarial testing by “confessing” his guilt to
the jury in closing argument. The third and fourth sub-claims
asserted that counsel provided ineffective assistance under
Strickland for failing to explain to the jury the significance
of phone records admitted as evidence and for failing to
object to testimony provided by a pair of coroners as
prejudicially speculative. Applicant's fourth claim, related
to trial counsel's alleged ineffective assistance under both
Cronic and Strickland, was dismissed as subsequent.3
3

The second application for habeas relief raised twentyone claims, and we dismissed all but the second, which
argued that Applicant was deprived of due process and
a fair trial because his trial attorneys had a conflict of
interest. After remand and a hearing, we denied relief.
Ex parte Barbee, No. WR-71-070-02, 2013 WL 1920686
(Tex. Crim. App. May 8, 2013) (not designated for
publication).

As described above, then, the pertinent claims made in the
previous applications complain of trial counsel's supposed
“confession” of guilt to the jury during closing argument.
Applicant's current claim for habeas relief under McCoy also
complains of the same “confession” by counsel during closing
argument. They involve the same factual basis.
But the legal basis is not the same. A Nixon argument, which is
an ineffective assistance of counsel argument, is not a McCoy
argument. In McCoy, the Supreme Court explicitly said:
Because a client's autonomy, not counsel's competence,
is in issue, we do not apply our ineffective-assistance-ofcounsel jurisprudence, Strickland v. Washington, 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), or United
States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d
657 (1984), to McCoy's claim.
McCoy, 138 S.Ct. at 1510-11. That should be the end of
it. Although factually similar, Nixon and McCoy are legally

011
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

10

Ex parte Barbee, 616 S.W.3d 836 (2021)

dissimilar, and a McCoy argument could not be reasonably
formulated by distinguishing Nixon on the facts. That kind of
argument would be Cronic-based. Although a Cronic-based
argument would identify the error as a structural one just
as Applicant's current McCoy-based argument does today,
a Cronic-based argument asserts that the error is structural
for a different reason. To some extent, all structural error
affects the framework in which the trial proceeds. Id. at 1511.
Ineffective assistance of counsel under Cronic is structural
because, if counsel entirely fails to subject the prosecution's
case to meaningful adversarial testing, the adversary process
itself becomes presumptively unreliable. Cronic, 466 U.S. at
659, 104 S.Ct. 2039. Conversely, McCoy error is structural
for at least two reasons identified by the Supreme Court in
McCoy: (1) to protect “the fundamental legal principle that a
defendant must be allowed to make his own choices about the
proper way to protect his own liberty”; and (2) the effects of
the error are too hard to measure. McCoy, 138 S.Ct. at 1511
(quoting Weaver v. Massachusetts, ––– U.S. ––––, 137 S.Ct.
1899, 1908, 198 L.Ed.2d 420 (2017)). “[C]ounsel's admission
of a client's guilt over the client's express objection ... blocks
the defendant's right to make fundamental choices *852
about his own defense. And the effects of the admission would
be immeasurable, because a jury would almost certainly
be swayed by a lawyer's concession of his client's guilt.”
Id. The reason for protections provided in a Cronic claim
are very different from the reasons for protections provided
in a McCoy claim. Furthermore, a Cronic claim is very
different from a McCoy claim because Cronic is an ineffective
assistance of counsel claim and McCoy is an autonomy claim.
The Cronic opinion makes no mention of autonomy, and
McCoy makes no mention of ineffective assistance of counsel
except to say that it does not apply. Id. at 1510–11. I cannot
agree with the majority that McCoy could have reasonably
formulated by distinguishing Nixon.
Indeed, presumptively ineffective assistance of counsel under
Cronic and overriding the defendant's objectives under
McCoy do not necessarily overlap. Counsel could be effective
under Cronic because counsel has subjected the prosecution's
case to meaningful adversarial testing by cross-examining
the State's witnesses and arguing to the jury why it should
render a verdict more favorable to the defendant than that
sought by the State. However, if those decisions are contrary
to the defendant's objective of asserting innocence, they are
nevertheless structural errors under McCoy. For example, in
McCoy and similar cases in which the government seeks
the death penalty, where counsel concludes that there is
overwhelming evidence of guilt, counsel's best option to

avoid the death penalty may be to concede the question
of guilt. See id. at 1506. If the defendant's objective is
to claim innocence despite the evidence, counsel's strategy
overrides the defendant's objective of asserting innocence and
violates McCoy, even though it would not be ineffective under
Strickland and Cronic.
Because a defendant may well have objectives that are
incongruent with presenting an effective defense for himself,
it is no surprise that the Supreme Court clearly stated that
ineffective assistance case law under Strickland and Cronic
was inapplicable in McCoy. Id. at 1510–11 (“Because a
client's autonomy, not counsel's competence, is in issue, we do
not apply our ineffective-assistance-of counsel jurisprudence,
Strickland v. Washington, ... or United States v. Cronic, ... to
McCoy's claim.”). This statement, while not strictly a holding,
was a requisite component of the analysis and should be
determinative.
Accordingly, McCoy is not a logical extension of Nixon based
on the factual differences between them. An argument that
Nixon should be distinguished on its facts, such that structural
error has occurred, is an argument that counsel's performance
was deficient and, under Cronic, presumptively prejudicial.
McCoy presents a completely different legal theory, that
counsel overrode the defendant's autonomy to decide that the
objective of his defense was to assert innocence. McCoy could
not have been reasonably formulated off of Nixon.

V — McCoy Could Not Have Been Reasonably
Formulated
As explained above, the McCoy right—the defendant's
autonomy to decide that the objective of his defense is to
assert innocence—was founded upon Faretta, not Strickland
or Cronic or Nixon. But McCoy could not have been
reasonably formulated from Faretta. Faretta itself did not
hold that a defendant has a right to decide to assert innocence.
Instead, Faretta held that a defendant has a constitutional right
of self-representation and he may proceed to defend himself
without counsel when he voluntarily and intelligently elects
to do so. Faretta, 422 U.S. at 807, 95 S.Ct. 2525.
*853 Instead of being directly derived from Faretta, the
McCoy right was implied by one of the underlying principles
of Faretta, “the fundamental legal principle that a defendant
must be allowed to make his own choices about the proper
way to protect his own liberty.” McCoy, 138 S.Ct. at 1508–

012
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

11

Ex parte Barbee, 616 S.W.3d 836 (2021)

09 (quoting Weaver, 137 S.Ct. at 1908); see also id. at 1508–
09 (quoting Martinez v. Court of Appeal of Cal., Fourth
Appellate Dist., 528 U.S. 152, 165, 120 S.Ct. 684, 145
L.Ed.2d 597 (2000) (Scalia, J., concurring) (“Our system of
laws generally presumes that the criminal defendant, after
being fully informed, knows his own best interests and does
not need them dictated by the State.”)).
Those choices, until McCoy was decided, were limited
to “certain fundamental decisions that the criminal justice
system reserves for him to make personally.” Turner v. State,
422 S.W.3d 676, 690–91 (Tex. Crim. App. 2013) (citing
Barnes, 463 U.S. at 751, 103 S.Ct. 3308). Those decisions
include whether to plead guilty, whether to waive the right
to a jury trial, whether to testify on one's own behalf, and
whether to forego an appeal. McCoy, 138 S.Ct. at 1508;
Barnes, 463 U.S. at 751, 103 S.Ct. 3308. The decisions that
belonged to a defendant did not include the autonomy to
decide that the objective of the defense is to assert innocence.
Instead, other choices such as what arguments to pursue,
what evidentiary objections to raise, and what agreements
to conclude regarding the admission of evidence were left
to counsel. Gonzalez, 553 U.S. 248–49 (quoting New York
v. Hill, 528 U.S. 110, 115, 120 S.Ct. 659, 145 L.Ed.2d 560
(2000)). When Applicant filed his previous applications for
habeas relief, trial counsel's decision to concede guilt, as a
strategic decision to avoid the death penalty, could easily be
classified as a decision about which arguments to pursue.
In McCoy itself, several members of the Supreme Court felt
that defendant's right to autonomy to decide that the objective
of the defense is to assert innocence was “new.” Justice Alito's
dissent, joined by Justices Thomas and Gorsuch, considered
what the majority did as “having discovered a new right,”
McCoy, 138 S.Ct. at 1517 (Alito, J., dissenting). In Alito's
view, the Supreme Court decided the “case on the basis of a
newly discovered constitutional right.” McCoy, 138 S.Ct. at
1518. Though this may be true as a matter of Supreme Court
jurisprudence, Justice Alito was perhaps too harsh, because
McCoy recognized a split between the states and adopted the
prevailing view.
Recognizing the factually similar case of Florida v. Nixon, the
Supreme Court explained that Nixon was different because
Nixon “was generally unresponsive” during discussions of
trial strategy, and “never verbally approved or protested”
counsel's proposed approach to admit guilt, and he
complained only after trial. McCoy, 138 S.Ct. at 1509
(discussing Nixon, 543 U.S. at 181, 185, 125 S.Ct. 551).

McCoy, in contrast, opposed counsel's assertion of guilt at
every opportunity, before and during trial, both in conference
with his lawyer and in open court. McCoy, 138 S.Ct. at 1509.
In support of this distinction, the Supreme Court cited Cooke,
in which the Delaware Supreme Court similarly distinguished
Nixon because:
[i]n stark contrast to the defendant's silence in that case,
Cooke repeatedly objected to his counsel's objective of
obtaining a verdict of guilty but mentally ill, and asserted
his factual innocence consistent with his plea of not guilty.
McCoy, 138 S.Ct. at 1509 (quoting Cooke v. State, 977
A.2d 803, 847 (Del. 2009)). Relying on the Delaware Cooke
opinion, Kansas's Carter opinion, and Colorado's Bergerud
opinion, the Supreme Court concluded, *854 at the very end
of Section II of its opinion, that:
In each of the three cases, as here, the defendant
repeatedly and adamantly insisted on maintaining his
factual innocence despite counsel's preferred course:
concession of the defendant's commission of criminal
acts and pursuit of diminished capacity, mental illness, or
lack of premeditation defenses. These were not strategic
disputes about whether to concede an element of a charged
offense, they were intractable disagreements about the
fundamental objective of the defendant's representation.
For McCoy, that objective was to maintain “I did not kill
the members of my family.” In this stark scenario, we agree
with the majority of state courts of last resort that counsel
may not admit her client's guilt of a charged crime over the
client's intransigent objection to that admission.
McCoy, 138 S.Ct. at 1510 (discussing Cooke, 977 A.2d 803;
People v. Bergerud, 223 P.3d 686 (Colo. 2010); and State v.
Carter, 270 Kan. 426, 14 P.3d 1138 (Kan. 2000)) (citations
omitted).
It is true that the Supreme Court, in McCoy, pointed out
the factual differences between Nixon, the state cases, and
the case before it. Yet in doing so, the Supreme Court did
not conclude that the differences meant that presumptive
prejudice under Cronic applied. To the extent the Supreme
Court discussed and distinguished Nixon, it is important to
remember that Nixon was concerned with whether counsel,
who employs a strategy of conceding guilt without obtaining
the express consent of the defendant, provided presumptively
ineffective assistance of counsel under Cronic. Nixon, 543
U.S. at 178, 125 S.Ct. 551. The Supreme Court held that
counsel in such a case would not be deemed presumptively
ineffective, and the defendant would have to show prejudice
under the Strickland standard. Id. at 192, 125 S.Ct. 551.

013
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

12

Ex parte Barbee, 616 S.W.3d 836 (2021)

The effectiveness or ineffectiveness of counsel is wholly
irrelevant to the issue the Supreme Court was concerned
with in McCoy—which decisions belong to the defendant
and which decisions belong to the lawyer. See McCoy, 138
S.Ct. at 1510–11 (“Because a client's autonomy, not counsel's
competence, is in issue, we do not apply our ineffectiveassistance-of-counsel jurisprudence, Strickland ... or Cronic,
to McCoy's claim.”).
Under a fair reading of McCoy, the Supreme Court declared
that the defendant has a right of autonomy to decide that
the objective of his defense is to assert innocence by
referencing the fundamental principles of Faretta and by
identifying the split between Louisiana on the one side and
Delaware, Kansas, and Colorado on the other side and opting
to adopt the latter position stated in Cooke, Carter, and
Bergerud. See id. at 1507 (“We granted certiorari in view
of a division of opinion among state courts of last resort on
the question whether it is unconstitutional to allow defense
counsel to concede guilt over the defendant's intransigent and
unambiguous objection.”).
Although McCoy has its roots in Faretta and resolved a split
among various states, McCoy is the case that recognizes the
autonomy-right in the first place. Accordingly, not only could
Applicant not have reasonably formulated the autonomybased McCoy argument based on Nixon, as the majority
suggests, he could not have reasonably formulated the
autonomy-based McCoy argument based on a prior decision
of the United States Supreme Court, a court of appeals of the
United States, or a court of appellate jurisdiction of this state.
McCoy constitutes a new legal basis for habeas relief.
*855 The majority's assertion that Applicant could have
formulated the autonomy-based McCoy argument based on
Nixon appears to be correct. However, I cannot agree that
Applicant could have reasonably formulated the autonomybased McCoy argument based on Nixon as the exception to
the article 11.071 § 5 bar requires. The word reasonably
is included in the statute for a reason. The question is
whether, prior to McCoy, a reasonably competent Texas
attorney representing Applicant would have read the Nixon
opinion, thought of the possibility of expanding the Nixon
ineffective assistance of counsel holding to an autonomy
issue, contemplated that this Court or the Supreme Court of
the United States may buy the argument under the facts of
Applicant's case even though no Texas Court or the Supreme
Court of the United States had ever done so, and then come to
the conclusion that making the argument would be prudent.

Again, whether an argument can be formulated and whether
an argument can be reasonably formulated are very different.
As pointed out by the majority in this case, Carter and Cooke,
both state supreme court cases, predicted the United States
Supreme Court's holding in McCoy. But, would a reasonable,
competent, and prudent attorney representing Applicant prior
to McCoy have, even after contemplating a McCoy-esque
argument, then researched case law from every state court
in the United States to back up an idea that had, at best, a
minuscule chance of success? While Appellant could have
formulated a McCoy-esque argument as was done in Cooke
out of Delaware, Carter out of Kansas, and Bergerud out
of Colorado, decisions by courts of appellate jurisdiction
of other states, he could not have reasonably done so. The
attempt would have been destined to fail because it would
have been based on case law not included in § 5(d). See, e.g.,
Ex parte Medellin, 223 S.W.3d 315, 352 (Tex. Crim. App.
2006) (dismissing habeas corpus application as subsequent
where the claimed legal bases, a decision of the International
Court of Justice and a Presidential memorandum, were not
final decisions of a court listed in § 5(d), even though they
were not available at the time of the previous application).

VI — No Prima Facie Case
However, it is not enough for a subsequent application for
habeas relief to invoke a new legal basis, the application must
also allege sufficient specific facts that, if true, entitle him to
relief. Ex parte Maldonado, 688 S.W.2d 114, 116 (Tex. Crim.
App. 1985); Tex. Code Crim. Proc. Ann. art. 11.071 § 5(a).
As discussed, McCoy holds that a defendant has a right of
“[a]utonomy to decide that the objective of the defense is to
assert innocence.” McCoy, 138 S.Ct. at 1508; see also McCoy,
138 S.Ct. at 1505 (“We hold that a defendant has the right
to insist that counsel refrain from admitting guilt, even when
counsel's experience-based view is that confessing guilt offers
the defendant the best chance to avoid the death penalty.”).
While McCoy’s full scope has yet to be determined by the
Supreme Court, I believe that, at a minimum, McCoy requires
a showing that the defendant told counsel that he wants to
pursue a strategy of asserting innocence.
While Applicant's application for habeas relief and his brief
do not allege that Applicant told his attorneys that he wanted
to pursue an innocence defense, Applicant, in his application
for habeas relief and in his brief, asserts that he had an
objective to maintain innocence and counsel overrode that

014
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

13

Ex parte Barbee, 616 S.W.3d 836 (2021)

objective by conceding guilt. The evidence he points to in
order to support that claim, however, does not go so far.

And at an evidentiary hearing held on Applicant's second
application for habeas relief:

Applicant points to the fact that he unsuccessfully sought
to have counsel removed, *856 similar to the unsuccessful
pre-trial attempt to remove counsel in McCoy. See McCoy,
138 S.Ct. at 1506. In support of this, Applicant provides
copies of two letters he sent to the trial court. The first
letter states that “some serious issues” have occurred between
Applicant and counsel, and “[t]here is a complete break-

• Counsel testified that Applicant “had told me he was

down in communication.”4 The letter complains that counsel
is failing to keep him advised of the proceedings. The letter
also states that Applicant is unable to assist in his defense
due to a head injury and migraines. Finally, the letter states
that counsel informed him of their heavy case loads, and
he is afraid that counsel would not have the time to handle
his case properly. Applicant's second letter to the trial court
only states that “[t]here has and continues to be a serious

innocent” “all along;”11 and
• Co-counsel confirmed that Applicant told him “all along
that he was innocent.”12
While Applicant's evidence supports his claim that he
repeatedly told counsel that he was innocent, the evidence
shows nothing of whether Applicant actually told them to
pursue a strategy of asserting innocence at trial. Instead, at the
evidentiary hearing counsel testified:
Q. Did you have Mr. Barbee's permission to tell the jury
that?
...

breakdown in communication.”5 Neither letter even implies
that Applicant wished to pursue an innocence strategy that
counsel was overriding.

A. Okay. Your question is, did I tell Mr. Barbee or did I ask
him if I could do that?

4

Clerk's R. 225.

5

Id. at 228.

*857 A. We had a conversation on February 21st, which
was, I believe the morning of trial. I'm talking about 2006.
And I had typed up a memo and I showed it to him, and
he didn't want to sign it but we went over it. And the gist
of the memo was that that was the only way we could get
through this and him be found not guilty was that we take
that position.

Letters aside, Applicant points to evidence that he claims
shows counsel was aware of his desired objective. In a joint
affidavit in response to Applicant's first application for habeas
relief, counsel stated:
• Applicant “constantly stated that Ron Dodd was the real
killer” and “was steadfast in his assertion that he was
innocent;”6
• Applicant “took the position that Ron Dodd killed Lisa
and Jayden Underwood and ... was not present when that
happened;”7
• Applicant “maintained that he was completely innocent”
and “refused to accept any responsibility;”8 and
• “It was counsel's decision to call this case an accident,
because the ‘Ron Dodd did it’ theory just wasn't going
to work, and had not worked in this case.”9
A memorandum of understanding prepared by counsel before
trial stated that:
• “Client has maintained his innocence to attorneys since

Q. Yes.

And it was not a -- it was not an agreement to get his
permission; it was just my theory of the case. He didn't sign
the memo but he had it explained to him.
So did I explicitly ask him if I could do that? The answer
is no. Did he explicitly tell me he didn't want me to do it?
The answer is no. It's no to that question, too.13
Finally, Applicant argues that even though a defendant's
motivations are irrelevant to the autonomy right, counsel
was aware of his motivation, heightening the importance of
allowing him to make his own decisions. This is so because
a defense psychiatrist told counsel that Applicant's chief
concern was not disappointing his mother and that:
[Applicant] appeared fixated on “how his mother will view
him” ... He even went so far as to say that he would rather
be executed than have his mother see him plead guilty to
the charges.14

the date of appointment.”10

015
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

14

Ex parte Barbee, 616 S.W.3d 836 (2021)

If Applicant's true objective of his defense was to avoid
disappointing his mother by not pleading guilty, then counsel
met and achieved this objective: there was no guilty plea, and
there was a jury trial.
6

Id. at 234.

7

Id. at 231.

8

Id. at 235, 236.

9

Id. at 234.

10

Id. at 239.

11

Id. at 299.

12

Id. at 302.

13

Id. at 299.

14

Id. at 262.

In McCoy, the defendant explicitly and repeatedly opposed
counsel's strategy of conceding guilt to avoid the death
penalty. Applicant's evidence shows, at the most, that
Applicant repeatedly told counsel he was innocent. No
matter how emphatically he does so, this does not meet
the requirements of McCoy. I agree with the majority that
Applicant's facts do not show a prima facie McCoy violation.

VII — Conclusion
Under § 5(d), the legal basis of an applicant's claim is
unavailable if it could not have been reasonably formulated
based on relevant case law in the applicant's previous
applications. The majority errs in determining that the
legal basis of his current claim, McCoy, could have
been formulated by distinguishing Nixon on its facts. The
majority's conclusion ignores the fact that Nixon was an
ineffective assistance of counsel case, and the issue in Nixon
End of Document

was whether presumptive prejudice under Cronic applied to
the facts of that case. An argument distinguishing Nixon on
its facts is an argument that presumptive prejudice under
Cronic applies. This is clear from Applicant's own previous
application making this very argument.
Ineffective assistance of counsel claims under Strickland,
Cronic, and Nixon have different legal bases from and are
not interchangeable with McCoy. Applicant's current McCoybased claim asserts, not that counsel provided presumptively
prejudicial ineffective assistance of counsel, but that counsel
overrode his autonomy to decide that the objective of his
defense is to claim innocence. Applicant could not have
reasonably formulated his McCoy argument from relevant
Supreme Court, federal appellate court, or Texas appellate
case law. McCoy added a new entry to the list of decisions
that belong to the defendant, and in doing so borrowed from
Delaware, Kansas, and Colorado case law. A Texas habeas
applicant, seeking to get past the procedural bar, is statutorily
unable to rely *858 upon other state court case law. I
therefore disagree with the Court's conclusion that McCoy
does not constitute a new legal basis for habeas relief.
Nevertheless, I agree with the majority that Applicant's claim
fails to meet the exception to the § 5 procedural bar because he
did not instruct counsel to assert innocence at trial. For McCoy
to actually apply to the situation at hand, it is necessary that,
at the time of his trial, Applicant's objective of his defense
was to assert innocence, that Applicant communicated this
objective to counsel, and then counsel overrode Applicant's
objective. Because Applicant's evidence in support of his
claim for habeas relief shows, at the most, that Applicant
repeatedly told counsel he was innocent, I concur with the
Court's judgment in dismissing the application.
All Citations
616 S.W.3d 836
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

016
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

15

APPENDIX B

App. 017

Ex parte Barbee, Not Reported in S.W. Rptr. (2019)
2019 WL 4621237

denied the assistance of counsel in violation of the Sixth
and Fourteenth, Amendments of United States Constitution
and Article I §§ 10 and 13 of the Texas Constitution and the

2019 WL 4621237
Only the Westlaw citation is currently available.
UNDER TX R RAP RULE 77.3, UNPUBLISHED
OPINIONS MAY NOT BE CITED AS AUTHORITY.
Do Not Publish
Court of Criminal Appeals of Texas.

EX PARTE Stephen Dale
BARBEE, Applicant
NO. WR-71,070-03
|
SEPTEMBER 23, 2019
ON APPLICATION FOR POST-CONVICTION WRIT
OF HABEAS CORPUS, IN CAUSE NO. 1004856R, IN
THE 213TH DISTRICT COURT TARRANT COUNTY
Attorneys and Law Firms
Allen Richard Ellis, for Stephen Dale Barbee

ORDER
Per curiam.
*1 Before the Court is Applicant's second subsequent
post-conviction application for a writ of habeas corpus,
filed pursuant to the provisions of Texas Code of Criminal
Procedure Article 11.071 § 5.1
1

Unless otherwise specified, all references to articles in
this order refer to the Texas Code of Criminal Procedure.

On February 23, 2006, a jury convicted applicant of the
offense of capital murder. Pursuant to the jury's answers to the
special issues set forth in Article 37.071, the convicting court
sentenced applicant to death. Article 37.071(e). This Court
affirmed applicant's conviction and sentence on direct appeal.
Barbee v. State, No. AP-75,359 (Tex. Crim. App. Dec. 10,
2008) (not designated for publication).
On November 4, 2008, applicant filed his initial postconviction application for a writ of habeas corpus in the
convicting court, raising four claims for habeas relief. In his
second claim, applicant asserted that he was

requirements of [United States v. Cronic2] by the actions
of trial counsel in confessing [Applicant's] guilt to the jury
during closing argument without his client's knowledge
[or] consent.
We adopted the convicting court's findings of fact and
conclusions of law. Based on those findings and conclusions
and our own review of the record, we denied habeas relief
on all four of applicant's claims. Ex parte Barbee, No.
WR-71,070-01 (Tex. Crim. App. Jan. 14, 2009) (per curiam)
(not designated for publication).
2

466 U.S. 648 (1984).

Applicant filed his first subsequent application for a writ of
habeas corpus in the convicting court on July 15, 2011, raising
twenty-one claims for relief. Those claims included an actualinnocence claim (Claim One), an attorney-conflict-of-interest
claim (Claim Two), and an allegation that “Trial Counsel
Rendered Ineffective Assistance of Counsel at the Guilt/
Innocence Portion of the Trial By Completely Abandoning
Their Client” (Claim Four). Applicant divided Claim Four
into four sub-allegations, only one of which is relevant to his
current sub-writ: “Claim Four(b): Abandonment of client and
ineffective assistance of counsel for confessing their client's
guilt without the client's permission.” Following receipt and
review of the claims applicant raised in that subsequent
application, we determined that his second allegation (the
attorney-conflict-of-interest claim) satisfied Article 11.071,
Section 5(a). We accordingly remanded that claim to the
convicting court for further consideration. Ex parte Barbee,
No. WR-71,070-02 (Tex. Crim. App. Sept. 14, 2011) (per
curiam) (not designated for publication). Upon that matter's
return to this Court, we denied habeas relief on all of
applicant's claims in a written order. Ex parte Barbee,
WR-71,070-02 (Tex. Crim. App. May 8, 2013) (per curiam)
(not designated for publication).
On May 14, 2018, the Supreme Court of the United States
decided McCoy v. Louisiana, 138 S. Ct. 1500 (2018). Therein,
the Supreme Court held that “a defendant has the right to insist
that counsel refrain from admitting guilt, even when counsel's
experienced-based view is that confessing guilt offers the
defendant the best chance to avoid the death penalty.” McCoy,
138 S. Ct. at 1505.

018
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

1

Ex parte Barbee, Not Reported in S.W. Rptr. (2019)
2019 WL 4621237

*2 On May 9, 2019, the convicting court set Applicant's
execution for Wednesday, October 2, 2019. On August 6,
2019, Applicant filed his present subsequent application in
the convicting court. Relying on McCoy, applicant raises one
claim for relief, alleging that his “[trial] counsel improperly
overrode [Applicant's] Sixth Amendment right to insist that
counsel maintain his innocence, resulting in structural error
that requires a new trial.”

(1), has applicant made a prima facie case of structural
error under McCoy? In briefing whether applicant has
made a prima facie case, the parties should address the
following issues:

After reviewing applicant's current subsequent application,
we have determined that applicant's execution should be
stayed and his case filed and set for an opinion. We
additionally order briefing (or further briefing) on the
following issues:

(b) Must there be affirmative evidence in the trial record
that a defendant objected to trial counsel's strategy to
concede factual or legal guilt? If the trial record is
devoid of such evidence, may we consider evidence
that emerged in habeas proceedings?

(1) Has applicant shown that the legal basis for his current
claim “was not recognized by or could not have been
reasonably formulated from a final decision of the
United States Supreme Court, a court of appeals of the
United States, or a court of appellate jurisdiction of
this state on or before [the] date” on which applicant
filed a timely initial application or filed a previouslyconsidered application? See Art. 11.071,§ 5(d). In other
words, is McCoy “new law” for purposes of Article
11.071, Section 5(a)(1)?

(c) Under McCoy, how broad is the meaning of
“objectives of the defense”?
The parties shall file such briefing with this Court within
thirty (30) days of the date of this order.

(2) Is McCoy retroactive to convictions that are already
final upon direct review?
(3) Assuming that McCoy is retroactive and constitutes
“new law” for purposes of Article 11.071, Section 5(a)
End of Document

(a) Can a defendant who confesses his factual or legal
guilt multiple times, even if he later recants those
confessions, establish a prima facie case of structural
error under McCoy?

IT IS SO ORDERED THIS THE 23RD DAY OF
SEPTEMBER, 2019.

Keller, P.J., dissents.
All Citations
Not Reported in S.W. Rptr., 2019 WL 4621237

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

019
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

2

APPENDIX C

App. 020

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

728 Fed.Appx. 259
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.

Stephen Dale BARBEE,
Petitioner-Appellant
v.
Lorie DAVIS, Director, Texas Department
of Criminal Justice, Correctional
Institutions Division, Respondent-Appellee

*260 Appeals from the United States District Court for the
Northern District of Texas, USDC No. 4:09-CV-74
Attorneys and Law Firms
Allen Richard Ellis, Law Offices of A. Richard Ellis, Mill
Valley, CA, for Petitioner-Appellant
George A. d'Hemecourt, Assistant Attorney General, Office
of the Attorney General for the State of Texas, Austin, TX,
for Respondent-Appellee
Before DENNIS, PRADO, and ELROD, Circuit Judges.
Opinion
PER CURIAM:*
*

No. 15-70022
|
Filed March 21, 2018
Synopsis
Background: Following affirmance of his conviction in
state court for capital murder, 2008 WL 5160202, petitioner
filed federal petition for writ of habeas corpus. The United
States District Court for the Northern District of Texas, No.
4:09-CV-74, Terry R. Means, J., 2015 WL 4094055, denied
petition. The Court of Appeals, 660 Fed.Appx. 293, granted
certificate of appealability (COA) on claim that counsel
rendered ineffective assistance by conceding petitioner's
culpability at summation.

Holdings: The Court of Appeals held that:
state court's determination that Strickland standard for
ineffective assistance of counsel claims, rather than structural
error analysis, applied was not contrary to, or unreasonable
application of, clearly established federal law, and
rejection of claim that any deficiency arising from defense
counsel's failure to present alternative suspect theory, instead
of accidental death theory, prejudiced petitioner was not
contrary to, or unreasonable application of, Strickland.
Petition denied.

Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5th
Cir. R. 47.5.4.

**1 Capital habeas petitioner Stephen Dale Barbee appeals
the district court’s denial of habeas relief, contending that
he was denied effective assistance of trial counsel inasmuch
as lead counsel conceded Barbee’s culpability at summation.
Barbee argues that his claim is governed by United States
v. Cronic, 466 U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d 657
(1984), which holds that if there has been such an abdication
of advocacy that the prosecution’s case was not subjected
to meaningful testing, a defendant need not demonstrate
that he was prejudiced by counsel’s actions. Barbee further
argues that even under Strickland v. Washington, 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), which requires
an applicant to show both objectively deficient performance
and prejudice, he is entitled to relief. Barbee has not shown
that the state habeas court’s conclusions that his claim was
governed by Strickland, rather than Cronic, or that he was
not prejudiced by counsel’s concession, were contrary to, or
involved an unreasonable application of, clearly established
federal law, or were based on an unreasonable determination
of the facts in light of the evidence presented in the state court
proceeding. See 28 U.S.C. § 2254(d). We thus AFFIRM the
district court’s denial of habeas relief.

I

021
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

1

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

On February 19, 2005, Barbee was stopped by a sheriff’s
deputy walking along a service road in a wooded area. Barbee
was wet and covered with mud. He gave a fake name and
fled after the deputy questioned his identity. Later that day,
police began to investigate the disappearance of Barbee’s exgirlfriend, Lisa Underwood, and her son, Jayden. Several days
later, Lisa’s car was found in a creek approximately 300 yards
from where the sheriff’s deputy had stopped Barbee. Police
sought to talk to Barbee as a person of interest, and he agreed
to come in to the police station for questioning.
According to a detective who testified at trial, Barbee
admitted that he was the person who had run from the sheriff’s
deputy. In the midst of his recorded interrogation, Barbee
took a bathroom break, and the detective escorted him. The
detective testified that, while Barbee was in the bathroom, he
admitted to conspiring with Ronald Dodd, his employee and
the boyfriend *261 of his ex-wife, to kill Lisa. According
to the detective’s testimony, Barbee, who was married, said
that he thought Lisa was going to “ruin his family [and] his
relationship with his wife” by disclosing that he had fathered
Lisa’s unborn child. The detective testified that Barbee said
that he and Dodd planned to drive over to Lisa’s house
together, and Barbee would “try to pick a fight” with Lisa,
kill her, and then he and Dodd would use Lisa’s car to dispose
of her body. According to the detective, Barbee said that he
was eventually successful in instigating a fight with Lisa and
that he killed her by holding her face in the carpet until she
stopped breathing. The detective testified that Barbee said
Jayden came in while he was killing Lisa and that he then
killed Jayden by holding his hand over Jayden’s mouth.
**2 After this unrecorded “bathroom confession,” Barbee
gave a recorded confession to the police, which was
ultimately suppressed. He again admitted guilt while sitting
in the interview room with his wife, Trish. Trish asked
Barbee how he killed Lisa, and he said, “I held her down too
long.” Barbee then led the detective to the spot where Jayden
and Lisa were buried. Barbee later recanted, saying that he
confessed because the detective threatened him with the death
penalty, and because Dodd threatened his family.
At trial, one of the prosecution’s witnesses was a medical
examiner who opined that Lisa had been smothered to death.
On cross-examination, the medical examiner stated that a
“person has less cardiovascular reserve while pregnant in the
third trimester than at other times.” He agreed that it was
“fair” to say that the more pregnant a woman was, the less
time it would take for her to suffocate, depending on how

she was held. Defense counsel also elicited from the medical
examiner that the fact that the death was ruled a “homicide”
did not bear on intent, and that there was no evidence of
“what was going on” in the “mind” of the person who held
Lisa down until she asphyxiated. The medical examiner said
that he was not sure how long Lisa had been held down
before she asphyxiated, but he thought it was “most likely
at least two to three minutes.” He said he could not “rule
out” a shorter time frame, but he thought “it would be very
unlikely.” Counsel pressed him on the point of his uncertainty,
eventually eliciting the following: “I think you’re getting out
of probability realm when you get below two minutes. But
yeah, it could be 30 seconds.... I cannot absolutely rule that
out.”
In summation, defense counsel explained to the jury that the
charge required them to find that Barbee had committed two
knowing or intentional murders in the same transaction. He
defined “intentionally” as having the “conscious objective or
desire to achieve or cause the result,” and “knowingly” as
engaging in conduct “reasonably certain to cause the result.”
After attempting to impugn the testimony of the detective
who testified about Barbee’s bathroom confession, counsel
conceded that Barbee killed both Jayden and Lisa, saying:
As hard as it is to say, the evidence from the courtroom
shows that Stephen Barbee killed Jayden Underwood.
There is no evidence to the contrary.
The problem in the capital murder case is the evidence in
this courtroom that you heard doesn’t show that Stephen
Barbee had the conscious objective or desire or that he
knew his conduct was reasonably certain to cause the result,
those two definitions there.
And it is supported by the testimony of [the medical
examiner who] told you that he could not be sure when Lisa
Underwood lost consciousness....
Counsel concluded:
There is evidence of a struggle inside that house.... It is not
a one-sided *262 fight. And Stephen Barbee’s own words
to his wife, it matches [sic]. That’s the problem from their
standpoint. What he told Trish Barbee is I held her down
too long. That’s exactly what matches the testimony of [the
medical examiner]. And as hard as it is to do, I submit to
you that the evidence in this case, the conclusive beyond-areasonable-doubt evidence, does not support an intentional
or knowing murder for Lisa Underwood. Was he there?
Yes. Did he hold her down? Yes.

022
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

2

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

Did he know or intend that she was going to die or was that
his conscious objective? The answer is no.
On February 27, 2006, the jury convicted Barbee of capital
murder.
**3 At the punishment phase, the State presented testimony
from Barbee’s ex-wife, Theresa Dowling, that Barbee had
assaulted her during their marriage. Dowling also testified
that Barbee confessed to her shortly after he confessed to
the police. The State also presented testimony from a former
coworker who claimed that Barbee verbally abused her after
she refused his advances. Barbee presented testimony from
friends, family, and acquaintances attesting to his good deeds
and good character.1 Barbee also presented testimony from
a prison security expert who testified that Barbee would
be able to successfully serve a life sentence, a confinement
officer who knew Barbee well, and a confinement officer who
had observed Barbee’s good behavior while in jail. The jury
ultimately sentenced Barbee to death.
1

Barbee’s presentation at the punishment phase is
discussed in further detail in this court’s COA opinion.
See Barbee v. Davis, 660 Fed.Appx. 293, 318–19 (5th
Cir. 2016).

After unsuccessfully seeking state post-conviction relief,
Barbee filed this 28 U.S.C. § 2254 application, and was
granted a stay so he could exhaust additional claims that had
not been brought in his initial state habeas filing. Barbee filed
a second state habeas petition asserting additional claims, all
of which were dismissed or denied by the Texas Court of
Criminal Appeals (TCCA). Upon return to the district court,
the court denied relief and denied a certificate of appealability
(COA).
This court granted a COA for Barbee’s claim that counsel
rendered ineffective assistance by conceding his culpability
as to the conduct element of the offense at summation, but
denied a COA as to the remainder of the claims he sought
to appeal. The parties filed supplemental briefs and presented
oral argument, addressing the merits of Barbee’s ineffective
assistance of counsel claim.

II

decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or (2) resulted in a
decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the state court
proceeding.” Robertson v. Cain, 324 F.3d 297, 301–02 (5th
Cir. 2003) (quoting 28 U.S.C. § 2254(d)(1)-(2) ). “Section
2254(d) thus demands an inquiry into whether a prisoner’s
‘claim’ has been ‘adjudicated on the merits’ in state court; if
it has, AEDPA’s highly deferential standards kick in.” Davis
v. Ayala, ––– U.S. ––––, 135 S.Ct. 2187, 2198, 192 L.Ed.2d
323 (2015) (quoting Harrington v. Richter, 562 U.S. 86, 103,
131 S.Ct. 770, 178 L.Ed.2d 624 (2011) ).
*263 “[A] state court’s decision will be an unreasonable
application of clearly established federal law whenever the
state court identifies the correct governing legal principle
from the Supreme Court’s decisions but applies that principle
to the facts of the prisoner’s case in an ‘objectively
unreasonable’ manner.” Robertson, 324 F.3d at 302 (citing
Kutzner v. Johnson, 242 F.3d 605, 608 (5th Cir. 2001) ).
“[I]t is not an unreasonable application of clearly established
Federal law for a state court to decline to apply a specific legal
rule that has not been squarely established by [the Supreme]
Court.” Harrington, 562 U.S. at 101, 131 S.Ct. 770. “Under
§ 2254(d), a habeas court must determine what arguments
or theories supported[,] or ... could have supported, the state
court’s decision; and then it must ask whether it is possible
fairminded jurists could disagree that those arguments or
theories are inconsistent with the holding in a prior decision
of [the] Court.” Id. at 102, 131 S.Ct. 770.
A state court’s factual findings are “presumed to be correct,”
and an applicant has “the burden of rebutting the presumption
of correctness by clear and convincing evidence.” § 2254(e)
(1). “The presumption of correctness not only applies
to explicit findings of fact, but it also applies to those
unarticulated findings which are necessary to the state court’s
conclusions of mixed law and fact.” Valdez v. Cockrell,
274 F.3d 941, 948 n.11 (5th Cir. 2001). The state court’s
conclusion that counsel rendered effective assistance “is a
mixed question of law and fact.” See Strickland, 466 U.S. at
698, 104 S.Ct. 2052.

III

Under the Antiterrorism and Effective Death Penalty Act
(AEDPA), Barbee can obtain federal habeas relief only if the
adjudication of his claims in state court “(1) resulted in a

**4 Barbee argues that his claim is governed by Cronic,
which holds that when there is a “breakdown of the

023
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

3

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

adversarial process,” prejudice is presumed. 466 U.S. at
657–58, 104 S.Ct. 2039. Alternatively, Barbee argues that
counsel’s summation amounted to ineffective assistance of
counsel under Strickland “because trial counsels’ ‘strategy’
of an accidental death was based on a misunderstanding of
the law,” was not supported by the evidence, and was not
accompanied by evidence of Barbee’s low risk of future
dangerousness.

A

that most tactical decisions by counsel will be subject to the
Strickland ineffective-assistance-of-counsel analysis, rather
than the Cronic structural-error analysis, whether or not they
involve an admission of guilt. Nixon also suggests that the
fact that a client has not approved of a strategy does not
necessarily trigger the application of Cronic: “When counsel
informs the defendant of the strategy counsel believe[d]
to be in the defendant’s best interest and the defendant is
unresponsive, counsel’s strategic choice is not impeded by
any blanket rule demanding defendant’s explicit consent.”
Nixon, 543 U.S. at 192, 125 S.Ct. 551.

In Cronic, the Supreme Court held that where “counsel
entirely fails to subject the prosecution’s case” to meaningful
testing, “the adversary process itself [is] presumptively
unreliable,” and a defendant, therefore, need not demonstrate
the impact of the failure in order to succeed on his claim. Id.
at 658–59, 104 S.Ct. 2039. The Supreme Court has described
Cronic as “a narrow exception to Strickland’s holding that a
defendant who asserts ineffective assistance of counsel must
demonstrate not only that his attorney’s performance was
deficient, but also that the deficiency prejudiced the defense.”
Florida v. Nixon, 543 U.S. 175, 190, 125 S.Ct. 551, 160
L.Ed.2d 565 (2004).

The state habeas court determined, without analysis, that
Strickland, rather than Cronic, applied to Barbee’s ineffective
assistance claim. Barbee argues that his counsel’s concession
of guilt “resembles the complete breakdown in the adversarial
process that Cronic envisions” inasmuch as counsel’s theory
was “both unsupported by defense evidence and contrary
to the coroner’s testimony.” He contends that Nixon is
distinguishable as, in that case, “there was overwhelming
evidence of Nixon’s guilt and other factors not present
here.” Finally, Barbee asserts that Cronic should apply to his
claim because counsel’s closing argument in this case was
the “functional equivalent” of an involuntary guilty plea or
coerced confession.

The Supreme Court has held that Cronic was inapplicable
even where counsel failed to adduce mitigating evidence and
waived closing argument, explaining, “When we spoke in
Cronic of the possibility of presuming prejudice based on an
attorney’s failure to test the prosecutor’s case, we indicated
that the attorney’s failure must be complete.” See Bell v. Cone,
535 U.S. 685, 696–97, 122 S.Ct. 1843, 152 L.Ed.2d 914
(2002). Similarly, this court held that Cronic was inapplicable
where counsel conceded that a defendant committed murder,
but not capital murder, over the defendant’s objections,
Haynes v. Cain, 298 F.3d 375, 381–82 (5th Cir. 2002) (en
banc), explaining that “defense counsel must entirely fail
to subject the prosecution’s case to meaningful adversarial
testing *264 for the Cronic exception to apply,” id. at 381
(citing Gochicoa v. Johnson, 238 F.3d 278, 285 (5th Cir. 2000)
).

**5 Barbee attempts to distinguish Nixon, inter alia, on
the grounds that Barbee “received no meaningful guilt-phase
advocacy” and his counsel’s concession was the “functional
equivalent of a guilty plea.” However, as compared with the
defendant in Nixon, Barbee received at least as much if not
more “meaningful” guilt-phase advocacy. Nixon’s attorney
determined that, “given the strength of the evidence, [his
client’s] guilt was not subject to any reasonable dispute.”
Nixon, 543 U.S. at 180–81, 125 S.Ct. 551. As a result, counsel
“cross-examined [State] witnesses only when he felt their
statements needed clarification ... and he did not present
a defense case,” although he objected to the introduction
of crime scene photographs and “actively contested several
aspects of the jury instructions during the charge conference.”
Id. at 183, 125 S.Ct. 551.

In Florida v. Nixon, the Supreme Court held that even
defense counsel’s full concession of guilt is not necessarily
an indication that “counsel has entirely failed to function as
the client’s advocate,” and that the Strickland standard applies
to cases in which counsel informs the client of her strategic
decision to concede guilt and focus on the penalty phase.
Nixon, 543 U.S. at 189–91, 125 S.Ct. 551. Nixon suggests

By contrast, Barbee’s counsel hired a false confession
expert to analyze Barbee’s confessions; sought to discredit
the unrecorded bathroom confession and the police report
documenting that confession; sought to exclude Barbee’s
inculpatory statements (successfully, in the case of Barbee’s
recorded confession to detectives); and extensively crossexamined prosecution witnesses. Moreover, in Nixon, counsel

024
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

4

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

fully conceded his client’s guilt as to all elements “beyond
any doubt,” 543 U.S. at 182, 125 S.Ct. 551, while Barbee’s
counsel argued that “the evidence in this case, the conclusive
beyond-a-reasonable-doubt evidence, does not support an
intentional or knowing murder for Lisa Underwood.”
Barbee contends that counsel’s accidental-death theory would
not have removed the possibility of being convicted for
capital murder under the jury charge. In Texas, intentional
murder requires intent as to *265 the result of the conduct,
not just the conduct. See Martinez v. State, 763 S.W.2d 413,
419 (Tex. Crim. App. 1988) (en banc) (“Intentional murder ...
is a ‘result of conduct’ offense; that is, not only must an
accused be found to have intended to engage in the act that
caused the death, he must also have specifically intended that
death result from that conduct.”). However, the definition
of “intentional” in the jury charge included the “conscious
objective or desire to engage in the conduct.”
While the jury charge definition of “intentional” may have
erroneously suggested to the jury that it only needed to
find “intent” as to Barbee’s conduct, the full jury charge
suggested that “intentionally” applied to “cause[d] the
death,”2 indicating that the jury did not apply the instruction
in a legally impermissible way. See Cupp v. Naughten, 414
U.S. 141, 146–47, 94 S.Ct. 396, 38 L.Ed.2d 368 (1973) (“[A]
single instruction to a jury may not be judged in artificial
isolation, but must be viewed in the context of the overall
charge.”). Indeed, the TCCA has rejected a challenge to a
jury charge similar to Barbee’s, finding that in the phrase
“intentionally or knowingly cause the death,” “[t]he terms
‘intentionally’ and ‘knowingly’ directly modif[ied] the phrase
‘cause the death’ ” and it was therefore “obvious that the
‘result of conduct’ and ‘cause the result’ language are the
applicable portions of the full code definitions.” Velez v. State,
No. AP-76,051, 2012 Tex. Crim. App. Unpub. LEXIS 607, at
*79–80 (Tex. Crim. App. June 13, 2012).
2

The charge instructed the jury to find Barbee guilty if it
found that he
intentionally or knowingly cause[d] the death of an
individual, Lisa Underwood[,] by smothering her with
the weight of his body or with an object unknown to
the Grand Jury or by a combination of the two, and
during the same crimonal [sic] transaction, [Barbee]
intentionally or knowingly caused the death of another
individual, Jayden Underwood, by smothering him
with his hand or by means unknown to the Grand Jury
or by a combination of the two.

Furthermore, counsel’s argument unambiguously reflected
a “result of conduct” understanding of mens rea, an
understanding that was not contradicted by the prosecutor.
Cf. Kinnamon v. Scott, 33 F.3d 462, 465–66 (5th Cir. 1994)
(finding “no reasonable likelihood that the jury applied”
a charge “in a constitutionally impermissible way” where,
inter alia, “[t]he prosecutor did not attempt to exploit any
uncertainty in the charge”). Therefore, Barbee has not shown
it was unreasonable for the state habeas court to conclude that
counsel’s concession was a “defensive theory,” rather than a
full concession that Barbee committed capital murder.3 See §
2254(d)(2).
3

Barbee also claims that he could have been found
guilty under counsel’s theory based on the definition
of “knowingly” in the jury charge, which included
“aware[ness] of the nature of his conduct” and
“aware[ness] that his conduct is reasonably certain to
cause the result.” However, Barbee does not explain
how the jury could have accepted counsel’s theory that
Barbee accidentally held Lisa down too long and also
found that he was “reasonably certain” that he was killing
her. Finally, Barbee contends that he could have been
convicted of capital murder based on the intentional
murder of Jayden, because even Lisa’s accidental killing
would constitute “murder” under other sections of the
Texas Penal Code. However, Barbee’s indictment and
jury charge stated that both murders were intentional
or knowing. Thus, the jury could not have convicted
him under this theory. See, e.g., Ross v. State, 487
S.W.2d 744, 745 (Tex. Crim. App. 1972) (reversing
conviction where jury “charge erroneously authorized
the [defendant’s] conviction under a theory not charged
in the indictment”).

**6 Barbee next argues that this case is distinguishable
from Nixon because the evidence against Barbee was not
as strong *266 as the evidence against Nixon. However
here, as in Nixon, counsel faced significant evidence of
their client’s guilt. Such evidence included the testimony
of a police detective that Barbee confessed to him and the
recorded inculpatory statements Barbee made to his wife,
which were played for the jury. Barbee also led the police to
the bodies and exhibited specific knowledge about the burial
sites. Further, Barbee had a motive to kill Lisa, as he had been
unfaithful to his wife and Lisa was pressuring him to admit
it. In light of the strength of the prosecution’s case, counsel’s
concession appears to have been a calculated strategy to elicit
an acquittal.4

025
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

5

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

4

We note that, under Nixon, even counsel’s concession
that her client committed capital murder may be a
strategic decision. 543 U.S. at 190–91, 125 S.Ct.
551 (observing that Cronic’s application, vel non, is
influenced by “the gravity of the potential sentence in a
capital trial and the proceeding’s two-phase structure”).

As to Barbee’s argument that counsel’s theory was entirely
unfounded, it is not unreasonable to conclude that the record
does, in fact, support counsel’s theory. See § 2254(d). The
medical examiner said that he was not sure how long
Lisa would have been held down before she asphyxiated,
eventually conceding he could not rule out that she had
only been held down for thirty seconds. This theory was
also consistent with Barbee’s recorded statement to his wife,
which suggested that he killed Lisa accidentally.
Finally, Barbee makes a number of arguments in support of
his assertion that counsel was obligated to obtain his consent
before conceding his guilt. The record does support that
Barbee was not “fully” consulted or, at least, did not expressly
consent to the strategy. During the state habeas proceedings,
trial counsel testified that he told Barbee that he planned to
pursue the accidental-death theory. But counsel also testified
that he did not specifically ask for Barbee’s permission to
proceed with the theory and that Barbee did not want to
sign a strategy memo explaining the theory. Barbee stated
in a 2010 declaration that he “was shocked” when he heard
counsel’s summation because counsel “never told [Barbee] he
was going to say this.”
Nixon holds that counsel need not obtain affirmative consent
to concede guilt. See 543 U.S. at 189, 125 S.Ct. 551.
Nixon suggests that counsel’s consultation played a role in
that holding, but does not establish that Cronic necessarily
applies when counsel pursue a strategy in the absence of
full consultation, or in circumstances suggesting that a client
would disagree with that strategy. See id. (stating counsel
“was obliged to ... explain his proposed trial strategy to
Nixon”). And Barbee does not cite any Supreme Court case
that so held.5 Given the unsettled nature of the law on this
point, we cannot say that the absence of full consultation or
consent supports that the state habeas court’s adjudication of
this claim was contrary to, or an unreasonable application of,
clearly established Supreme Court precedent. See § 2254(d)
(1). And, given the ambiguity of the record, we cannot say
that the state court made an unreasonable determination of the
facts in light of the evidence presented. See § 2254(d)(2). As
Barbee has not shown that he is entitled to habeas relief on
the basis of Cronic under the deferential standards imposed

by AEDPA, we now turn to the reasonableness of the *267
state court’s application of Strickland.6
5

6

In fact, there is circuit precedent to the contrary. See
United States v. Thomas, 417 F.3d 1053, 1059 (9th Cir.
2005) (“[F]ailure to consult and obtain consent in and
of itself does not render [counsel’s] strategic decision
presumptively prejudicial.”).
We recognize that the Supreme Court will likely
provide additional guidance in its decision in McCoy v.
Louisiana. See State v. McCoy, 218 So.3d 535 (La. 2016),
cert. granted, ––– U.S. ––––, 138 S.Ct. 53, 198 L.Ed.2d
781 (2017). However, AEDPA requires that we evaluate
Barbee’s application based on the law that was clearly
established at the time of the state-court adjudication.
See Greene v. Fisher, 565 U.S. 34, 38, 132 S.Ct. 38,
181 L.Ed.2d 336 (2011). As McCoy is a direct appeal,
see ––– U.S. ––––, 138 S.Ct. 53, 198 L.Ed.2d 781, the
Court is not likely to shed light on the precise question
before us: whether the state habeas court’s resolution
of Barbee’s ineffective assistance of counsel claim was
unreasonable in light of clearly established law at the
time of its ruling. See § 2254(d). We therefore decline to
withhold our judgment pending the Court’s decision in
McCoy.

B
**7 To establish an ineffective-assistance-of-counsel claim
under Strickland v. Washington, Barbee must “show that
counsel’s performance was deficient” and demonstrate “that
the deficient performance prejudiced the defense.” 466 U.S.
at 687, 104 S.Ct. 2052. With respect to deficient performance,
Barbee “must show that counsel’s representation fell below
an objective standard of reasonableness.” Id. at 688, 104
S.Ct. 2052. To demonstrate prejudice, Barbee “must show
that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would
have been different.” Id. at 694, 104 S.Ct. 2052. Because
his claim is governed by AEDPA, Barbee must show that
the state habeas court’s adjudication of his Strickland claim
“was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the
Supreme Court,” or that it “was based on an unreasonable
determination of the facts in light of the evidence presented
in the State court proceeding.” § 2254(d).
The state habeas court found that Barbee failed to show
deficient performance because, it concluded, counsel’s tactic

026
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

6

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

was reasonable in light of the evidence and the circumstances.
The court further found that Barbee had not established
prejudice, finding that Barbee’s alternative theory was not
supported by the evidence and therefore “was not a viable jury
argument.”
Assuming without deciding that counsel’s performance
was deficient under these circumstances, we conclude, as
explained below, that Barbee has not shown that it was
unreasonable for the state habeas court to determine that
he was not prejudiced by counsel’s closing argument. See
id.; Strickland, 466 U.S. at 691, 104 S.Ct. 2052 (“An error
by counsel, even if professionally unreasonable, does not
warrant setting aside the judgment of a criminal proceeding if
the error had no effect on the judgment.”).
Barbee first argues that he was prejudiced by counsel’s
concession because it removed any “lingering juror
uncertainty” about his guilt. He contends that this is one of
the most important factors that leads jurors to impose a life
sentence rather than death, and that lingering doubt “was an
important factor [in his case], as no forensic evidence tied
Barbee to the crime and there was evidence of Ron Dodd’s
culpability.” However, Barbee points to no caselaw in support
of his position that residual doubt at the punishment phase is a
viable prejudice theory, let alone “clearly established Federal
law, as determined by the Supreme Court of the United
States.” See § 2254(d)(1). And, in any event, Barbee’s case
for lingering doubt at the punishment phase is not persuasive
given the considerable record support *268 for his guilt: in
addition to the evidence of guilt discussed above, Barbee’s
ex-wife, Theresa Dowling, testified at the punishment phase
that Barbee called her the night of the murders and confessed
to accidentally killing Lisa by holding her down too long, and
to accidentally killing Jayden in an effort to keep him quiet.
Thus, Barbee has not shown it was unreasonable for the state
court to conclude he was not prejudiced in this respect. See
§ 2254(d).
Barbee next claims that the accidental-death theory ran
counter to the medical examiner’s testimony, causing counsel
to lose considerable credibility with the jury at the punishment
phase. Again, Barbee points to no caselaw in support of his
contention that loss of credibility with the jury can support
Strickland prejudice. Moreover, as discussed above, counsel’s
strategy was not without support. The medical examiner
testified that he was not entirely sure how long Lisa would
have been held down before she asphyxiated, eventually
conceding he could not rule out that she had only been held

down for thirty seconds. While the jury may not have thought
it likely that Barbee had accidentally killed Lisa in light
of the medical examiner’s statements, the theory was not
“counter to” his statements. This theory was also consistent
with Barbee’s recorded statement to his wife that he “held
[Lisa] down too long” and with Dowling’s testimony that
Barbee confessed to accidentally killing Lisa. Barbee’s brief
argument points to nothing tending to show that the jury’s
distrust of counsel swayed its decisions at the penalty phase.
This argument is, therefore, also unavailing.7
7

Barbee contends that, as a result of counsel’s concession
at summation, counsel failed to present evidence that
Barbee would not be a future danger. Barbee argues
that this was prejudicial because, at the time, he was “a
38-year old successful business owner with absolutely
no prior criminal record.” Barbee does not explain
how counsel’s concession led to their failure to present
evidence that Barbee would not be a future danger. Thus,
this argument is forfeited for inadequate briefing. See,
e.g., SEC v. Life Partners Holdings, Inc., 854 F.3d 765,
784 (5th Cir. 2017).

**8 Finally, Barbee suggests that he was prejudiced by
counsel’s failure to present the theory that Ronald Dodd
committed the murders instead of the accidental death theory.
Counsel stated that their efforts to pursue a different defense
strategy were hampered by Barbee’s shifting version of events
and by his “refus[al] to testify.” Barbee argued in his COA
brief that it was unreasonable for the state habeas court to
credit this statement because the record shows that Barbee
was always steadfast in his assertions to counsel that he
was innocent of both murders. Even if Barbee consistently
maintained complete innocence to counsel, the record does
show that proceeding with a theory of actual innocence
would have been challenging given his recorded conversation
with his wife in which he stated, “I held her down too
long.” Barbee declined to testify to explain what he contends
were false confessions. This lends credence to trial counsel’s
statements that it would have been difficult to present an
“actual innocence” theory rather than a “legal innocence”
theory.
Moreover, the only alternative defense Barbee proposes is
that Dodd committed the murders. The state habeas court
found, “The ‘Ron Dodd did it’ theory was not a viable jury
argument.” That court pointed to Barbee’s confessions, his
admitted presence near the place Lisa’s car was found, and
his knowledge of the location of the bodies as evidence

027
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

7

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

inconsistent with the theory that Dodd committed the
murders.
*269 Barbee gave the following version of events in a 2010
declaration in support of his alterative theory of the crime: On
the evening of February 18, 2005, Barbee was at Dowling and
Dodd’s house and asked Dodd to accompany him to Lisa’s
house, as he “wanted to see how she was doing.” Dodd drove
Barbee to Lisa’s house and dropped him off. Barbee later
called Dodd, who came to pick him up, and they returned
to Dowling’s house together. Dodd asked if Barbee wanted
Dodd to talk to Lisa about getting a paternity test, and Barbee
agreed, so they drove back to Lisa’s house together. Barbee
stayed in Dodd’s truck while Dodd entered Lisa’s house
because he did not want Lisa to see that he had been crying.
Dodd was inside the house for fifteen or twenty minutes, then
came out and said, “Your problems are solved, go get her
truck.”
Barbee claims not to have understood what Dodd meant, but
he got out of Dodd’s truck, went to the door of Lisa’s house,
and Dodd drove off. Barbee went into the house and found
Lisa and Jayden dead. He “panicked as [he] thought [he] was
going to be blamed for it.” He put the bodies in Lisa’s vehicle
and drove away. Barbee called Dodd, who met him and helped
him remove the bodies from the vehicle. Dodd threw a shovel
to Barbee and left. After burying the bodies, Barbee called
Dodd, who agreed to pick him up on the highway. While
on the way to meet Dodd, Barbee was stopped by a deputy
sheriff. He gave the deputy a false name and fled. He met
Dodd and they returned to Dowling’s house where Dowling
washed Dodd’s clothing.
Barbee claims that he has adduced significant evidence in
support of this theory, namely: (1) the affidavit of Dowling’s
father, who said, “[m]y son Danny Dowling told me that
Ron Dodd had told him right after the murders that he had
to punch Lisa in the face 25–26 times before ‘the fucking
bitch would go down,’ ” and a declaration from a postconviction investigator stating that “both Jerry Dowling and
his son Danny Dowling had said that Ron Dodd said he had
to punch Lisa Underwood 25–26 [times] in the face before
the ‘fucking bitch would go down’ ”; (2) Dowling’s statement
to the investigator that she washed Dodd’s clothes on the
night of the murders and Dodd’s statement to the investigator
that he had his vehicle power-washed shortly thereafter; (3)
a statement from Barbee’s niece that Dowling, who was
living with Dodd, often told her “how much she hated him
[Barbee] and wanted him ‘gone’ ”; (4) evidence of Dowling

and Dodd’s financial motive to frame Barbee for murder;8
(5) evidence of “financial misdeeds” by Dowling that would
have provided additional motive for Dodd to have framed
Barbee; (6) Dodd’s history of criminal violence; (7) evidence
that Barbee would avoid physical confrontations; and (8)
evidence that points to the falsity of Barbee’s confession.
Even assuming that this evidence is properly before us, it does
not show that the Dodd theory was more likely to succeed
than the accident theory.
8

Barbee obtained a declaration from his mother as well
as a statement from an investigator to the effect that
Dowling and Dodd had a financial motive to have Barbee
out of the way, including a $500,000 “bonding policy”
that Dowling purportedly converted to a “universal life
insurance policy” with Dowling as the sole beneficiary.

**9 With regard to the purported confession from Dodd to
Danny Dowling, there is no first-hand statement from Danny.
And it is neither clear that Danny would have testified, nor
that his testimony would have been favorable to Barbee’s
theory: When the post-conviction investigator asked Danny
who had made the statement about punching Lisa, Danny said
that “he just couldn’t remember, and didn’t want anything to
do with this case.”
*270 Dowling’s statement that Dodd wanted his clothes
washed the night of the murders and Dodd’s statement that he
had his vehicle power-washed shortly after the murders are
just as consistent with Barbee’s confession as they are with his
exculpatory version of events, as in both versions he alleged
that Dodd helped him bury the bodies. These statements are
also second-hand, coming from an investigator’s report.
The evidence of pecuniary interests and Dowling’s dislike of
Barbee perhaps tend to show that Dowling and Dodd had a
motive to murder Barbee, but not that they had a motive to
murder Lisa and Jayden. And even if they had a motive to
frame Barbee by killing the Underwoods, Barbee had a more
plausible motive to kill Lisa inasmuch as she was demanding
that he tell his wife about the pregnancy.
Dodd’s criminal history reflects that he had several
prior convictions for assault and harassment. But Texas’s
evidentiary rules, as a general matter, prohibit propensity
evidence. See Tex. R. Evid. 404(b). And even if it were
admissible, this evidence has little probative value.
Barbee’s

evidence

that

he

would

“avoid

physical

confrontations” also has little probative value,9 and it is

028
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

8

Barbee v. Davis, 728 Fed.Appx. 259 (2018)
2018 WL 1413840

contradicted by Dowling’s testimony that she and Barbee had
multiple physical fights when they were married, and that on
one occasion he followed a driver and attempted to “get out
to hit” the driver.
9

Barbee points to a statement from a schoolmate saying,
“I have had no contact with [Barbee] since high school,
[but] based on my knowledge of him when he was
young, I do not think [Barbee] has a high probability
of committing future violent acts”; a statement from his
aunt that he “was never abusive” and would “walk away
from any kind of confrontation”; and a statement from
the girlfriend of a former roommate, who saw Barbee
“every weekend for a period of about 2–3 months” and
“never saw [Barbee] angry.”

Barbee’s evidence with respect to the purported falsity of his
confession includes his own declaration that he was coerced
into confessing by the police; a declaration from his niece, in
which she says that Barbee told her he confessed to protect
his family because Dodd threatened to hurt them; and the
declaration of an author who states that Barbee confessed

because “Dodd had threatened to hurt his family.” These
statements all originate with Barbee, and none of them fully
explains why he would have confessed to his wife.
In light of the weakness of the evidence supporting his
alternative-suspect theory and the strength of the evidence
against him, it was not unreasonable for the state habeas
court to conclude that Barbee’s alternative-suspect theory was
not a “viable jury argument.” Accordingly, Barbee has not
demonstrated that it was unreasonable for the state habeas
court to find that Barbee was not prejudiced by counsel’s
closing argument. See § 2254(d).
***
For these reasons, we AFFIRM the district court’s denial of
habeas relief.
All Citations
728 Fed.Appx. 259, 2018 WL 1413840

Footnotes

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

029
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

9

APPENDIX D

App. 030

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

660 Fed.Appx. 293
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.

Stephen Dale BARBEE,
Petitioner–Appellant
v.
Lorie DAVIS, Director, Texas
Department of Criminal Justice,
Correctional Institutions
Division, Respondent–Appellee
No. 15–70022
|
Date Filed: 11/23/2016
Synopsis
Background: Petitioner sought federal habeas relief from
state-court conviction for capital murder. The United States
District Court for the Northern District of Texas denied
petition. Petitioner requested certificate of appealability
(COA).

Holdings: The Court of Appeals held that:
district court did not err in holding that actual innocence could
not serve as a gateway for consideration of the merits of
petitioner's procedurally defaulted claims;
petitioner was not entitled to COA on conflict of interest
claim;
petitioner was not entitled to COA on claim that trial counsel
were ineffective in presenting testimony of prison consultant;
petitioner was not entitled to COA on claim that trial counsel
were ineffective in failing to present mitigating evidence;

petitioner was not entitled to COA on claim that trial counsel
were ineffective in failing to present evidence of head injuries
and drug abuse; and
any error in district court's reliance on extra-record
information in denying petitioner's motion to alter or amend
judgment denying his habeas petition was harmless; but
petitioner was entitled to COA on claim that trial counsel were
ineffective by confessing his guilt to the jury during closing
argument without his permission.
Ordered accordingly.
*295 Appeals from the United States District Court for the
Northern District of Texas, USDC No. 4:09–CV–74
Attorneys and Law Firms
Allen Richard Ellis, Law Offices of A. Richard Ellis, Mill
Valley, CA, for Petitioner–Appellant.
Thomas Merrill Jones, Assistant Attorney General, Office
of the Attorney General, Postconviction Litigation Division,
Austin, TX, for Respondent–Appellee.
Before JOLLY, DENNIS, and PRADO, Circuit Judges.
Opinion
PER CURIAM:*
*

Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5th
Cir. R. 47.5.4.

Stephen Dale Barbee, a businessman in his mid-thirties with
no criminal record, was convicted and sentenced to death in
Texas for the capital murder of his former girlfriend, Lisa
Underwood, who was seven and a half months pregnant,1
and her seven-year-old son, Jayden. He requests a certificate
of appealability (COA) to appeal the district court’s denial
of federal habeas relief. We GRANT a COA for his claim
that trial counsel rendered ineffective assistance at the guiltinnocence phase of trial by confessing his guilt to the jury
during closing argument without his permission, and DENY
a COA as to all other claims. We further hold that the district
court did not abuse its discretion when it cited extra-record

031
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

1

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

evidence in its order denying Barbee’s motion to alter or
amend the judgment.

in Tyler working on a job trimming trees. They agreed to
go to the Tyler Police Department for questioning.

1

Barbee initially gave a recorded interview stating that he
had not seen or heard from Lisa in months. He then asked to
use the bathroom. While in the bathroom with a detective,
Barbee confessed that he killed Lisa by starting a fight
with her and then holding her face down into the carpet
until she stopped breathing. He also admitted that he held
his hand over Jayden’s mouth and nose until he stopped
breathing. Barbee said he did it because Lisa was going to
ruin his family and his relationship with his wife. He said
that Dodd had helped him plan the murder, had dropped
him off at Lisa’s house beforehand, and had picked him
up afterwards, near the area where he was stopped by
the deputy. This “bathroom confession” was not recorded.
Afterwards, Barbee gave another, recorded statement to
police, which was ultimately suppressed. He then spoke
with his wife, Trish, which was also recorded in the police
interview room. The next day, Barbee took the police to the
place where he had buried the bodies. Barbee recanted his
confession a few days later.

Lisa was unsure whether Barbee or another man, Ed
Rogers, was the father of her unborn child. DNA
evidence introduced at trial established that Rogers was
the father.

I. Facts and Procedural History
The district court summarized the evidence presented at trial
as follows:
Lisa Underwood owned a bagel shop in Fort Worth. She
began dating Stephen Dale Barbee, a customer of the shop.
Lisa became pregnant in July of 2004 and told Barbee that
she believed he was the father of the unborn child. Lisa’s
family and friends had planned a baby shower for Lisa
at 4 p.m. on Saturday, February 19, 2005, but she never
arrived. The Fort Worth police were notified and began an
investigation into her disappearance.
Unbeknownst to the Fort Worth detectives at that time,
Barbee had been stopped by a deputy sheriff earlier that
same morning while walking along a service road near a
wooded area in another county. He was wet and covered in
mud. He gave the deputy a false name and fled on foot.
Lisa’s home, which she shared with her seven-year-old son
Jayden, showed no signs of forced entry. Jayden’s shoes
were on top of the fireplace hearth, and his glasses were
next to his bed. Lisa’s blood was in the living room, on
the rug, and on the furniture. Having learned that Barbee
had been in a relationship with Lisa, the police inquired at
the *296 home of Barbee’s ex-wife, Theresa. Although
divorced, Theresa and Barbee still operated a tree-trimming
business and a concrete-cutting business together. Theresa
lived in their former marital home with an employee of the
concrete business named Ron Dodd. Theresa told Barbee
that the police were looking for him and asked what he had
done. She urged him to turn himself in.
On Monday, Lisa’s Dodge Durango was found in a
creek approximately 300 yards from where Barbee had
been stopped by the deputy sheriff two days earlier. The
windows were down, the hatchback was up, and there was
a bottle of cleaning solution in the cargo area. On the same
day, Fort Worth detectives traveled to Tyler to speak with
Barbee, his wife, Trish, and Dodd. Barbee and Dodd were

The prosecution’s case at the guilt phase relied primarily
on Barbee’s flight from the deputy sheriff, the bathroom
confession, his recorded statement to Trish, and his
knowledge of details about the burial site.
At the sentencing phase of trial, the State presented
evidence from Theresa that, during the course of their
marriage, Barbee had assaulted her on four occasions
and had assaulted a driver in a road-rage incident. The
State also presented evidence that Barbee had verbally
abused a former coworker who had rejected his attempts
to have a relationship. The defense presented testimony
from a pastor at Barbee’s church, Barbee’s mother, his
aunt, a niece, a church acquaintance, an ex-girlfriend,
and the girlfriend of Barbee’s ex-roommate. The defense
also presented testimony from a prison security expert, a
confinement officer who had known Barbee his whole life,
and the courtroom bailiff, who described Barbee’s behavior
in jail.
Barbee v. Stephens, No. 4:09–CV–074–Y, 2015 WL 4094055,
at *1–2.
The jury found Barbee guilty of capital murder. The trial court
sentenced him to death after the jury answered the special
issue on future dangerousness affirmatively and the special
issue on mitigation negatively. The Texas Court of Criminal
Appeals (TCCA) affirmed his sentence and conviction on

032
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

2

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

direct appeal, and the Supreme Court denied certiorari.
Barbee v. State, No. AP–75,359, 2008 WL 5160202 (Tex.
Crim. App. Dec. 10, 2008), cert. denied, 558 U.S. 856, 130
S.Ct. 144, 175 L.Ed.2d 94 (Oct. 5, 2009).
*297 In his first state habeas application filed in March
2008, Barbee raised four claims:
(1) Trial counsel rendered ineffective assistance at the pretrial
stage by failing to properly challenge the veracity of the video
recording of Barbee’s interrogation and confession;
(2) Trial counsel abandoned him at the trial stage by
confessing his guilt to the jury during closing argument
without his knowledge or consent;

The state habeas trial judge, who was not the same judge
who presided at Barbee’s trial, did not conduct an evidentiary
hearing. The judge adopted the State’s proposed findings of
fact and conclusions of law and denied relief. The TCCA
adopted the trial court’s findings and conclusions and denied
relief in 2009. Ex parte Barbee, No. WR–71070–01, 2009
WL 82360 (Tex. Crim. App. Jan. 14, 2009).
Barbee filed a petition for federal habeas relief in October
2010, presenting 21 claims for relief, many of which had
not been presented in state court. The district court held the
proceedings in abeyance and allowed Barbee to return to state
court to exhaust the claims that he had not presented to the
state court previously.

(3) Trial counsel rendered ineffective assistance at the
punishment phase by failing to present significant mitigating
evidence of his history of head injuries, failing to prepare
witnesses for testimony, and presenting witnesses who
challenged the jury’s verdict, after defense counsel had
admitted guilt in closing argument; and

In his second state habeas application, Barbee presented the
following claims:

(4) The police engaged in misconduct by withholding the
complete video recording of Barbee’s interrogation by the
police, and providing a version that had been edited to remove
portions of the interrogation in which Barbee was coerced into
confessing to the murders.

(3) Trial counsel rendered ineffective assistance, pretrial,
by (a) failing to properly challenge the veracity of the
video recording of his interrogation and confession and to
investigate whether it was coerced, and (b) failing to complete
DNA testing prior to trial;

Along with his habeas application, he submitted affidavits
from Amanda Maxwell, the mitigation specialist retained by
trial counsel; Dr. Stephen K. Martin, a neuropsychologist;
Nancy Cearley, a pastor; and Jackie Barbee, his mother. He
also submitted a letter from a psychologist, Dr. Kelly R.
Goodness, who had been retained by trial counsel.

(4) Trial counsel rendered ineffective assistance at the guiltinnocence phase and completely abandoned Barbee by (a)
failing to effectively present a case for actual innocence
through expert testimony, (b) confessing Barbee’s guilt
without Barbee’s permission, (c) failing to explain the cell
*298 phone records introduced into evidence, (d) failing to
object to prejudicial speculation by the coroners;

The trial court ordered trial counsel to file affidavits
responsive to Barbee’s ineffective assistance claims. Trial
counsel, Bill Ray and Tim Moore, submitted a joint affidavit.
Along with its response, the State submitted a handwritten
statement from Barbee; a memorandum of understanding
between trial counsel and Barbee; a letter from Barbee to
Dr. Richard Leo, a false-confession expert; a letter from Dr.
Leo to trial counsel; a letter from Dr. James G. Shupe, a
psychiatrist, to trial counsel; a memorandum from Amanda
Maxwell to trial counsel; an affidavit from Dr. Jack Randall
Price, a psychologist; and an affidavit from one of the
prosecutors at trial, Richard Kevin Rousseau.

(1) Actual innocence;
(2) Attorney conflict of interest;

(5) Trial counsel rendered ineffective assistance at the
punishment phase by (a) presenting harmful testimony from
Susan Evans, (b) failing to present mitigating evidence,
(c) failing to present mitigating evidence regarding future
dangerousness, (d) failing to present mitigating evidence
of head injury and hydrocodone use, (e) failing to present
evidence of low intelligence, (f) failing to present medical
evidence of frontal lobe impairment, brain impairment, and
neuropsychiatric evidence;

033
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

3

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

(6) His trial was conducted in an atmosphere that rendered it
inherently unfair due to pervasive and extremely prejudicial
pretrial and trial publicity;
(7) Trial counsel rendered ineffective assistance by failing to
file a motion for change of venue;
(8) He was denied due process as a result of the state
court’s failure to hold an evidentiary hearing on substantial,
controverted and unresolved issues of fact;
(9) The trial court erred by refusing to grant a challenge for
cause to juror Denise Anderson;
(10) The trial court abused its discretion by denying Barbee’s
motion to suppress alleged statements made to Detective
Carroll;
(11) Texas’s 10–12 rule (prohibition against informing jurors
that a single holdout juror will cause the imposition of a life
sentence) violated his rights under the Eighth and Fourteenth
Amendments;
(12) Lethal injection violates the Eighth Amendment;
(13) The second special issue on mitigation is
unconstitutional because it omits a burden of proof and makes
impossible any meaningful appellate review of the jury’s
determination;
(14) The trial court erred by denying a motion to inform the
jury that failure to answer a special issue would result in a life
sentence;
(15) The evidence supporting special issue 1 (future
dangerousness) was insufficient;

(20) The testimony of the coroners, and their lack of authority
to perform autopsies, deprived him of a fair trial; and
(21) The cumulative effect of all of these errors deprived him
of due process.
Barbee claimed that his initial state habeas counsel was
ineffective in failing to adequately brief claims, failing to
investigate and coherently present extra-record evidence,
failing to perform research sufficient to understand basic
principles of post-conviction practice, failing to present
proper post-conviction claims, and failing adequately to
communicate with Barbee.
The TCCA remanded the conflict of interest claim to the trial
court for an evidentiary hearing. Ex parte Barbee, No. WR–
71,070–02, 2011 WL 2071985 (Tex. Crim. App. Sept. 14,
2011). The state habeas trial court conducted an evidentiary
hearing on the conflict of interest claim on February 22–23,
2012. Following the hearing, the trial court adopted the State’s
proposed findings of fact and conclusions *299 of law and
recommended that relief be denied on Barbee’s conflict of
interest claim. The TCCA adopted the trial court’s findings
and conclusions and denied relief on the conflict of interest
claim; it dismissed the remaining claims as abusive. Ex parte
Barbee, 2013 WL 1920686 (Tex. Crim. App. May 8, 2013).
Barbee filed an amended federal habeas petition on October 2,
2013, raising the same 21 claims that he had presented in his
subsequent state habeas application. The district court denied
relief and denied a COA. Barbee v. Stephens, No. 4:09–CV–
074–Y, 2015 WL 4094055 (N.D. Tex. July 7, 2015). The
district court also denied Barbee’s motion to alter or amend
the judgment. Barbee v. Stephens, 2015 WL 5123356 (N.D.
Tex. Sept. 1, 2015). Barbee timely appealed.

(16) The jury was unconstitutionally selected because the
jurors were death-qualified;

II. Discussion of Claims

(17) His death sentence violates international law;

Barbee requests a COA from this court for the following
claims:

(18) Appellate counsel rendered ineffective assistance;

(1) Trial counsel had a conflict of interest;

(19) He was deprived of due process and a fair trial when
the police provided an edited version of the videotape of his
confession and withheld the complete video;

(2) Trial counsel rendered ineffective assistance at the guiltinnocence phase by confessing his guilt to the jury during
closing argument without his permission; and

034
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

4

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

(3) Trial counsel rendered ineffective assistance at the
punishment phase by (a) presenting the testimony of prison
consultant Susan Evans; (b) failing to present mitigating
evidence; and (c) failing to present evidence of head injuries
and drug abuse.
Barbee contends further that he was denied due process when
the district court relied on extra-record evidence to discredit
one of his declarants in its order denying Barbee’s motion to
alter or amend the judgment.
In order to obtain a COA, Barbee must make a “substantial
showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). “Where a district court has rejected the
constitutional claims on the merits, the showing required
to satisfy § 2253(c) is straightforward: The petitioner must
demonstrate that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable
or wrong.” Slack v. McDaniel, 529 U.S. 473, 484, 120
S.Ct. 1595, 146 L.Ed.2d 542 (2000). With respect to claims
dismissed on procedural grounds, the petitioner must show
both “[1] that jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a constitutional
right and [2] that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.”
Id.
When “reviewing [a] request for a COA, we only conduct a
threshold inquiry into the merits of the claims [the petitioner]
raise[s] in his underlying habeas petition.” Reed v. Stephens,
739 F.3d 753, 764 (5th Cir. 2014) (citing Miller–El v.
Cockrell, 537 U.S. 322, 336, 123 S.Ct. 1029, 154 L.Ed.2d 931
(2003)). This “threshold inquiry” is not a “full consideration
of the factual or legal bases adduced in support of the claims,”
but rather “an overview of the claims in the habeas petition
and a general assessment of their merits.” Miller–El, 537 U.S.
at 336, 123 S.Ct. 1029. In generally assessing the claims for
relief in a COA application, “[t]he question is the debatability
of the underlying constitutional claim, not the resolution of
that debate.” Id. at 342, 123 S.Ct. 1029. And “in a death
penalty case, ‘any doubts as to whether a COA should issue
must be resolved in [the petitioner’s] favor.’ ” Ramirez v.
Dretke, 398 F.3d 691, 694 (5th Cir. 2005) (alteration in
original) (quoting Hernandez v. Johnson, 213 F.3d 243, 248
(5th Cir. 2000)).
For the reasons that follow, we DENY a COA for claims (1)
and (3), because reasonable *300 jurists would not debate
the district court’s denial of relief as to those claims. We also

hold that the district court did not abuse its discretion by citing
extra-record evidence in its order denying Barbee’s motion to
alter or amend the judgment.
Because this is a death penalty case and we are to resolve
in Barbee’s favor any doubts as to whether a COA should
issue, we GRANT a COA for claim (2). Barbee may file a
supplemental brief with respect to the merits of that claim
within thirty days of the date of this order. The supplemental
brief should address only matters, if any, that have not already
been covered in his brief in support of the COA application.
If Barbee files a supplemental brief, the State may file a
response twenty days thereafter, to be similarly limited to
matters that have not already been covered in its brief in
opposition to Barbee’s COA application.
We now turn to address Barbee’s claim of actual innocence
and the claims for which we deny a COA.

A. Actual Innocence
Barbee claims that he is actually innocent. He explains that
this is a “gateway” claim through which any of his otherwise
procedurally barred claims may be considered on the merits.
Barbee contends that Ron Dodd, who was living with
Barbee’s ex-wife Theresa, committed the murders and framed
Barbee so that Dodd could take over Barbee’s businesses. He
maintains that his confession was coerced by police threats
of the death penalty, and Dodd’s threats to harm his family.
Barbee admits that he helped Dodd conceal the bodies. He
argues that trial counsel failed to take any reasonable steps to
establish his innocence or to investigate the possibility that
Dodd had committed the murders.
Barbee’s version of the facts is set out in his 2010 declaration:
Lisa wanted Barbee to tell his new wife, Trish, about Lisa’s
pregnancy. Barbee wanted Lisa to have DNA testing to
confirm his paternity. On the evening of Friday, February
18, 2005, Barbee asked Dodd to accompany him to Lisa’s
house. Dodd drove Barbee to Lisa’s house and then left to
have dinner with Theresa. Barbee later called Dodd to pick
him up, and they returned to Theresa’s house. When they got
there, Dodd asked if Barbee wanted Dodd to talk to Lisa about
getting a DNA test, and Barbee agreed. They drove back
to Lisa’s house. Barbee stayed in Dodd’s truck while Dodd
entered Lisa’s house. Dodd came out after 15–20 minutes
and said, “Your problems are solved, go get her truck.”

035
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

5

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

Barbee went to the door of Lisa’s house and Dodd left. When
Barbee went into the house, he saw Lisa and Jayden dead. He
panicked because he thought he was going to be blamed. He
dragged Lisa into the garage and put her and Jayden’s bodies
in her vehicle and drove away. He called Dodd, who met him
at a deserted place and helped him remove the bodies from the
vehicle. Dodd threw a shovel to Barbee and left. After burying
the bodies, Barbee called Dodd, who agreed to pick him up
on the highway. While on the way to meet Dodd, Barbee was
stopped by a deputy sheriff. He gave the deputy a false name
and fled. He met Dodd and they returned to Theresa’s house
where Theresa washed Dodd’s clothing.

sign over the businesses to Theresa, that Dodd was
instrumental in causing a serious head injury to Barbee about
a month before the murders, and that prior to the murders,
Theresa had changed a $500,000 company bonding policy to
a life insurance policy naming herself as the sole beneficiary.

As the district court noted, in his federal habeas petition
Barbee listed the following as evidence of his innocence and
Dodd’s guilt:

(9) There was no forensic evidence connecting him to the
murder.

(1) A 2010 declaration from Theresa’s father, Jerry Dowling,
in which he stated that his son, Danny Dowling, told him that
Dodd had said right after the murders that *301 he had to
punch Lisa in the face 25–26 times before she went down.
(2) The same quote from Jerry Dowling, repeated in the
2010 declaration of Tina Church, an investigator. Although
Danny Dowling later stated that Barbee, not Dodd, had made
that statement, Church said that would have been impossible
because Danny had not been in contact with Barbee at that
time.
(3) Theresa’s statement to Church that Dodd had his clothes
washed at 4:00 a.m. on Saturday, February 19, and Dodd’s
admission that he power-washed his vehicle that morning.
(4) A 2010 declaration from Jennifer Cherry, Barbee’s niece,
in which she stated that Theresa had said how much she hated
Barbee and wanted him gone, and that Theresa had said in
Dodd’s presence that she wished Barbee would just die and
that there had to be a way to get him out of the office.
(5) Dodd’s status as a parolee for aggravated assault, and his
cohabitation with Theresa, who stood to gain the businesses as
well as half a million dollars upon the demise of Barbee, and
Dodd’s arrests or convictions for the misdemeanor offenses
of telephone harassment, driving with a suspended license,
failure to appear, criminal mischief, unauthorized use of a
motor vehicle, and assault.
(6) 2010 declarations by Barbee’s mother, Jackie, in which
she stated that soon after the murders, Theresa had Barbee

(7) Church’s 2010 confirmation of Theresa and Dodd’s
financial motive to have Barbee out of the way.
(8) Evidence of financial misdeeds by Theresa which were
related to trial counsel, as described in the affidavit of
mitigation specialist Amanda Maxwell.

Barbee submitted with his federal habeas petition the
following character evidence as proof of his actual innocence:
(1) A 2010 declaration from the father of his best friend in
middle school stating that Barbee was well-behaved.
(2) A 2010 declaration from Barbee’s aunt, who said she
has always known Barbee to walk away from any kind of
confrontation.
(3) A 2010 declaration from a girlfriend of Barbee’s former
roommate, who said she never saw Barbee angry, that he was
crazy about Trish’s children, and it was hard to believe he was
guilty.
(4) A 2010 declaration from his cousin stating that she did
not believe Barbee was capable of such an act and that she
believed him when he proclaimed his innocence to her.
Finally, he described in his federal habeas petition the
following evidence of the falsity of his confession:
(1) His 2010 declaration, that his confession was false because
the police had threatened him with the death penalty.
(2) A 2010 declaration from his niece, Jennifer Cherry,
stating that Barbee told her he confessed because Dodd had
threatened to hurt his family.
(3) A 2010 declaration from the author of a book about the
murders, Lethal Charmer, stating that Barbee told her he
confessed because Dodd threatened to hurt his family.

036
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

6

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

*302 (4) A 2005 letter to trial counsel from false confession
expert, Dr. Richard Leo, stating that Barbee maintained that
the confession was coerced, the circumstances surrounding
the bathroom confession were unusual, and the police
selectively turned the recording device off and on.
In order to demonstrate actual innocence to excuse a
procedural default, the petitioner must offer new, reliable
evidence not presented at trial that establishes that, more
likely than not, no reasonable juror would have found the
petitioner guilty beyond a reasonable doubt. Schlup v. Delo,
513 U.S. 298, 327, 115 S.Ct. 851, 130 L.Ed.2d 808 (1995).
The innocence determination is based on a consideration of
“all the evidence, old and new, incriminating and exculpatory,
without regard to whether it would necessarily be admitted”
at trial. House v. Bell, 547 U.S. 518, 538, 126 S.Ct. 2064, 165
L.Ed.2d 1 (2006) (internal quotation marks omitted).
The district court began its analysis by describing the
incriminating evidence in the record: Barbee was stopped by
a deputy sheriff on the night of the murders about 300 yards
from where the victim’s vehicle was later found; he was wet
and muddy below the waist, gave a false name, and fled on
foot. Two days later, Barbee led the police to the place where
the victims were buried. Lisa’s business partner confirmed
that Lisa had been in a relationship with Barbee and believed
that he was the father of her unborn child. Barbee confessed to
the police that he murdered Lisa because she was going to ruin
his marriage to Trish. He explained that Dodd had dropped
him off at Lisa’s house to pick a fight with her, but she would
not take the bait. Dodd picked him up and asked if they needed
to hire a hitman. Barbee said no, he could do it, and Dodd took
him back to Lisa’s house, where he started a fight with her,
punched her in the nose, and held her face down in the carpet
until she stopped breathing. He said that when Jayden came
into the room, he put his hand over Jayden’s nose and mouth
until the child stopped breathing. He put both bodies in Lisa’s
vehicle and drove them to a deserted area where he buried
them together and said a prayer. He admitted to the police that
he had tried to clean the house and had covered a blood stain
on the floor with a piece of furniture.
The district court pointed out that the quotation that Barbee
had described in his habeas petition as a portion of a letter
from Dr. Leo was not in fact part of that letter. The court noted
that Dr. Leo actually concluded that Barbee’s confession was
“far more likely to be true than to be false” because Barbee led
the police to the bodies, Dodd had no motive to murder Lisa,
Barbee did not recant his confession when his wife, Trish,

came into the interrogation room, and Barbee told his ex-wife,
Theresa, that he had committed the murders.
The district court then described its review of the recording
of Barbee’s conversation with his wife, Trish, in the police
station immediately after he had confessed:
It begins with Trish, visibly shocked, stating, “You killed
her? You killed her? Friday night?” and asking how Barbee
did it. Barbee replies, “I held her down too long.” He says
that Lisa called and threatened him for months, and states
at various times that he “made a bad decision,” “it was
an accident,” and he “can’t take it back.” Trish silently
calculates that Lisa was eight months’ pregnant, that she
and Barbee were dating eight months ago, and asks, “Why
did you cheat on me?” and “How could you sleep with me
and sleep with her?” She asks Barbee what she should tell
his mom *303 and dad. Barbee states that his life is over
and he will “lose everything now.” Near the end, he states
that he is “so glad” he told her because it would have eaten
him alive. She sits in Barbee’s lap throughout most of the
recording, holding his head, with Barbee’s arms wrapped
around her.
The district court found that a reasonable juror could
“conclude that their unconstrained crying, moaning,
hyperventilating, and Barbee’s repeated expressions of regret
and anxiety are genuine.”
The district court also pointed to Theresa’s testimony that
Barbee had confessed to her the night after he had confessed
to the police, but the following day, in the presence of his
family, he said that they “had it all wrong,” and that he did
not do it.
The district court then turned to the evidence and argument
that Barbee presented in support of his claim of innocence.
It rejected Barbee’s contention that the State’s theory made
little sense because he could not have “single-handedly placed
the pregnant 166–pound Lisa in her SUV,” noting that it was
refuted by Barbee’s own 2010 declaration in which he stated:
“I dragged Lisa, who weighed about 170 pounds, into the
garage and placed her in the Durango.” The court stated that
Barbee’s claim of innocence made little sense because it did
not account for the fact that Dodd could not have known that
Barbee would confess.
The district court found that the character evidence that
Barbee submitted was not sufficient to show that no
reasonable juror would have found him guilty beyond a
reasonable doubt.

037
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

7

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

The district court stated that Barbee had presented no
authority that the double-hearsay statements made by Danny
Dowling to Tina Church and to Jerry Dowling are trustworthy
evidence contemplated by Schlup. The district court pointed
out that Danny Dowling had attributed the statement “I had to
hit [her] 25–26 times” to Barbee as well as to Dodd and that
he ultimately could not remember who said it. Furthermore,
when Dowling first saw the “Amber Alert” for the missing
victims, he said to himself, “That’s probably something that
[Barbee] would do.”
The district court stated that the fact that Dodd washed his
clothing and power-washed his vehicle immediately after the
murders did not negate Barbee’s involvement or necessarily
prove that Dodd did anything more than help Barbee dispose
of the bodies.
The court stated that Barbee’s headaches and the head injury
caused when Dodd dropped the pipe on his head would
not prove Barbee did not commit murder. Instead, such
evidence provided an excuse for wrongdoing and is therefore
inconsistent with a claim of actual innocence.
The court held that the evidence of financial misdeeds by
Theresa, the purported motive for Dodd to commit murder,
was not new, because Amanda Maxwell had reported it to
trial counsel. Even assuming Dodd and Theresa had financial
reasons to want Barbee out of the way, it was Barbee, not
Dodd, who had the motive for wanting Lisa out of the way,
because she was demanding that he tell Trish about her
pregnancy even though she refused to take a paternity test.
The district court stated that the post-conviction declarations
by a book author and Barbee’s acquaintances that Barbee
had confessed only because he was threatened merely
repeated information originating from Barbee himself and are
therefore neither new nor objectively reliable.
The district court stated that even if Barbee’s evidence were
considered “new,” *304 it was not the sort of compelling
evidence required by Schlup. The court characterized
Barbee’s theory of innocence as unsound and in conflict
with his own declaration. Considering all the old and
new evidence, both incriminating and exculpatory, without
regard to its admissibility, the district court concluded that
Barbee had failed to demonstrate that, more likely than
not, no reasonable juror would find Barbee guilty beyond a
reasonable doubt.

In its order denying Barbee’s motion to alter or amend, the
district court stated that Barbee’s argument that his counsel
should have presented a “Dodd did it” theory failed to
acknowledge that there were no witnesses to say “Dodd did
it” because Barbee refused to testify. The court pointed out
that Dodd’s actions on the night of the murder were not
those of a person trying to frame Barbee for murder, nor
were Barbee’s actions those of a person who fears he is
being framed. The court stated that Danny Dowling was not a
reliable witness to Barbee’s asserted innocence. It pointed out
that Danny did not submit an affidavit. Instead, Barbee relied
on Church’s description of what Danny told her. Although
it was obvious from Church’s declaration that she believed
Danny when he incriminated Dodd but did not believe Danny
when he incriminated Barbee, the court found that based
on Church’s report, Danny was a vacillating witness who
ultimately could not remember whether Dodd or Barbee made
the incriminating remark. Furthermore, Danny also made a
separate statement indicating he believed that the victims’
disappearance was “probably something that [Barbee] would
do.”
Barbee argues that his theory of innocence does not depend
on Dodd knowing that Barbee would later confess. He asserts
that he would have been the prime suspect even if he had not
confessed, because he was known to have been romantically
involved with Lisa; he believed and told Dodd that Lisa may
have been pregnant with his child; and he was in trouble
with his wife because of his extramarital affairs. He contends
that Dodd, knowing all of this, did not have to foresee that
Barbee would confess in order to have a reasonable belief
that an attempt to frame Barbee would be successful. He
claims that when he helped Dodd conceal the bodies, he was
unaware of Dodd’s intention to frame him for the murders. He
argues that, to the extent the district court denied the actual
innocence claim based on its dismissal of Danny Dowling
as a vacillating witness, that holding is debatable, because
the district court ignored Church’s explanation that Dowling
could not have been referring to Barbee because he had not
been in contact with Barbee at the time.
The evidence that Barbee offers as proof of his actual
innocence, considered together with the evidence of his guilt,
fails to establish that, more likely than not, no reasonable
juror would have found him guilty beyond a reasonable doubt.
Accordingly, we hold that the district court did not err when
it held that actual innocence cannot serve as a gateway for

038
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

8

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

consideration of the merits of Barbee’s procedurally defaulted
claims.

B. Claim 1—Conflict of Interest
Barbee contends that his lead counsel, Bill Ray, received
a large number of probation revocation appointments from
Judge Gill, the trial judge in Barbee’s case, based on a
secret understanding that Ray would move the cases rapidly
through the court process. According to Barbee, Judge Gill’s
appointment of Ray to represent Barbee in the capital murder
case was made with the same understanding that *305 Ray
would move the case quickly, either by having Barbee plead
guilty or by putting up only a minimal defense. Barbee argues
that Ray’s financial interest in continuing to receive court
appointments from Judge Gill created a conflict of interest
that caused Ray to pressure him to plead guilty, fail to move
for a change of venue despite prejudicial pretrial publicity, fail
to investigate his innocence, confess his guilt to the jury, and
fail to present significant mitigating evidence. Barbee asserts
that there was no strategic reason for any of these failures and,
therefore, the only reasonable explanation is that Ray and his
co-counsel, Moore, wanted to move the case quickly through
Judge Gill’s court so that they would keep getting lucrative
court appointments from Judge Gill.
As we have earlier noted, the TCCA remanded Barbee’s
conflict of interest claim to the trial court for an evidentiary
hearing. We will now describe the evidence presented at that
hearing.
Amanda Maxwell, the defense mitigation expert, testified that
she obtained medical records which showed that Barbee had
suffered a series of head injuries, had attempted suicide, and
had been diagnosed with bipolar disorder. His most recent
head injury occurred shortly before his arrest. He and Dodd
were working on a site and Dodd dropped a 400–pound
metal pipe on Barbee’s head, splitting his hard hat. He was
knocked to the ground and taken to the hospital. Maxwell
testified that Barbee experienced a lot of pain and suffered
intense migraines following that injury and began taking
hydrocodone that had been prescribed for his wife. She said
that Barbee told her it made him itch all over and kept him
wide awake at night. Maxwell thought this history of drug
use was of significant mitigating value, primarily due to the
reaction he had to it.

Maxwell told trial counsel about hallucinations that Barbee
was experiencing in jail (seeing spiders crawling on
the walls). Maxwell felt that Barbee’s history of head
injuries could be of significant mitigating value at the
punishment phase and recommended to defense counsel that
a functional MRI, a CT scan, and a neuropsychological
evaluation be conducted. Trial counsel did not respond to her
recommendation.
Maxwell testified that she found out that Barbee’s ex-wife,
Theresa, who was living with Ron Dodd at the time, had come
to the jail and told Barbee that his DNA was all over the crime
scene (which was not true) and that he had better sign over
both businesses to her or the State would take them. Maxwell
also found out that Theresa had been embezzling funds from
the business and that she owed tens of thousands of dollars
to Jackie Barbee.
Maxwell testified that defense counsel were pressuring
Barbee to plead guilty and that was always the overriding
issue at all of their meetings. Maxwell stated that Ray and
Moore had conveyed to her that they found Barbee disgusting
because he cried. She said that Ray wanted the case to be done
and to close the books on it. After the case was over he said,
“we will all end up in federal court answering for this case.”
Maxwell completed her mitigation report at the end of
January 2006 and delivered it to Ray. She never heard from
him again. Ray had hired another investigator to re-interview
all of the witnesses that she had previously interviewed.
Maxwell testified that she was present at trial. In her opinion,
the mitigation testimony that was presented was not effective.
Maxwell had prepared a document entitled “Crime Week
Stressors,” that was not presented at trial. It included the
following: Barbee was about to default on a tree job because
his employees had quit; one of his *306 employees had
been drinking and wrecked one of his tree trucks; he had
caught Theresa stealing from the company and gotten into an
argument with her about it; his wife Trish threatened to leave
him unless he collected the divorce settlement from Theresa
and took control of his business; he learned that his father was
dying of colon cancer; and he was having migraine headaches
and severe pain, for which he was taking a large amount of
hydrocodone.
On cross-examination, Maxwell admitted that some of the
crime-week stressors could have also been aggravating. She
acknowledged that she had learned both good and bad

039
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

9

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

things about Barbee and that there were some negative
things that Ray would not want to place before the jury.
She was aware that Barbee’s mother was very unhappy
with Ray and Moore and that his mother had a lifelong
pattern of running interference for Barbee, including paying
for his past acts of vandalism and theft. Maxwell stated
that she had interviewed Barbee’s friend, Jeff Boyd, who
provided negative information about Barbee regarding acts of
vandalism and setting fires. Boyd also told her that Barbee
had told him about pouring gasoline on baby hamsters and
setting them on fire when he was a pre-teen.

slow; a truck with two people came up behind them, and then
swerved into them and ran them off the road; the two men
got out of the truck and approached; he and Barbee got out to
defend themselves; it was a simple fistfight and no one was
hurt; the other men were the aggressors, and the police were
not called. Davis testified that this is the only incident where
he saw Barbee get physical with *307 anyone. He said that
he did not tell anyone on the defense team that Barbee had
attempted to kill the driver of the other vehicle, as stated in
counsels’ joint affidavit presented in the initial state habeas
proceeding.

Maxwell testified that she interviewed Tim Davis on
November 12, 2005. She felt that the interview was very
prejudicial, so she did not include that information in
the Psychosocial History Report she prepared for defense
counsel. According to Maxwell, Barbee and Davis were the
victims of a road rage incident in which they were attacked by
the two men in the other vehicle. She said that Davis did not
tell her that Barbee had attempted to kill the driver of the other
vehicle. However, she acknowledged that her report to Ray
about the interview states that Davis said that Barbee “had no
off button” and that “[w]hen he got started he didn’t know
how to stop.” Further, Davis said that he had to pull Barbee off
the older man to keep him from hurting the man “real bad.”

Calvin Cearley, a pastor of a church Barbee attended, testified
that he is married to Nancy Cearley, who testified at trial. He
was not contacted by defense counsel. He testified that Barbee
loved animals and children, and was polite and respectful.
Had he been called as a witness at trial, he would have testified
that Barbee would not be likely to commit future acts of
violence.

Maxwell admitted that she had provided Ray and Moore with
information about Barbee’s girlfriends and a secret cell phone
that he used to call another woman while he was married to
Theresa. She also gave them information about his behavioral
problems in school, and his poor impulse control due to
his ADHD diagnosis. Maxwell considered Barbee’s acts of
vandalism to be youthful mischief, or a grief reaction to the
loss of his brother and sister. She considered his robbing of
a bait-and-tackle store, his breaking into a concession stand,
and his breaking of 47 windows at a school to be acts of
teenage mischief.
Tim Davis testified at the state habeas evidentiary hearing that
he and Barbee were best friends and co-workers for eight to
ten years and that he was the best man at Barbee’s wedding
to Theresa. He described Barbee as easygoing, friendly, and
respectful of others. He was not called to testify at trial but if
he had been, he would have given his opinion that Barbee will
not be a future danger to society. He said that Maxwell’s report
of her interview of him in 2005 was not truthful and twisted
his words regarding the “road rage” incident. He described
the incident, which occurred in 1996 or 1997, as follows: The
highway was icy; he and Barbee were in the right lane going

Nancy Cearley, Calvin Cearley’s wife and co-pastor, testified
at the evidentiary hearing that Barbee was the children’s
church leader and the children loved him. She described him
as easy-going, friendly, very likeable, polite, and respectful.
When she testified at trial, Barbee’s attorneys did not ask her
anything about his character. If she had been asked, she would
have testified that he is not likely to commit future acts of
violence.
Mike Cherry testified at the evidentiary hearing that he
was married to Barbee’s older sister Kathy, who died at
age 20. Barbee’s older brother, David, also died at age
20, in a car accident. Barbee was close to his sister and
brother and was devastated by their deaths. Cherry never saw
Barbee physically abuse Theresa. He never talked to Barbee’s
attorneys, but would have been willing to testify at trial that
Barbee is very reserved and can control himself. He only saw
Barbee get into one fight, with a belligerent, drunk man who
was behaving inappropriately in front of children at a party
and refused to leave.
Jennifer Cherry, Barbee’s niece (the daughter of Kathy and
Mike Cherry), testified at the evidentiary hearing that she and
Barbee are very close and that Barbee is more like a brother
than an uncle to her. Barbee was very playful, always wanted
to make her laugh, spoiled her, and took care of her. When
he ran the children’s church program, the kids loved him.
She testified that she worked as Theresa’s assistant at the
Barbees’ concrete cutting business from 2002–2004. She said

040
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

10

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

that Theresa paid personal bills with company money, and
deposited large sums of cash. She heard Theresa say that she
wished Barbee would die, and also heard her claim falsely that
Barbee had hit her. She was aware that Theresa and Barbee
had borrowed money from Barbee’s parents and that Theresa
was still in debt when the murders occurred. She said that
Barbee’s trial attorneys were not interested in what anyone in
the family had to say and did not prepare her to testify. Had
she been asked, she would have testified at trial that Barbee
would not be likely to commit future acts of violence.
Sharon Colvin, who knew Barbee from church, testified at
the evidentiary hearing that Barbee was friendly, jovial, and
had a really good attitude. She talked to Barbee’s attorneys
shortly after he was arrested, and would have been willing to
testify at trial, but was not asked to do so. Had she been asked,
she would have testified that Barbee would not be likely to
commit future dangerous acts.
Robert Gill, the trial judge (who was at that time an assistant
criminal district attorney), testified at the evidentiary hearing
that he appointed Ray in a lot of probation revocation
cases in his court. He liked to appoint Ray because Ray
prepared the cases and was available on Friday afternoons,
when Gill liked to schedule revocation hearings. He admitted
that a newspaper article had reported that a federal judge
had criticized the way he handled plea bargaining in the
revocation cases and had found that Ray rendered ineffective
*308 assistance in one revocation case. He admitted that
Ray had contributed $1000 to his campaign and that Moore
had contributed $300. He testified that he did not interfere
with Ray and Moore’s defense of Barbee and that there was
no agreement between him and Ray about how Ray was to
handle Barbee’s case.
Barbee’s mother, Jackie Barbee, testified at the evidentiary
hearing that Ray and Moore came to her house once and
talked to her on the telephone a couple of times prior to trial.
Maxwell came to her house several times to discuss Barbee’s
background and education, but very little of her work was
presented to the jury. Mrs. Barbee testified that Barbee is
a giver and has a very loving heart, is a hard worker, was
involved with the church, and was in Sunday school since
he was three years old. When she called Barbee to wish him
a happy 20th birthday, he cried and said it was the worst
day of his life. She realized that he thought he would die at
age 20 because his only sister and brother had each died at
that age. She said that Barbee’s problem at school was that
he loved to be funny and make people happy. He had some

trouble completing his GED. She helped him and Theresa
financially, loaning them money to buy a house and build a
cabana. When Barbee and Theresa divorced, he let her have
everything. Theresa still owed her money.
Mrs. Barbee testified that Ray and Moore wanted to show
her the recording of Barbee’s confession, but she refused to
watch it. They said they might be able to save Barbee’s life
if he would plead guilty. She testified that she would have
liked to have been able to tell the jury that Barbee had a very
strong sense of right and wrong, but his lawyers told her to
just answer the questions. She was shocked when Ray told the
jury that Barbee was guilty. She heard, later on, about the road
rage incident involving Tim Davis and thought it “was no big
deal.” She was aware of Barbee’s breaking windows at the
school, but was not aware of his involvement in the robbery
of a fish and bait shop or breaking into a concession stand.
Had she been asked, she would have testified that Barbee
would not be a future threat to anyone. She described Barbee
as “broken” after his lawyers visited him in jail.
William Ray, Barbee’s lead counsel at trial, testified at the
evidentiary hearing that about 70–80 percent of his criminal
practice in four counties was court-appointed, and that 25–
75 percent of his court-appointed practice came from Judge
Gill’s court. Ray earned $710,000 from his court-appointed
work in Judge Gill’s court from 2001–2007. He testified
that making contributions to judges’ campaigns was common
practice and that he had contributed to the campaigns of more
than ten judges in Tarrant County. He testified that he did
not have any agreement or understanding with Judge Gill as
to how he was to represent Barbee. He said that Judge Gill
did not place any limitations on his handling of the defense,
did not deny any requests for experts, and did not make any
threats, either implied or direct, that Ray would not receive
future appointments.
Billing records introduced as exhibits at the hearing showed
that Ray and Moore billed the court for 350 and 260 hours
of out-of-court time, respectively. Ray hired Kathy Minnich
as an investigator and when she moved out of state, he
replaced her with Stanley Keaton. Amanda Maxwell was
hired as the mitigation specialist. Ray hired as experts two
forensic psychologists, a forensic psychiatrist, an expert on
false confessions, a computer investigator, and a DNA expert.
According to Ray, the theory of the defense at the guiltinnocence stage was *309 that Barbee should be acquitted
of capital murder (he was charged with the intentional

041
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

11

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

killing of more than one individual during the same criminal
transaction) because the killing of Lisa Underwood was
an accidental, unintended consequence of her advanced
pregnancy. He said that when he talked to the medical
examiner, he was told that because Lisa was pregnant, it
would not take a lot of force to keep her from being able
to breathe because the baby was taking up a part of her
stomach and her diaphragm could not move. Because Barbee
refused to testify, Ray felt this was the only option available
to him. The defense strategy at the punishment phase was to
show that the Texas prison system was able to handle violent
offenders and that Barbee could live peacefully in prison.
In support of that theory, he offered good-character and
social-history testimony from Barbee’s relatives and friends,
testimony about prison security from a prison classification
expert, and testimony about Barbee’s good behavior in jail
from the bailiff.
Ray testified that he and Moore considered a motion for
change of venue, but he did not believe that the prejudice
against Barbee would have been worse in Tarrant County
than anywhere else. He said it has been his experience that
when you have a change of venue, if you go to somewhere
outside the area, the people in the town get the impression that
whoever you are trying is such a notorious criminal that he is
actually not treated as fairly there.
Ray testified that he attempted to investigate Barbee’s claim
of actual innocence and his claim that Dodd committed the
murders. He obtained Dodd’s criminal records. He was aware
that Dodd had served time for aggravated assault and talked
to the victim of that offense. He was also aware that Dodd
had dropped a pipe on Barbee’s head. Ray obtained cell phone
records through the use of sealed subpoenas. Those records
showed that Barbee had placed a call to Dodd at 1:47 a.m. on
the night of the murders, initiated from a cell tower near the
Underwoods’ home. Those records also showed that Barbee
had placed calls to Dodd from a cell tower near the location
where the bodies were found.
Ray testified that presenting a defense based on a theory that
Dodd committed the murders was made difficult by Barbee’s
confessions to the police, his wife, and his former wife, by
his refusal to testify, by Dodd invoking his Fifth Amendment
right not to testify, by Dodd’s lack of a motive for killing
the victims, and by the lack of credibility in a motive based
on Dodd framing Barbee. Although Barbee was steadfast in
maintaining his innocence after he recanted his confessions,
he had two or three different theories of how it happened. In

a letter that Barbee wrote to Ray about his confession to the
police, Barbee stated that both of the murders were accidental.
The first time Ray met with Barbee in person, Barbee told
Ray he did not commit the murders. Ultimately, Barbee said
he was not there at all, that Dodd did it, and he only helped
Dodd conceal the bodies.
Ray did not think he could prove that Dodd had a motive
to kill the victims. He said that he would have wanted
someone better than Barbee’s niece to testify that Theresa was
embezzling money from the businesses. The financial motive
evidence was weak, he said, because Dodd was already
living with Theresa in Barbee’s former home, and Barbee
and Theresa were already divorced. Other than Barbee, who
refused to testify, the defense had no way to show that Dodd
had a motive to commit the murders. He did not want to
call Theresa as a witness because he thought if she testified,
she would repeat what she *310 had told him—that Barbee
simply “snapped” on the day of the murders. Ray’s biggest
concern with the “Dodd did it” theory was that it did not take
into consideration the fact that Barbee would confess.
Ray was aware that Donald Painter, a prisoner in the Tarrant
County Jail, was willing to testify that Dodd had admitted
that he committed the murders. However, Ray’s investigation
revealed that Painter had agreed to give that testimony in
exchange for a promise of payment from Barbee. Although
Ray thought the payment was Painter’s idea, he said that
calling Painter as a witness would have been a bad idea.
Ray denied that he pressured Barbee to plead guilty. He
testified that he recommended that Barbee consider a plea
because Barbee’s confessions made an innocence defense
difficult. In any event, the State never offered a plea deal.
Ray said that he attempted to get Barbee’s family to view
Barbee’s recorded confession because they refused to believe
that Barbee had confessed. Ray explained that he was not
trying to convince them that Barbee was guilty, but only trying
to demonstrate to them that the confessions were a problem.
At Barbee’s request, Ray retained false-confession expert, Dr.
Leo. Dr. Leo’s report was not favorable to the defense because
he concluded that Barbee’s confession was more likely to be
true than false. According to Ray, Dr. Leo’s opinion was based
on three things: (1) Barbee’s leading the police to the bodies;
(2) Dodd’s lack of a motive; and (3) the fact that Barbee did
not recant his confession when his wife, Trish, came into the
room after he had confessed to the police.

042
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

12

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

Ray testified that he consulted with three mental health
professionals: psychologists Dr. Kelly Goodness and Dr.
Barry Norman, and psychiatrist Dr. James Shupe. He
did not get any impression from any of them that
a neuropsychological examination, as recommended by
Amanda Maxwell, needed to be done.
Dr. Goodness examined Barbee and found no significant
symptoms of head injury, no indication that Barbee had
bipolar disorder, and no long-term or significant hydrocodone
abuse. Dr. Goodness thought that Barbee had Lyme’s Disease,
which can cause mood swings that mimic bipolar disorder,
as well as rage and violent tendencies. Ray did not think
Dr. Goodness’s testimony would be helpful to the defense.
Dr. Shupe examined Barbee and his probable diagnosis
was bipolar disorder and polysubstance abuse; some social
stressors; history of closed-head injuries; and anti-social
personality disorder. Dr. Shupe thought that Barbee was
fixated on how his mother would view him and how it would
kill her if she thought he had killed the Underwoods. Ray
did not believe Dr. Shupe’s testimony would be helpful. Dr.
Norman examined Barbee twice and found that he suffered
some mild depression, but did not think anything was wrong
with Barbee, mentally, as a result of his head injury. Ray said
that if the defense had called one of the mental health experts
to testify, the State would have been entitled to have Barbee
examined by its own expert, who would probably reach the
same harmful conclusions that the defense experts reached.
Ray testified that he decided not to present evidence
of Barbee’s head injuries because none of the doctors
found anything wrong with Barbee as a result of those
injuries. Moreover, evidence of the head injuries, migraine
headaches, and hydrocodone use would suggest a reason
why Barbee committed the murders and undermine his claim
of innocence. Ray said that, even at the punishment phase,
he generally *311 did not believe that “excuse” evidence
helped the client when the jury has just rejected the innocence
defense and found the client guilty. Ray knew that the defense
punishment witnesses were going to say that they believed
that the jury had wrongly convicted Barbee, and he thought
it would be inconsistent to offer evidence that excused the
murders.
Ray testified that he did not call Tim Davis as a character
witness because of the “road rage” incident. Ray thought the
prosecutor was very well prepared and thought it likely that
the prosecutor might know about that incident, as well as

some other things that Barbee had allegedly done. Maxwell’s
report to Ray about her interview of Davis stated:
Tim recollected that one day some men on the highway got
angry because Steve had cut them off. The men gave them
the finger and cut in front of their truck motioning them to
pull over. Steve said “watch this.” Steve pulled over on the
median as did the two men. It turned out to be an older man
and his son. They walked back to Steve’s truck and reached
in hitting Tim and Steve. They all ended up on the shoulder
fighting. Tim said he had to pull Steve off of the old man to
keep him from hurting him really bad. Then Steve started
in on the son. Tim pulled Steve off of him as well and the
two men left in Steve’s truck. Steve had managed to grab
the keys to the two men’s truck. Steve threw them out the
window about two miles down the road. “Steve had no off
button. When he got started he didn’t know how to stop.”
Tim had seen Steve fight on a couple of other occasions.
“He could take care of himself.” Tim also said that Steve
was stronger than two men put together. He could lift a tree
stump that two men together couldn’t lift.
Ray testified that he met with Davis in his office on February
20, 2006, and Davis’s story did not differ from what Maxwell
had reported. Although Maxwell stated in her report and in her
testimony that she still thought Davis would be a good witness
for Barbee, and although Davis had testified at the hearing
that he did not say the things that Maxwell put into her report,
Ray felt that it would be “malpractice or ineffectiveness, per
se” to call Davis as a witness.
Ray testified that he did not present any other lay opinion
testimony regarding Barbee’s lack of future dangerousness,
because that would have opened the witnesses up to crossexamination about whether they had heard of Barbee’s prior
bad acts. In addition to the “road rage” incident involving Tim
Davis, Ray had information that Barbee had engaged in acts
of vandalism and theft, had poured gasoline on baby hamsters
and set them on fire, had killed an animal when on a date, and
had offered to pay Painter to testify that Dodd had confessed
to the murders.
Ray testified that what he was trying to show through Evans’s
testimony is that the prison system has the ability to react to
inmate violence and had a way to take care of the problem if
Barbee were to violate the rules. He also presented evidence
that Barbee was going to be able to conform to the prison
policies because he had not caused any trouble in the Tarrant
County Jail. Ray said that if the jury had believed that, it
would have been sufficient to negate the State’s ability to
prove future danger beyond a reasonable doubt.

043
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

13

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

Tim Moore, Ray’s co-counsel, testified that he had been
appointed by Judge Gill in two or three cases at the time
of Barbee’s trial, and had made campaign contributions to
Judge Gill, as well as to every other criminal judge in Tarrant
County. He testified that Judge Gill did not limit or *312
direct how they conducted Barbee’s defense and made no
threats about withholding future appointments.
Moore’s testimony generally corroborated Ray’s testimony
with regard to their decision not to file a motion for a change
of venue, their investigation of Barbee’s claim of innocence
and his claim that Ron Dodd committed the murders, their
reasons for wanting Barbee’s family to view his videotaped
confession, the reasons for their decision not to call Tim Davis
as a witness and not to present testimony about Barbee’s
lack of future dangerousness, their reasons for not presenting
evidence of head injuries, headaches, and hydrocodone use,
and Barbee’s refusal to testify.
Dr. Stephen Martin did not testify, but his written statement
submitted with Barbee’s initial state habeas application
was admitted into evidence. Dr. Martin conducted a
neuropsychological evaluation of Barbee in 2007 and found
frontal lobe damage that would have likely increased Barbee’s
impulsive tendencies and reduced his ability to fully consider
the consequences of his actions. In his opinion, trial counsel
were ineffective by not presenting the testimony of an expert
such as himself at the punishment phase of Barbee’s trial.
Dr. J. Randall Price, a psychologist, testified for the State. He
reviewed all of the records and concluded that no expert had
found evidence that Barbee had suffered a brain injury. He
said that Dr. Martin’s test results were scored incorrectly and
did not suggest brain impairment or frontal lobe impairment
when scored correctly. He pointed out that three mental
health professionals conducted face-to-face evaluations of
Barbee close to the time of trial and none of them saw
evidence of a brain injury. There was material that could
have been harmful to the defense if Dr. Martin had been
called to testify. Although the psychosocial history contained
considerable evidence that was mitigating, it also contained
descriptions of past behaviors that were signs of aggression
and violence. There were descriptions and characterizations
of personality traits that would suggest poor control of his
behavior, impulsivity, irresponsibility, and failure to accept
responsibility for his actions. There was also a lot of evidence
of juvenile delinquency—animal cruelty, vandalism, and
stealing, from the age of early adolescence until the age

of 20. Barbee was described as being cocky and arrogant.
Dr. Price said that those kinds of traits are typically offered
as aggravation and would likely be viewed by a jury as
aggravating.
The state habeas court made the following findings with
respect to Barbee’s conflict of interest claim. Judge Gill
did not have any arrangement with Ray or Moore about
how they would handle Barbee’s defense, did not threaten
to withhold future appointments if Ray and Moore did
not handle Barbee’s defense in a certain manner, and did
not inhibit or interfere with their defense of Barbee. Trial
counsels’ decision not to seek a change of venue, and their
decisions about which witnesses and evidence to present,
were not influenced by their relationship with Judge Gill,
but were reasonable tactical decisions. Their decision to rely
on a theory that Lisa Underwood’s death was accidental
rather than a “Dodd-did-it” theory, was a matter of reasonable
professional judgment because the Dodd-did-it theory was
not consistent with other evidence of Barbee’s guilt and
would have been difficult because Barbee refused to testify.
Their efforts to defend Barbee were harmed by Barbee’s
changing version of events and his refusal to testify. Their
decision not to present evidence regarding mental health, head
injuries, and Barbee’s use of hydrocodone was a reasonable
tactical decision because the defense experts did not find any
mental-health *313 related evidence that would have aided
the defense, Barbee lacked significant symptoms from head
injuries, and Barbee did not have a history of long-term drug
abuse. Tim Davis’s testimony about the “road rage” incident
at the hearing was not credible. Ray and Moore did not elicit
testimony from the defense’s punishment phase witnesses
about Barbee’s low risk of committing future violent acts
because they were worried that the prosecution might have
known of the road rage incident and would use it to impeach
their witnesses. This was a reasonable tactical decision in
the light of their knowledge of Barbee’s past violence, and
was not due to their relationship with Judge Gill. The court
concluded that there was no evidence of a conflict of interest;
that Ray and Moore did not advance their own interests to
the detriment of Barbee’s; and that their strategic and tactical
decisions were not influenced by their relationship with Judge
Gill.
To succeed on his conflict of interest claim, Barbee had to
show that “an actual conflict of interest adversely affected”
trial counsels’ performance. Cuyler v. Sullivan, 446 U.S. 335,
348–49, 100 S.Ct. 1708, 64 L.Ed.2d 333 (1980); Beets v.
Scott, 65 F.3d 1258, 1271 (5th Cir. 1995). An “actual conflict”

044
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

14

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

exists when counsel “is compelled to compromise his or
her duty of loyalty or zealous advocacy to the accused by
choosing between or blending the divergent or competing
interests.” Perillo v. Johnson, 205 F.3d 775, 781 (5th Cir.
2000). An “adverse effect” requires proof that “ ‘some
plausible alternative defense strategy or tactic’ could have
been pursued but was not because of the actual conflict
impairing counsel’s performance.” Id.
The district court stated that Barbee did not argue that the
state court’s decision is unreasonable in the light of the
evidence but rather, “he picks and chooses from the facts in
the record to support his claim and simply disagrees with
the state-court ruling.” The district court, after reviewing all
of the evidence, concluded that Barbee failed to demonstrate
that the state court’s decision was based on an unreasonable
determination of the facts. The district court held that Barbee
failed to establish the existence of an actual conflict that
forced counsel to choose between their self-interest and their
duty to Barbee and that he did not present evidence that
there was a plausible alternative defense strategy or tactic that
could have been pursued but was not because of the alleged
conflict. Accordingly, Barbee failed to show that the state
court decision was based on an unreasonable application of
clearly established federal law.
We conclude that reasonable jurists would not debate the
district court’s decision that Barbee failed to demonstrate
an actual conflict of interest that adversely affected trial
counsels’ performance. We therefore DENY his request for a
COA for this claim.

C. Claim 3, Ineffective Assistance of Counsel at
Punishment Phase
Barbee requests a COA for his claims that trial counsel
rendered ineffective assistance at the punishment phase of
trial by (a) presenting the testimony of prison consultant
Susan Evans; (b) failing to present mitigating evidence; and
(c) failing to present evidence of head injuries and drug
abuse. Barbee did not raise claim 3(a) in his first state
habeas application. When he presented it in his second
state application, the TCCA dismissed it as abusive. Barbee
presented Claim 3(b) in his initial state habeas application,
but enlarged it, factually and legally, in his subsequent state
habeas application, and the TCCA dismissed it as abusive.
Barbee presented Claim 3(c) *314 in his initial state habeas
application, and the TCCA denied relief on the merits.

The IATC claims that were dismissed as an abuse of the writ
by the TCCA are procedurally defaulted, and federal review
is barred unless Barbee can show cause for the default and
actual prejudice as a result of the alleged violation of federal
law, or that the failure to consider the claims will result in
a fundamental miscarriage of justice (which requires that he
show he is actually innocent of the crimes for which he was
convicted). See Coleman v. Thompson, 501 U.S. 722, 750, 111
S.Ct. 2546, 115 L.Ed.2d 640 (1991); Sawyer v. Whitley, 505
U.S. 333, 339–40, 112 S.Ct. 2514, 120 L.Ed.2d 269 (1992).
For the ineffective assistance claims not presented in his
initial state habeas application, which the state court found
abusive, Barbee claims that he is entitled to the exception to
procedural default established in Martinez v. Ryan, ––– U.S.
––––, 132 S.Ct. 1309, 182 L.Ed.2d 272 (2012), and Trevino
v. Thaler, ––– U.S. ––––, 133 S.Ct. 1911, 185 L.Ed.2d 1044
(2013). In Martinez, the Supreme Court held that a petitioner
may establish cause to excuse the procedural default of an
IATC claim by showing that (1) his state habeas counsel
was constitutionally deficient in failing to include the claim
in his first state habeas application; and (2) the underlying
IATC claim is “substantial.” 132 S.Ct. at 1318. For a claim
to be “substantial,” the petitioner “must demonstrate that the
claim has some merit.” Id. An IATC claim is “insubstantial”
if it “does not have any merit” or is “wholly without factual
support.” Id. at 1319.
To establish ineffective assistance of his initial state habeas
counsel, Barbee must show both that habeas counsel’s
performance—in failing to present the IATC claims in the
first state habeas application—was deficient and that he was
prejudiced by the deficient performance—that is, that there
is a reasonable probability that he would have been granted
state habeas relief had the claims been presented in the first
state habeas application. See Martinez, 132 S.Ct. at 1318;
Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984). The Strickland standard also applies
to Barbee’s underlying IATC claims.
Under Strickland, “the proper standard for attorney
performance is that of reasonably effective assistance.” 466
U.S. at 687, 104 S.Ct. 2052. “[T]he defendant must show that
counsel’s representation fell below an objective standard of
reasonableness.” Id. at 688, 104 S.Ct. 2052.
Judicial scrutiny of counsel’s performance must be highly
deferential. It is all too tempting for a defendant to secondguess counsel’s assistance after conviction or adverse

045
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

15

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

sentence, and it is all too easy for a court, examining
counsel’s defense after it has proved unsuccessful, to
conclude that a particular act or omission of counsel was
unreasonable. A fair assessment of attorney performance
requires that every effort be made to eliminate the distorting
effects of hindsight, to reconstruct the circumstances of
counsel’s challenged conduct, and to evaluate the conduct
from counsel’s perspective at the time. Because of the
difficulties inherent in making the evaluation, a court
must indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged
action might be considered sound trial strategy. There are
countless ways to provide effective assistance in any given
case. Even the best criminal defense attorneys would not
defend a particular client in the same way.
*315 Id. at 689, 104 S.Ct. 2052 (internal quotation marks
and citations omitted).
With respect to the duty to investigate,
strategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually
unchallengeable; and strategic choices made after less
than complete investigation are reasonable precisely to the
extent that reasonable professional judgments support the
limitations on investigation. In other words, counsel has
a duty to make reasonable investigations or to make a
reasonable decision that makes particular investigations
unnecessary. In any ineffectiveness case, a particular
decision not to investigate must be directly assessed for
reasonableness in all the circumstances, applying a heavy
measure of deference to counsel’s judgments.
Id. at 690–91, 104 S.Ct. 2052; see also Williams v. Taylor, 529
U.S. 362, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000); Wiggins
v. Smith, 539 U.S. 510, 123 S.Ct. 2527, 156 L.Ed.2d 471
(2003); Rompilla v. Beard, 545 U.S. 374, 125 S.Ct. 2456, 162
L.Ed.2d 360 (2005). The Supreme Court has stated that these
three post-Strickland cases, each of which granted relief on
ineffective assistance claims, did not establish “strict rules”
for counsel’s conduct “[b]eyond the general requirement of
reasonableness.” Cullen v. Pinholster, 563 U.S. 170, 131 S.Ct.
1388, 1406–07, 179 L.Ed.2d 557 (2011). “An attorney need
not pursue an investigation that would be fruitless, much less
one that might be harmful to the defense.” Harrington v.
Richter, 562 U.S. 86, 131 S.Ct. 770, 789–90, 178 L.Ed.2d
624 (2011). Barbee’s trial counsel, as well as his state habeas
counsel, were “entitled to formulate a strategy that was

reasonable at the time and to balance limited resources in
accord with effective trial tactics and strategies.” Id. at 789.
To demonstrate prejudice, Barbee “must show that there is a
reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient
to undermine confidence in the outcome.” Strickland, 466
U.S. at 694, 104 S.Ct. 2052. “The likelihood of a different
result must be substantial, not just conceivable.” Richter, 131
S.Ct. at 792 (citation omitted). This showing is intentionally
difficult to satisfy: “In assessing prejudice under Strickland,
the question is not whether a court can be certain counsel’s
performance had no effect on the outcome.... Instead,
Strickland asks whether it is ‘reasonably likely’ the result
would have been different.” Id. at 791–92 (citations omitted).
Even if Barbee can establish that ineffective assistance of his
initial state habeas counsel constitutes cause for the default of
his IATC claims, “[a] finding of cause and prejudice does not
entitle [him] to habeas relief. It merely allows a federal court
to consider the merits of a claim that otherwise would have
been procedurally defaulted.” Martinez, 132 S.Ct. at 1320.
The district court held that Claim 3(a) is not substantial
and therefore the exception to the procedural bar does not
apply. Alternatively, the district court denied relief on the
merits. With respect to Claim 3(b), the district court observed
that much of the evidence adduced in the subsequent habeas
proceeding on Barbee’s conflict of interest claim was also
relevant to an evaluation of counsels’ representation with
respect to the mitigating evidence claim. The district court
concluded that the evidence and the claims developed in the
initial and subsequent state proceedings overlapped, making
it impractical, if not impossible, to parse the claims and the
facts between them. Accordingly, in the interest of addressing
counsels’ representation thoroughly *316 and conclusively,
the district court resolved Claim 3(b) by looking past any
procedural default and reviewing the claim on the merits, de
novo.
Because the district court addressed the merits of Barbee’s
procedurally defaulted IATC claims, it is arguable that Barbee
has received the relief available to him under Martinez and
Trevino. See Preyor v. Stephens, 537 Fed.Appx. 412, 422 (5th
Cir. 2013). We now turn to consider whether reasonable jurists
would debate the district court’s decision that Barbee’s IATC
claims are without merit.

046
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

16

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

1. Claim 3(a)—Presentation of Evans’s Testimony
At the punishment phase, the defense presented the testimony
of Susan Evans, a former Texas prison warden, for the
purpose of supporting counsels’ argument that Barbee could
successfully serve a life sentence. At the state habeas
evidentiary hearing, Ray testified that he was trying to show
that the prison system has the ability to react to the violence of
inmates, that people on death row are not the only people who
have committed violent acts and are not the only people who
commit violent acts in prison, and that the prison has a system
in place to take care of those kind of problems, which are a
very small percentage of infractions, considering the inmates
housed there.
As the district court noted, Evans’s testimony occupies over
90 pages of the trial transcript. The district court summarized
her testimony as follows:
Evans explained the qualifications and training of prison
employees, their defensive tactics and training, “use of
force” policies, and ongoing testing. She stated that prison
employees are professionals trained to handle any type of
offender and any type of situation. (26 RR 3–32.) She
described the prison classification system and explained
that Barbee, if given a life sentence, would never be
classified in the least-restrictive category (G1) and would
have to serve 10 years before he could be eligible for
G2. (26 RR 33–43.) She described the restrictions and
privileges related to various levels of security. She testified
that the inmates serving life sentences are not always the
worst inmates because they are in a controlled environment
with less stressors, and she testified that people in prison
mellow with age. (26 RR 72.) She also testified that prison
rules change over time and often become more restrictive,
not less, and that the prison does its best to recognize and
address developing patterns among offenders. (26 RR 92–
93.)
Barbee argues that trial counsel were ineffective in presenting
Evans’s testimony because Evans emphasized prison violence
and repeatedly pointed out the hazards and risks of placing
Barbee in general population, which gave the jury reasons
to choose the more secure death row where such incidents
can be minimized and controlled, rather than a life sentence
in general population. Barbee claims that Evans’s testimony
about riots, disturbances, hostage situations, assaults on
prison officers, gangs in the prison system, inappropriate

sexual relations between staff and inmates, sexual assaults,
extortion, escapes (including the escape of the “Texas Seven”
from the Connally Unit, which ended in the killing of a police
officer), and the fact that bad things happen even though
there are policies and procedures in place to prevent them,
is frequently presented by the prosecution in Texas capital
cases to show that death row is the most safe and secure
placement. According to Barbee, a jurist who read Evans’s
complete testimony, without having been informed which
*317 side presented it, would reasonably surmise that she
was a prosecution witness.
The district court observed that Barbee’s argument “picks
and chooses unidentified fragments of Evans’s testimony on
direct and cross examination and presents them in a list, out of
context.” The court noted that Barbee failed to acknowledge
the overall strategy for Evans’s testimony, which was to show
that Barbee could successfully serve a life sentence, and
what that life sentence would be like. In its opinion denying
Barbee’s motion to alter or amend, the district court reiterated
that under trial counsel’s direct examination, Evans presented
an overall picture of the prison disciplinary and classification
system, the reality of prison violence, and the steps taken to
deal with that violence, which focused on employee training.
She also testified that murderers often make the best inmates
because the triggering circumstances do not repeat themselves
in prison. The court reasoned that if trial counsel had failed to
acknowledge the violence in prison, as Barbee suggests, the
prosecution surely would have done so on cross-examination,
with a greater impact on the jury. Further, it may have led
the jury to think that counsel were uninformed or trying to
hoodwink the jury.
We conclude that reasonable jurists would not debate the
district court’s decision. A complete reading of Evans’s
testimony, rather than the snippets Barbee has chosen to
present, supports the district court’s decision that Barbee
failed to present a substantial ineffective assistance claim
based on his disagreement with counsel’s strategic decision
to present Evans’s testimony.

2. Claim 3(b)—Failure to present mitigating evidence
Next, Barbee requests a COA for his claim that trial counsel
were ineffective by failing to present mitigating evidence and
evidence of his lack of propensity for future dangerousness.
He contends that counsels’ admission that they did not ask
the defense punishment witnesses about future dangerousness

047
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

17

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

because of the “road rage” incident does not excuse their
failure to investigate whether their potential witnesses knew
of it. He contends that the jury could have drawn an adverse
inference from the fact that none of the defense witnesses at
the punishment phase were asked to address specifically the
future dangerousness issue. He argues that given his lack of
an arrest record, there is a likelihood of a different result had
the evidence been investigated and presented.
Although Barbee’s claim that trial counsel rendered
ineffective assistance in failing to present mitigating evidence
was fully litigated on the merits in Barbee’s initial state habeas
proceeding, the state habeas court allowed Barbee to present
similar evidence at the evidentiary hearing on the conflict of
interest claim in the subsequent state habeas proceedings, to
show the impact of the alleged conflict of interest on counsels’
representation. The district court correctly noted that much of
the evidence adduced at the state habeas evidentiary hearing
on Barbee’s conflict of interest claim, discussed in Part II.B.,
was also relevant in evaluating the mitigating evidence claim.
Thus, consideration of this claim requires an examination of
all of the evidence presented at trial and in the initial and
subsequent habeas proceedings. That evidence is described
below.
a. Evidence Presented at the Punishment Phase of Trial
At the punishment phase, the State called Barbee’s ex-wife,
Theresa. She testified that Barbee had assaulted her four times
during their marriage. She also testified about a road-rage
incident when *318 Barbee followed another car to a dead
end street and assaulted the driver. She described an argument
on July 4, 2003, in which Barbee threatened, as he had in
the past, to put her through a wood chipper. She hit him,
and he left. She testified that the businesses were in debt and
about how she had Barbee sign them over to her after he was
arrested. She testified that after she and Barbee divorced, she
began dating Dodd, who worked for Barbee. Dodd eventually
moved into her house. She said that Dodd was arrested and
faced twenty years of imprisonment for his involvement in
this case.
Theresa testified that on the Sunday morning after Lisa’s
disappearance, she saw Barbee at their office and told him
that the police had been at her house asking about him, his
Corvette, and a girl he used to date who was missing. She said
that he cried, said that his life was over, and told her to get the
businesses out of his name. She asked him to turn himself in
and not make her call the police. She talked to Barbee again
on the Monday night after he had confessed to the police, and

he told her that he did not mean to kill Lisa and Jayden. She
asked him about Dodd’s involvement, and he told her Dodd’s
mistake was picking him up. A day or two later, she visited
him in jail with his family, and he told her that she had it
all wrong, that he did not do it. Theresa said that she visited
Barbee in jail every week for about seven months. On her last
visit, he held up a piece of paper saying they could get back
together and try to have a baby. He asked her to say that Dodd
had “slipped” and was guilty of the murders.
On cross-examination, Barbee’s counsel elicited testimony
that Barbee was close to his brother and sister, both of
whom were dead, and that he had tried to commit suicide
while he and Theresa were married. Theresa conceded that
she had told the grand jury that she did not take seriously
Barbee’s threats to put her through the wood chipper and
that she had told the grand jury they had three, not four,
fights during their marriage. She admitted that not all of the
fights were Barbee’s fault, and that some of the blame was
hers. She also testified about the stressors Barbee was facing
the week of the murders: he was upset because he had just
learned that his father had colon cancer; he had been having
horrible headaches after being struck in the head by a pipe;
he was fighting with her and fighting with Trish; and they
were having problems with the businesses. She described
their work as children’s church leaders, including presenting
puppet shows and raising money for the church. She said
Barbee was good with the children, that the program grew
under their leadership, and that “it was a wonderful thing.”
The State’s second witness at the punishment phase was
Marie Mendoza, Barbee’s former co-worker. She testified
that Barbee called her frequently and claimed that he was
not married. She believed him until, during one of their
last conversations, she overheard a female voice in the
background. She had asked him for an estimate to trim some
trees at her home. Instead of giving her an estimate, he
trimmed the trees. When he called a few days later, she told
him she did not want a relationship with him and offered
to pay for the work that he had done. He became verbally
abusive, and she had no more contact with him. She thought
he was a very mean, cruel person and that he had no respect
for women.
The first witness for Barbee at the punishment phase was
Pastor Nancy Cearley. She testified that she had known the
Barbee family since 1989 and had officiated at Barbee and
Theresa’s wedding. Barbee and Theresa became leaders of the
children’s *319 program at the church and served for about

048
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

18

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

three years, growing the program from 10–15 children to 75–
80 children. She never had any complaints from parents about
Barbee. On cross-examination, she testified that she did not
believe he had killed Lisa and Jayden Underwood.
Barbee’s mother, Jackie Barbee, was the next witness. She
testified that he lost his only sister when he was 14 and his
only brother when he was 16. Both of them were 20 years
old when they died. Barbee “shut down” after his brother
died and did not graduate from high school, but obtained
his GED. She described an incident when he and his brother
were planning to make money by mowing lawns, but came
home with nothing, because they had mowed a yard for “a
poor little old lady” without charging her. Barbee wanted to
become a police officer, so he went to community college and
took courses. He worked as a reserve police officer for the
Blue Mound Police Department for two and one-half years.
She testified that he was a hard worker and described how he
started his tree-trimming business after cutting down a tree
in her yard that had been struck by lightning. Later, he hired
Theresa to help with the business because she needed money
and he felt sorry for her. Theresa paid the bills and Barbee did
all the work. Mrs. Barbee said that she and her husband, who
was undergoing chemotherapy, visited Barbee in jail every
week. She testified that they would continue to support him
when he goes to the penitentiary. She told the Underwood
family that Barbee and she and her husband were very sorry
and that she knew their pain because she had been there when
she lost her daughter, who was pregnant when she died. She
said that she wanted them to be forgiving and not bitter.
Barbee’s aunt, Mary Hackworth, testified that Barbee visited
her in South Carolina and stayed with her for three or four
months while he was looking for a job, before he got his GED.
She said that she loves Barbee dearly and was there to support
him, notwithstanding her doctor’s order not to travel.

loves him, and that he made her feel better every time she
visited him.
Denise Morrison, a former girlfriend, testified that she
became romantically involved with Barbee after his divorce.
They talked about getting married, but Barbee wanted a
child and she did not. They have remained close friends and
she visited him at the jail almost every weekend. On crossexamination, she admitted that she became romantically
involved with Barbee before he was divorced. She also
testified that she did not believe he committed the murders.
Following Evans’s testimony, described previously in Part
II.C.1., Christy McKemson, the former girlfriend of Barbee’s
former roommate, testified that she visited her ex-boyfriend
every weekend for about three months while he was living
with Barbee. She was there to support Barbee.
Jerry Jones, a confinement officer for the Tarrant County
Sheriff’s Department, *320 testified that he dated Barbee’s
sister in high school and played baseball with his brother. He
is a friend of Barbee’s parents, who are people of strong faith,
but this case has tested their faith and affected their health.
David Derusha, the court bailiff, was the final witness for
Barbee. He testified that he was primarily responsible for
transporting Barbee between the jail and court each day. He
said that Barbee had not been a problem and had not made
any threats.
In rebuttal, the State called Bruce Cummings, Jayden
Underwood’s soccer coach. He identified Jayden in a
photograph of the team.

Barbee’s niece, Jennifer Cherry (the daughter of his deceased
older sister), testified that she and Barbee are very close, that
he is more like a brother than an uncle, and that she loves him
with all her heart. She said that whether he ends up on death
row or with a life sentence, she would do anything she could
to maintain contact with him.

In closing argument, the State focused on the circumstances
of the offense, Barbee’s violent and manipulative behavior
with Theresa, and his cruelty to his former co-worker. The
prosecutor argued that the circumstances of the murders are
overwhelming evidence that there is a probability that Barbee
will commit more criminal acts of violence. The prosecutor
told the jury that a simple paternity test could have prevented
the crime, but Barbee did not wait, because violence is how
he handles his problems.

Ashley Vandever testified that she met Barbee in church when
she was 13 and they were good friends for about four years,
until she moved away. Her younger sister adored Barbee and
he was the reason she looked forward to going to church. She
testified that she visits him in jail every week because she

Barbee’s counsel, Moore, presented the following argument.
The State did not meet its burden of proving beyond a
reasonable doubt that Barbee would be a continuing threat
to commit criminal acts of violence in the penitentiary.
Punishment based on revenge has no place in the law. It can

049
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

19

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

be guaranteed that Barbee had no criminal history because if
it existed, the State would have presented it. Barbee was 37
years old when it happened and for three hours, he was not a
very nice human being. But there were 36 years before that
when he was not violent. He was raised in a good family with
hardworking parents. He lost his brother and sister and that
set him back, but he overcame it, got his GED, was a police
officer, started a successful business, and was a contributing
member of society. Barbee has not caused any problems while
in jail, and he will continue to behave well in the penitentiary.
Barbee will be almost 80 years old before the parole board
can even consider the possibility of releasing him.
Ray argued that Barbee’s leading the police to the bodies so
that they could have a decent burial, after he had already
confessed, was mitigating because it reduces his moral
blameworthiness. He reminded them of Evans’s testimony
that people who have killed are often the best prisoners
because the triggering circumstances do not repeat themselves
in prison, and argued that is the case with respect to Barbee.
b. Evidence Presented in the Initial State Habeas Proceeding
In his initial state habeas proceeding, Barbee presented the
statements of Amanda Maxwell, Dr. Stephen Martin, Nancy
Cearley, and Jackie Barbee; and Dr. Goodness’s report.
Maxwell’s statement covers essentially the same information
that she testified about in the state habeas evidentiary hearing,
described previously in Part II.B. Dr. Martin’s statement was
also described previously in Part II.B.
In her statement, Nancy Cearley said that if she had been
asked whether Barbee would be a future threat to society,
her answer would have been a definite no. Jackie Barbee’s
statement covers essentially the same information that she
testified about at the state habeas evidentiary hearing,
described in Part II.B. She said that if she had been asked
whether her son would be a future threat to society, her answer
would have been “of course not—never.”
*321 In her report to Barbee’s trial counsel, Dr. Goodness
described discussions with corrections officers who told her
that Barbee had done nothing to be a problem during his
incarceration and that they believed it unlikely that he would
be any sort of a security problem within a structured penal
institution. She noted that Barbee’s medical records indicated
that he had been diagnosed with Lyme’s disease, which causes
rages and mood swings that mimic bipolar disorder, but is
treatable with antibiotics. She observed that Barbee’s mother

had assisted him in remaining immature and emotionally
dependent upon her. Dr. Goodness stated that Barbee did not
appear to have significant symptoms suggestive of a head
injury, that she did not believe he has a bipolar mood disorder,
and that his use of hydrocodone does not suggest longterm significant abuse. She identified as secondary themes
of mitigation his lack of a criminal history, “good guy”
information, and his parents’ ill health.
The state habeas court also had before it the joint affidavit of
Ray and Moore. In their affidavit, counsel stated that they had
tried to show that Barbee had acted in a fit of rage and that
such anger was rare. They knew of other incidents of violence
in Barbee’s past and tried to keep that evidence from the
jury. Their affidavit contains essentially the same information
that they later testified about at the state habeas evidentiary
hearing, which has been described previously in Part II.B.
Counsel attached to their affidavit Amanda Maxwell’s notes
regarding her interview of Tim Davis about the road rage
incident.
The state habeas court found that counsels’ actions were
reasonable, that counsel offered reasonable mitigating
evidence and tried to limit damaging evidence, and that
counsel presented as thorough and positive a mitigation case
as possible. It found, however, that counsels’ efforts were
undercut by Barbee’s unwillingness to accept responsibility
for his actions. The TCCA adopted the trial court’s findings
and conclusions and denied the claim on the merits.
c. Evidence Presented in the Second State Habeas Proceeding
In his second state habeas application, Barbee presented
additional declarations attesting to mitigation evidence that
could have been presented. In his COA application, he
described this evidence as follows:
His mother, Jackie Barbee, if she had been properly prepared,
could have offered detailed information about Barbee’s
reading comprehension problems and academic struggles, his
grief at the deaths of his sister and brother, his service as
a reserve police officer, his hard work at his businesses, a
serious head injury caused by Ron Dodd just a few months
prior to his arrest, his suicidal ideation in jail, his history
of severe migraine headaches, which were a factor in his
“confession”, the motivation of Ron Dodd and Theresa to
blame the murders on him, and his lack of a history of
violence.

050
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

20

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

Bobby Boyd, former Assistant Superintendent of the Azle
Independent School District, and his wife, Sallie, could have
testified to Barbee’s good character and low probability of
committing future dangerous acts.

Mike Cherry, Barbee’s brother-in-law, could have testified
to Barbee’s non-violent nature and his love of animals and
children, and could have testified that Barbee was not likely
to commit violent acts in the future.

Mandy Carpenter, who had known Barbee for 21 years, could
have testified to his non-violent character, generosity, lack of
anger, and low risk of future dangerousness.

Sharon Colvin, another pastor, was not contacted by the
defense. She could have testified to Barbee’s friendly, jovial
and non-violent nature and would have testified that Barbee
probably would not be a future danger.

In addition to the testimony that she gave at trial, Barbee’s
niece, Jennifer Cherry, could have testified about Barbee’s
non-violent nature and Theresa’s aggressiveness, Theresa’s
embezzlement *322 from Barbee’s company, Theresa’s
romantic involvement with Ron Dodd and her wishing
for Barbee’s death, and Barbee’s leadership of the church
children’s program, including putting on puppet shows for the
children. In her declaration, Cherry stated that she felt that
trial counsel were not interested in what any of them had to
say, and that they did not prepare her to testify. Had she been
asked her opinion of the likelihood of Barbee committing
future acts of violence, she would have testified that the risk
was low.
Tina Church, an investigator, offered her services, without
charge, to trial counsel, but Ray refused. Church stated in
her declaration that she thought trial counsel were more
interested in having Barbee plead guilty than in investigating
his innocence or mitigating evidence. Church stated that she
discovered that Theresa had changed the company bonding
policy to a life insurance policy for which she was the
beneficiary.
Pastor Calvin Cearley did not testify at trial, but if he had
been called, he would have told the jury that Barbee was very
congenial, honest, caring, respectful of others, very friendly
and outgoing, kind and loving, and that he liked to make
people laugh. His wife, Nancy, the former co-pastor of the
church that Barbee attended, testified at trial, but could have
provided much more detail about Barbee’s activities with
the church children’s group. She stated in her declaration
that he was a very hard worker, dedicated to his job, and
the children loved him. She felt that trial counsel were just
going through the motions, because they did not question her
in depth about her knowledge of Barbee’s character, family,
efforts for the church, and non-violent nature. If asked, she
would have testified that she never knew him to commit any
acts of violence and she did not think he would be likely to
do so.

Tim Davis, Barbee’s former business partner and his best
friend, was not asked to testify. He could have discredited
Theresa’s testimony about Barbee’s violence and told the jury
about Barbee’s low propensity for future dangerousness.
Jerry Dowling could have testified to Barbee’s family
tragedies, good character and work ethic. He also could have
testified that Barbee would not be a future threat to anyone.
Mary Hackworth, Barbee’s aunt, testified at trial, but was not
asked about the death of his brother and sister and his good
and generous character. She could have testified that he was
a hard worker, was fond of animals, was always a gentleman
around women, that children loved him, and that he would not
be likely to commit future violent acts.
Christy Mackemson testified at trial, but she was not asked
about Barbee’s positive rapport with children. She could have
testified that she never saw him angry and did not think he
had a high risk of committing future acts of violence.
Melody Novak was not called to testify at trial, but would
have been willing to testify about Barbee’s good character and
devastation at the death of his brother and sister. She could
have testified that Barbee loved children and they loved him,
and *323 that he would not be a future danger to society.
At the state habeas evidentiary hearing on the conflict of
interest claim that Barbee presented in his subsequent habeas
application, the state court received testimony from Amanda
Maxwell, Tim Davis, Calvin Cearley, Nancy Cearley, Mike
Cherry, Jennifer Cherry, Sharon Colvin, and Jackie Barbee,
which was described previously in Part II.B. All of them
testified that they were not asked about the likelihood that
Barbee would commit future violent acts, but if they had been
asked, they would have said he did not pose a danger.
As we previously noted in the discussion of the conflict of
interest claim in Part II.B., Ray testified at the state habeas

051
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

21

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

evidentiary hearing that he did not call Tim Davis as a
character witness because of the “road rage” incident, and
did not present any other lay opinion testimony regarding
Barbee’s lack of future dangerousness, because that would
have opened the witnesses up to cross-examination about
whether they had heard of Barbee’s prior bad acts. In addition
to the “road rage” incident involving Tim Davis, Ray had
information that Barbee had engaged in acts of vandalism and
theft; had poured gasoline on baby hamsters and set them on
fire; had killed an animal when on a date; and had offered
to pay an inmate, Donald Painter, to testify that Dodd had
confessed to the murders.
d. The District Court Decision
The district court held that Barbee could not show that trial
counsel rendered ineffective assistance by failing to present
the testimony of Bobby and Sallie Boyd because Mrs. Boyd
stated in her declaration that she was asked to testify at trial
but declined, and Mr. Boyd did not state in his declaration that
he was available and would have testified at trial.
The district court rejected Barbee’s challenge to trial counsel’s
justification for not calling Tim Davis as a witness, based on
the statement in their joint affidavit that Davis said that Barbee
had “attempted to kill” the driver of the other vehicle. The
district court stated that counsel’s choice of words describing
Barbee’s behavior as an “attempt to kill,” even if inaccurate,
did not undermine their decision not to call Davis as a witness.
Maxwell had reported to counsel that Davis told her that
Barbee had no “off button” and that Davis had to pull Barbee
off the old man to keep Barbee from hurting the man “really
bad.” The court stated that counsel could reasonably decide
not to risk exposing the jury to evidence that demonstrated
Barbee’s confrontational and aggressive nature, especially
in the light of Theresa’s testimony about a similar road
rage incident on their first wedding anniversary, because the
jury would be unlikely to view two such similar events as
anomalies.
The district court held that Barbee’s contention that trial
counsel should have asked the punishment witnesses their
opinion about Barbee’s propensity for future dangerousness
overlooked the fact that the witnesses could have been
impeached with good-faith questions about their knowledge
of Barbee’s extraneous bad acts, including the road-rage
incident, Barbee’s setting baby hamsters on fire with gasoline,
vandalism of a school building, stealing from a bait-andtackle store and a concession stand, fire-setting, theft of
jewelry and other items from a locker room, killing an animal

while on a date with Michelle Cook, and bribing another
inmate, Donald Painter, to testify that Dodd had confessed.
The court pointed out that as a result of counsels’ strategy, the
jury did not learn about his acts of vandalism, *324 theft,
and animal cruelty, and counsel were able to argue to the jury
that Barbee had no criminal history and was not a juvenile
delinquent.
The district court stated that Barbee’s criticism of trial counsel
for not investigating whether the defense witnesses knew
about the road rage incident involving Davis demonstrated
a failure to understand Texas law. Whether the defense
witnesses knew about the incident was beside the point; if
the prosecution knew about it, the State would have been
entitled to ask them about it and the jury would have heard
the damaging questions. Any witness who maintained the
opinion that Barbee was not a future danger could have been
impeached as either (1) uninformed, because he did not know
Barbee’s true behavior, or (2) biased, because he knew about
the behavior but it did not affect his opinion. Third, and
arguably worse, the witness might have changed his opinion
after learning of the prior bad acts on cross-examination.
With respect to Dr. Goodness, the district court noted that
the record did not show that Dr. Goodness believed Barbee
presented a low risk of future dangerousness. Even assuming
she had that opinion and so testified, however, she would
have been subject to potentially damaging cross-examination
about Barbee’s bad acts. Also, it would have allowed the
State to have its own expert evaluate Barbee, which counsel
did not want to allow, because it would have provided an
opportunity for the State to obtain a damaging diagnosis or
learn harmful things about Barbee’s past. The district court
held that Barbee had failed to show that counsels’ decision to
avoid an evaluation by the State’s expert was outside the wide
range of reasonable professional assistance.
The district court observed that some of the information that
Barbee claimed trial counsel should have presented regarding
his good character, his stable family, the loss of his siblings,
head injuries, suicidal ideation, the crime-week stressors that
Barbee faced, and the negative character evidence about his
ex-wife, Theresa, was more of the same information the
jury heard at trial. It cited Fifth Circuit precedent holding
that courts must be “particularly wary of arguments that
essentially come down to a matter of degrees. Did counsel
investigate enough? Did counsel present enough mitigating
evidence? Those questions are even less susceptible to
judicial second-guessing.” Skinner v. Quarterman, 576 F.3d

052
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

22

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

214, 220 (5th Cir. 2009) (internal quotation marks and citation
omitted).
The district court characterized some of the mitigating
evidence that Barbee criticized counsel for not presenting,
such as the opinions of his family and friends that he is
of good character and from a stable family, his academic
struggles, the loss of his siblings through illness and a car
accident, head injuries that no trial expert believed caused any
brain damage, voluntary short-term hydrocodone abuse, and
evidence discrediting Theresa, as only “mildly mitigating.”
The court held that experienced counsel reasonably could
have decided that the jury would not be impressed with an
attempt to humanize Barbee with such evidence.
In addition, the district court noted that some of
the declarations presented by Barbee contain harmful
information that could have been brought out on crossexamination, such as evidence that reinforced the picture
of Barbee as a man who did not commit himself in
his relationships with women and supported the State’s
theory of motive. For example, Barbee’s mother stated in
her declaration that Barbee previously had a child with a
coworker at the *325 Blue Mound Police Department but
gave up his parental rights.
The district court rejected Barbee’s contention that trial
counsel contradicted themselves in their joint affidavit by
claiming that their efforts to prepare and present a defense
were hampered by Barbee’s ever-changing version of the
murders and his involvement in them, while stating in
the same affidavit that Barbee consistently maintained his
innocence from the beginning of their representation. The
district court pointed out that counsel had to contend with
Barbee’s prior inconsistent statements that were known to the
prosecution regardless of whether they had been appointed to
represent him when the inconsistent statements were made.
The district court concluded that Barbee had failed to show
that counsel performed deficiently in presenting Barbee’s
mitigation case at punishment. The court pointed out that
counsel held the State to its burden of proof and let the
lack of evidence speak for itself. Counsel capitalized on
Barbee’s strongest argument for a life sentence, his lack of
criminal history. Counsel guaranteed that Barbee had no prior
convictions or juvenile history because the State did not offer
any evidence of such. They argued that “three hours” did
not define Barbee as a person, emphasizing the good people
who had supported Barbee throughout the trial because they

knew him as a different person, and summarizing the previous
36 years of his good family life, the tragedies he endured
and overcame, his strong work ethic, and his involvement in
the church. Counsel presented evidence and argument that
Barbee behaved well in the jail and that he would be almost
80 years old before he was even eligible for parole.
The district court held that, even if it presumed deficient
performance, Barbee failed to demonstrate a reasonable
probability that the additional evidence Barbee presented
post-conviction would have undermined confidence in the
verdict. The court stated that it is “beyond reasonable” to
conclude that the aggravating facts of the offense, in which
Barbee took the life of a pregnant woman, the seven-yearold son who came to her defense, and an unborn child
who Barbee knew might be his own, greatly outweigh any
mitigating effect of the additional evidence counsel allegedly
overlooked.
Barbee argues that even if the State had found out about the
unreported road rage incident, it was not so threatening as to
excuse trial counsels’ failure to present evidence regarding
the lack of future dangerousness of a 38–year–old successful
businessman with no criminal record. He maintains that
because the prosecution did not present the “road rage”
incident at trial or list it in any pretrial notice of aggravating
evidence, the State either did not know about it or did not
consider it to be aggravating. He contends that the district
court’s rejection of this claim on the ground that presentation
of mitigating evidence would be inconsistent with his claims
of innocence is unreasonable, because his attorneys did not
argue innocence but, instead, conceded his guilt and argued
that the killing was accidental. Finally, Barbee argues that
the district court’s inconsistency in praising counsel for
relying on Barbee’s lack of criminal history, while citing
Barbee’s violent past behavior to denigrate his argument
that the witnesses should have been asked about future
dangerousness, strongly suggests that the district court is
biased.
Reasonable jurists would not debate the district court’s
decision, and we therefore deny Barbee’s request for a COA
for this claim. Barbee’s suggestion that the district court was
biased overlooks the fact that his counsel probably would
not have been *326 able to rely on his lack of criminal
history and juvenile delinquency if they had done what
Barbee argues they should have done. If they had presented
lay opinion testimony about Barbee’s low risk of committing
future violent acts, the witnesses would have been subject

053
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

23

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

to cross-examination about Barbee’s acts of theft, vandalism,
and animal cruelty, which would have been very harmful to
his case.

3. Claim 3(c)—Failure to present evidence of head injuries
and drug abuse
Finally, Barbee requests a COA for his claim that trial
counsel rendered ineffective assistance by failing to present
evidence of head injuries and hydrocodone use at the
punishment phase. He contends that such evidence would
have been supportive of the defense argument that the killing
of Lisa Underwood was accidental. He argues that trial
counsels’ decision not to present this evidence because it was
inconsistent with his claim of innocence is flawed, because
innocent people suffer from head injuries, and an acceptance
of responsibility has nothing to do with counsels’ duty to
thoroughly and completely investigate and present mitigating
evidence.
As support for this claim in his initial state habeas
proceedings, Barbee submitted mitigation specialist Amanda
Maxwell’s report in which she stated that Barbee’s medical
records showed a history of head injuries. The most recent
was in January 2005, when Ron Dodd dropped a 400–pound
metal pipe on Barbee’s head at a work site. The impact split
his hard hat and resulted in a loss of consciousness. The
frequency and intensity of his migraine headaches increased
after that injury, and he began taking hydrocodone that had
been prescribed for his wife. Barbee also supported the
claim with a report from psychologist Dr. Kelly Goodness,
who noted that Barbee had been diagnosed with Lyme’s
Disease, and a letter from Dr. James Shupe, a psychiatrist,
who suggested a probable diagnosis of “polysubstance
dependence” and a “history of closed head injuries.”
In their affidavit, trial counsel said that they had discussed
the information developed by Maxwell, Dr. Goodness, and
Dr. Shupe, but concluded that the head-injury and druguse evidence would have been mitigating only for a guilty
man. They decided that the evidence would not be helpful
because Barbee refused to accept any responsibility for the
murders. Ray testified at the state evidentiary hearing that
he did not believe that “excuse” evidence helped a client at
the punishment phase, when the jury had just rejected the
innocence defense and found the client guilty. Furthermore,
Ray knew that the witnesses who were going to testify
for Barbee at the punishment phase believed that the jury

had wrongly convicted Barbee, and he thought it would
be inconsistent with their testimony to offer evidence that
suggested a reason why Barbee committed the murders.
The state habeas court held that trial counsels’ decision not to
present evidence of Barbee’s head injuries and drug use was a
reasonable tactical decision and was not adverse to Barbee’s
interests, given Barbee’s lack of significant symptoms and his
unwillingness to accept responsibility for the murders. It also
concluded that he could not show prejudice.
The district court held that the state court reasonably could
have decided that counsels’ decision not to present evidence
of head injuries and hydrocodone use was within the bounds
of reasonable professional representation. The district court
rejected Barbee’s argument that evidence of his head injuries
would have supported *327 the accidental killing theory
because trial counsel, who had the assistance of three mental
health experts, had no evidence that Barbee was brainimpaired as a result of his head injuries. Dr. Shupe, a forensic
psychiatrist, stated in a letter to counsel that Barbee had a
history of closed head injuries, but that his failure to accept
some responsibility for the offense impaired the use of that
evidence for mitigation purposes. Dr. Shupe also stated that
Barbee appeared to be “fixated” on how his mother would
view him if she thought he was guilty, and had said he would
rather be executed than have his mother see him plead guilty.
Dr. Goodness reported to counsel that Barbee did not appear
to have significant symptoms suggestive of a head injury and
that his report of hydrocodone use did not suggest long-term
significant abuse.
The district court further noted that counsels’ theory that
Lisa’s death was accidental was based on her physical state
rather than Barbee’s mental state. Barbee’s trial counsel
elicited testimony from the assistant medical examiner that
Lisa’s airway would have likely been more obstructed
because her uterus was “bigger than a basketball” and that
she would have had less cardiovascular reserve in her third
trimester than at other times. The medical examiner agreed
that the more pregnant the victim, the less time it would
take for her to die. Trial counsel then argued to the jury that
Barbee simply held her down too long based on her physical
condition, which was consistent with Barbee’s confession to
Trish. Because the argument was based on Lisa’s advanced
pregnancy and not Barbee’s mental state when he held her
down, the district court reasoned that the evidence of Barbee’s
head injuries would not have supported the argument.

054
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

24

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

The district court pointed out that Barbee’s own postconviction expert, Dr. Martin, corroborated trial counsels’
view that evidence of Barbee’s head injuries would not be
helpful because he had refused to accept responsibility. Dr.
Martin stated that the behavioral effects caused by frontal
lobe impairment provided “a broader and more accurate
explanation for why Mr. Barbee could have engaged in a
violent crime” and that “Barbee’s violent actions at the time of
the offense would have been mediated by emotional factors as
opposed to reason, due to the aforementioned damage to his
frontal lobes.” The district court stated that Barbee’s assertion
that “innocent people get head injuries” does not change the
fact that a jury in a criminal case would view such evidence as
an explanation for the commission of the crime. Without some
acceptance of responsibility, the jury might see such evidence
as aggravating or a ploy for undeserved sympathy. It held that
trial counsel reasonably concluded that the presentation of
such evidence might do harm in this case.
In its opinion denying Barbee’s motion to alter or amend,
the district court stated that Barbee exaggerated the scope of
trial counsels’ reliance on his refusal to accept responsibility.
Trial counsel believed that the head injuries and some of
Barbee’s mental health diagnosis could have been helpful at
punishment only if Barbee had accepted some responsibility
for his actions. They also believed, however, that the
usefulness of the head injury evidence and mental health
diagnosis was outweighed by the diagnosis of anti-social
personality disorder and the fact that the State would have
been entitled to an expert evaluation, which probably would
have yielded the same harmful conclusions as Dr. Shupe.
Counsel also did not want to be inconsistent with the
punishment witnesses who all believed that Barbee was
innocent. The district court held that Barbee failed to *328
show that these decisions were unreasonable.
Barbee argues that the mitigating evidence would have been
offered at the punishment phase, after his guilt had already
been determined. Therefore, it was not dependent on, and
did not diminish, the claim of innocence that was never
presented to the jury and was not dependent on him accepting
responsibility for the murders.
Reasonable jurists would not debate the district court’s
decision. Barbee ignores Ray’s explanation for why they
did not present evidence of Barbee’s head injuries, migraine
headaches, and hydrocodone use. Trial counsels’ reasons
for not presenting this evidence are reasonable, especially
their wanting to avoid having Barbee examined by the

State’s expert. Barbee is essentially just second-guessing their
strategy. We therefore deny his request for a COA for this
claim.

D. Claim 4—Denial of Motion to Alter or Amend
In his motion to alter or amend, Barbee cited reports from
investigator Tina Church, who was described by Barbee as
a “disinterested” witness. In its opinion denying Barbee’s
motion to alter or amend, the district court attached as an
exhibit a web page of Church’s organization, “The Other
Victim’s Advocacy,” to show that she was not “disinterested”
because of her anti-death penalty views. Barbee argues that
the district court’s reliance on this extra-record information to
rule against him violated due process and deprived him of a
fair hearing on his claim of actual innocence.
Tina Church’s declaration did not play a large role in
the district court’s denial of Barbee’s motion to alter or
amend. Furthermore, Barbee arguably invited the court’s
investigation and comment when he described Church in his
motion as “disinterested.” In any event, even if we assume
that the district court was wrong to cite the extra-record
evidence, any error is harmless and does not show that the
district court abused its discretion in denying the motion to
alter or amend.

III. Conclusion
To sum up, we GRANT Barbee’s request for a COA for
Claim 2 (ineffective assistance of counsel for confessing guilt
during closing argument). With respect to Claims 1, 3(a),
3(b), and 3(c), Barbee has not made “a substantial showing of
the denial of a constitutional right,” 28 U.S.C. § 2253(c)(2),
because the district court’s denial of relief is not debatable and
Barbee’s claims are not adequate to deserve encouragement
to proceed further. We therefore DENY a COA for those
claims. We further hold that the district court did not abuse
its discretion when it cited extra-record evidence in its order
denying Barbee’s motion to alter or amend.
COA GRANTED in part and DENIED in part.
All Citations
660 Fed.Appx. 293

055
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

25

Barbee v. Davis, 660 Fed.Appx. 293 (2016)

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

056
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

26

APPENDIX E

App. 057

Ex parte Barbee, Not Reported in S.W.3d (2009)
2009 WL 82360

2009 WL 82360
Only the Westlaw citation is currently available.
UNDER TX R RAP RULE 77.3, UNPUBLISHED
OPINIONS MAY NOT BE CITED AS AUTHORITY.
ORDER
Do Not Publish
Court of Criminal Appeals of Texas.

Ex parte Stephen Dale BARBEE.
No. WR–71,070–01.
|
Jan. 14, 2009.
On Application for Writ of Habeas Corpus in Cause No.
1004856r, In the 213 Judicial District the Court Tarrant
County.

ORDER
PER CURIAM.
*1 This is a post-conviction application for writ of habeas
corpus filed pursuant to the provisions of Texas Code of
Criminal Procedure article 11.071.
End of Document

In February 2006, a jury convicted Applicant of the offense
of capital murder. The jury answered the special issues
submitted under Article 37.071 of the Texas Code of Criminal
Procedure, and the trial court, accordingly, set punishment
at death. This Court affirmed Applicant's conviction and
sentence on direct appeal. Barbee v. State, No. AP–Barbee–
275,359 (Tex.Crim.App. December 10, 2008).
Applicant presents four allegations in his application in which
he challenges the validity of his conviction and resulting
sentence. The trial court did not hold an evidentiary hearing.
The trial court adopted the State's proposed findings of fact
and conclusions of law recommending that the relief sought
be denied.
This Court has reviewed the record with respect to the
allegations made by applicant. We adopt the trial judge's
findings and conclusions. Based upon the trial court's findings
and conclusions and our own review, the relief sought is
denied.
IT IS SO ORDERED THIS THE 14TH DAY OF JANUARY,
2009.
All Citations
Not Reported in S.W.3d, 2009 WL 82360
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

058
© 2021 Thomson Reuters. No claim toApp.
original
U.S. Government Works.

1

APPENDIX F

App. 059

FILED
THOMAS A. WILDER, DIST. CLERK
TARRANTCOUNTY,TEXAS

JUL O6 2021
Cause No. 1004856R

TIME_~\~fl.=~~-0~7~-BY

THE STATE OF TEXAS

v.
STEPHEN DALE BARBEE

§
§
§
§
§

4,~DEPUTY

IN THE 213TH JUDICIAL
DISTRICT COURT OF
TARRANT COUNTY, TEXAS

ORDER SETTING EXECUTION DATE

Before the Court is the State's Second Motion for Court to Enter Order Setting
Execution Date, filed on March 30, 2021. The Court finds that the motion should be
GRANTED and a date of execution be set in this case.

I.

Defendant Stephen Dale Barbee was convicted of capital murder on February
23, 2006, for intentionally causing the deaths of Lisa Underwood and Jayden
Underwood during the same criminal transaction. After the jury returned an affirmative
answer to the future dangerousness special issue and a negative answer to the
mitigation special issue, this Court sentenced the Defendant to death by lethal injection
on February 27, 2006.
The Court of Criminal Appeals of Texas affirmed the Defendant's conviction
and death sentence on direct appeal on December 10, 2008, and the Supreme Court of
the United States denied his petition for a writ of certiorari on October 5, 2009. See
Barbee v. State, 2008 WL 5160202 (Tex. Crim. App. 2008) (unpublished), cert.
STEPHEN DALE BARBEE, CAUSE NO. 1004856R - ORDER SETTING EXECUTION DATE, Page 1 of 5

App. 060

denied, 558 U.S. 856, 130 S.Ct. 144, 175 L.Ed.2d 94 (2009). The Court of Criminal
Appeals of Texas denied the Defendant's original state application for writ of habeas
corpus on January 14, 2009, and his subsequent application on May 8, 2013. See Ex

parte Barbee, 2009 WL 82360 (Tex. Crim. App. 2009) (unpublished); Ex parte
Barbee, 2013 WL 1920686 (Tex. Crim. App. 2013) (unpublished).
The United States District Court for the Northern District of Texas, Fort Worth
Division, denied the Defendant's petition for writ of habeas corpus on July 7, 2015.

See Barbee v. Stephens, 2015 WL 4094055 (N.D. Tex. 2015) (unpublished). The
United States Court of Appeals for the Fifth Circuit denied the Defendant's certificate
of appealability in part on November 23, 2016, and affirmed the denial of his petition
for writ of habeas corpus on March 21, 2018. See Barbee v. Davis, 660 Fed. Appx. 293
(5th Cir. 2016); Barbee v. Davis, 728 Fed. Appx. 259 (2018). The Supreme Court of
the United States denied the Defendant's petition for writ of certiorari on November
19, 2018. See Barbee v. Davis, 2018 WL 3497292 (2018). There is currently nothing
before this Court to prevent an execution date from being set.

IL
This Court previously set an order for the Defendant's execution on October 2,
2019. See Order Setting Execution Date. On September 23, 2019, the Court of
Criminal Appeals stayed the Defendant's execution so that it could consider a claim
that the Defendant suffered structural error due to his trial counsel improperly
STEPHEN DALE BARBEE, CAUSE NO. 1004856R - ORDER SETTING EXECUTION DATE, Page 2 of 5

App. 061

overriding his Sixth Amendment right to insist that counsel maintain his innocence.
See Order Staying Execution. On February 10, 2021, the Court of Criminal Appeals

dismissed the Defendant's claim because it was previously legally available and
because it did not allege facts entitling him to relief. Ex parte Barbee, _S.W.3d_,
2021 WL 476477, at *8 (Tex. Crim. App. February 10, 2021). Mandate was issued on
March 8, 2021.
III.
IT IS THEREFORE EVIDENT that Defendant has exhausted his avenues for
relief through the state and federal courts, and further there are no stays of execution in
effect in this case.
ACCORDINGLY, IT IS HEREBY ORDERED that the Defendant, Stephen
Dale Barbee, who has been adjudged to be guilty of capital murder as charged in the
indictment and whose punishment has been assessed by the verdict of the jury and
judgment of the Court at DEATH, shall be kept or taken into the custody of the
Director of the Correctional Institutions Division of the Texas Department of Criminal
Justice until the 12TH DAY OF OCTOBER 2021, upon which day, at the
Correctional Institutions Division of the Texas Department of Criminal Justice, at some
time after the hour of six o'clock p.m., in a room designated by the Correctional
Institutions Division of the Texas Department of Criminal Justice and arranged for the
purpose of execution, the said Director, acting by and through the executioner
STEPHEN DALE BARBEE, CAUSE NO. 1004856R - ORDER SETTING EXECUTION DATE, Page 3 of 5

App. 062

designated by said Director, as provided by law, is hereby commanded, ordered and
directed to carry out this sentence of death by intravenous injection of a substance or
substances in a lethal quantity sufficient to cause the death of the Defendant, Stephen
Dale Barbee, until Stephen Dale Barbee is dead. Such procedure shall be determined
and supervised by the said Director of the Correctional Institutions Division of the
Texas Department of Criminal Justice.

IT IS FURTHER ORDERED that the Clerk of this Court shall issue and
deliver to the Sheriff of Tarrant County, Texas, a Death Warrant in accordance
with this sentence and Order, directed to the Director of the Correctional Institutions
Division of the Texas Department of Criminal Justice, at Huntsville, Texas,
commanding the said Director, to put into execution the Judgment of Death against
Stephen Dale Barbee.

The Sheriff of Tarrant County, Texas IS HEREBY ORDERED, upon
receipt of said Death Warrant, to deliver said Warrant to the Director of the
Correctional Institutions Division of the Texas Department of Criminal Justice,
Huntsville, Texas together with Defendant Stephen Dale Barbee.

IT IS FURTHER ORDERED that the Clerk of this Court shall immediately
deliver a copy of this order to:
(a)

the attorney who represented the Defendant in the most recently
concluded stage of a state or federal post-conviction proceeding,

STEPHEN DALE BARBEE, CAUSE NO. 1004856R - ORDER SETTING EXECUTION DATE, Page 4 of 5

App. 063

(b)

the Office of Capital and Forensic Writs by first-class mail, e-mail, or fax
not later than the second business day after the Court enters the order, see
TEX. CODE CRIM. PROC. ART. 43.14l(b-l) (1) & (2), and

(c)

the post-conviction unit of the Tarrant County Criminal District
Attorney's Office, all within the same time frame.

/

-r'l/-

SIGNED this ----'~--day of July 2021.

CHRIS WOLFE, JUDG
213TH JUDICIAL DISTRICT COURT
TARRANT COUNTY, TEXAS

STEPHEN DALE BARBEE, CAUSE NO. 1004856R- ORDER SETTING EXECUTION DATE, Page 5 of5

App. 064

THE STATE OF TEXAS

vs.

§

IN THE 213TH DISTRICT

§
§

COURT OF

§

CAUSE NO. 1004856R

§

TARRANT COUNTY, TEXAS

§

STEPHEN DALE BARBEE

§

DEATH WARRANT
To the Director of the Correctional Institutions Division of the Texas Department Of Criminal Justice at
Huntsville, Texas, or in case of his death, disability or absence, the Warden of the Huntsville Unit of the Correctional
Institutions Division of the Texas Department of Criminal Justice or in the event of the death or disability or absence of
both the Director of the Correctional Institutions Division of the Texas Department Of Criminal Justice and the Warden
of the Correctional Institutions Division of the Texas Department Of Criminal Justice, to such person appointed by the
Board of Directors of the Correctional Institutions Division of the Texas Department Of Criminal Justice, Greetings:
Whereas, on the 23RD day of FEBRUARY, A.D. 2006, in the 213TH District Court of Tarrant County,
Texas, STEPHEN DALE BARBEE was duly and legally convicted of the crime of Capital Murder, as fully appears in
the judgment of said Court entered upon the minutes of said court as follows, to-wit: Judgment attached and,
Whereas, on the 27TH day of FEBRUARY, A.D., 2006 the said Court pronounced sentence upon the said
STEPHEN DALE BARBEE in accordance with said judgment fixing the time for the execution of the said STEPHEN
DALE BARBEE for any time after the hour of 6:00 p.m. on TUESDAY, the 12TH day of OCTOBER, A.D., 2021, as
fully appears in the sentence of the Court and entered upon the minutes of said Court as follows, to-wit: Sentence
attached.
These are therefore to command you to execute the aforesaid judgment and sentence any time after the hour of
6:00 p.m. on TUESDAY, the 12TH day of OCTOBER, A.D., 2021, by intravenous injection of substance or substances
in a lethal quantity sufficient to cause death and until the said STEPHEN DALE BARBEE is dead.
Herein fail not, and due return make hereof in accordance with law.
Witness my signature and seal of office on this the 6TH day of JULY, A.D., 2021.
Issued under my hand and seal of Office in the City of Fort Worth, Tarrant County Texas this 6TH day of
JULY, 2021.

THOMAS A. WILDER,
CLERK OF THE DISTRICT COURTS OF
TARRANT COUNTY, TEXAS

App. 065

RETURN OF THE DIRECTOR OF THE TEXAS DEPARTMENT OF CORRECTIONS

Came to hand, this the _ _ day of _ _ _ __, _ _ and executed the _ _ day of _ _ _ __, __ by the
death of

STEPHEN DALE BARBEE

DISPOSITION OF BODY:

DATE:
TIME:

DIRECTOR OF TEXAS DEPARTMENT OF CORRECTIONS

BY: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

App. 066

1004856R

Death Warrant and Execution Order for STEPHEN DALE BARBEE was hand-delivered by the Sheriff of Tarrant
County to Texas Department of Criminal Justice, Classification and Records on this
_ _ _ _ _ _ ___,20

Received by:

Delivered by:

Bryan Collier, Executive Director
Texas Department of Criminal Justice

Sheriff

App. 067

day of

